<html>
<title> - PREPARING TEACHERS FOR THE CLASSROOM: THE ROLE OF THE HIGHER EDUCATION ACT AND NO CHILD LEFT BEHIND</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                 PREPARING TEACHERS FOR THE CLASSROOM:
                  THE ROLE OF THE HIGHER EDUCATION ACT
                        AND NO CHILD LEFT BEHIND

=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 17, 2007

                               __________

                           Serial No. 110-39

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                     U.S. GOVERNMENT PRINTING OFFICE

35-187 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS


                    RUBEN HINOJOSA, Texas, Chairman

George Miller, California            Ric Keller, Florida,
John F. Tierney, Massachusetts         Ranking Minority Member
David Wu, Oregon                     Thomas E. Petri, Wisconsin
Timothy H. Bishop, New York          Cathy McMorris Rodgers, Washington
Jason Altmire, Pennsylvania          Virginia Foxx, North Carolina
John A. Yarmuth, Kentucky            John R. ``Randy'' Kuhl, Jr., New 
Joe Courtney, Connecticut                York
Robert E. Andrews, New Jersey        Timothy Walberg, Michigan
Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware
Susan A. Davis, California           Mark E. Souder, Indiana
Danny K. Davis, Illinois             Vernon J. Ehlers, Michigan
Mazie Hirono, Hawaii                 Judy Biggert, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 17, 2007.....................................     1
Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............     2
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........     2
        Prepared statement of....................................     3
        Prepared statement of the Board of Directors of the 
          Association of Teacher Educators (ATE).................     5
    Keller, Hon. Ric, Senior Republican Member, Subcommittee on 
      Higher Education, Lifelong Learning, and Competitiveness...     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Fallon, Daniel, director, Program in Higher Education, 
      Carnegie Corporation of New York...........................    24
        Prepared statement of....................................    26
        ``Teachers for a New Era: A National Initiative to 
          Improve the Quality of Teaching''......................    63
    Feistritzer, Emily, president, National Center for 
      Alternative Certification and the National Center for 
      Education Information......................................    29
        Prepared statement of....................................    31
    Robinson, Sharon P., Ed.D., president and CEO, American 
      Association of Colleges for Teacher Education..............    17
        Prepared statement of....................................    18
        Summary of AACTE's HEA legislative language 
          recommendations........................................    38
        Summary of AACTE's NCLB legislative language 
          recommendations........................................    42
        ``What Can the Federal Government Do? A Marshall Plan for 
          Teaching,'' by Linda Darling Hammond, professor, 
          Stanford University....................................    49
    Scott, George A., Director, Education, Workforce, and Income 
      Security Issues, U.S. Government Accountability Office.....     8
        Prepared statement of....................................     9
    Wiley, Dr. Janice, deputy director, Region One Education 
      Service Center.............................................    21
        Prepared statement of....................................    23


                       PREPARING TEACHERS FOR THE
                       CLASSROOM: THE ROLE OF THE



                        HIGHER EDUCATION ACT AND
                          NO CHILD LEFT BEHIND

                              ----------                              


                         Thursday, May 17, 2007

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10 a.m., in Room 
2175, Rayburn House Office Building, Hon. Ruben Hinojosa 
[chairman of the subcommittee] presiding.
    Present: Representatives Hinojosa, Tierney, Bishop, 
Altmire, Yarmuth, Courtney, Scott, Davis of California, Keller, 
Foxx, Kuhl, Walberg, Castle and Ehlers.
    Staff Present: Tylease Alli, Hearing Clerk; Jeff Appel, GAO 
Detailee; Amy Elverum, Legislative Fellow, Education; Lamont 
Ivey, Staff Assistant, Education; Brian Kennedy, General 
Counsel; Ricardo Martinez, Policy Advisor for Subcommittee on 
Higher Education, Lifelong Learning and Competitiveness; 
Stephanie Moore, General Counsel; Lisette Partelow, Staff 
Assistant, Education; Rachel Racusen, Deputy Communications 
Director; Theda Zawaiza, Senior Disability Policy Advisor; Mark 
Zuckerman, Staff Director; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Robert Borden, 
Minority General Counsel; Kathryn Bruns, Minority Legislative 
Assistant; Steve Forde, Minority Communications Director; 
Taylor Hansen, Minority Legislative Assistant; Susan Ross, 
Minority Director of Education and Human Services Policy; Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel; 
and Brad Thomas, Minority Professional Staff Member.
    Chairman Hinojosa. A quorum is present. The hearing of the 
subcommittee will come to order. Pursuant to committee rule 12, 
any Member may submit an opening statement in writing, which 
will be made part of the permanent record.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this important hearing on the 
role the Higher Education Act and No Child Left Behind can play in 
preparing teachers for the classroom.
    I would like to extend a warm welcome to today's witnesses. I 
appreciate all of you for taking the time to be here and look forward 
to your testimony.
    Everyone agrees that all children deserve to be taught by a teacher 
who has both a deep understanding of the subject they are teaching and 
the ability to clearly convey that understanding to their students. I 
believe that the majority of students are being taught by teachers that 
have the subject knowledge and teaching skill necessary to be highly 
effective. The difficult question is how federal policy can best be 
used to help ensure that all teachers can be highly effective.
    I believe that this Congress has begun to take steps in the right 
direction by providing additional funding for teacher professional 
development. It is particularly important to provide professional 
development to math and science teachers in this country, because many 
a currently teaching subjects that they do not have an expertise in. 
However, more professional development alone is not the answer. I look 
forward to hearing more ideas about how Title II of the Higher 
Education Act and Title II of No Child Left Behind can best be used to 
attract, train and retain the highest quality teachers.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    Chairman Hinojosa. Before making my opening statement, I 
want to say that today many of the members of our Committee on 
Education and Labor are participating at a memorial at the 
Capitol where we are paying our respect to a former Member of 
Congress who passed away and were unable to attend the memorial 
service in California, Juanita Millender-McDonald. And because 
of that, we are not going to have as many Members at this 
congressional hearing.
    The schedule, as you all can imagine, has been extremely 
tight for all Members of Congress, and the record will, of 
course, be complete with a quorum, and there will be a few 
Members coming to our hearing and then going on to that 
memorial or other committees that are going on at the same 
time.
    So I wish to start by giving you a good morning and welcome 
to the Subcommittee on Higher Education. This committee on 
lifelong learning and competitiveness hearing is on Preparing 
Teachers for the Classroom: The Role of the Higher Education 
Act and No Child Left Behind.
    Reaching the goals of the No Child Left Behind Act will 
hinge on the quality of teaching in our classrooms. 
Unfortunately, too often the number of poor and minority 
students in a school is also an indicator of the number of 
teachers who are not certified or who are teaching outside of 
their field of expertise in a school. The students who need the 
most experienced and skilled teachers are typically in schools 
that have the least experienced teachers. Our goal should be to 
change that.
    Not only do we need to ensure that teachers are experts in 
the subjects that they are teaching, we also need to ensure 
that they are highly qualified to teach the students they have 
in their classrooms. The National Center for Education 
Statistics reported in its 1999-2000 schools and staffing 
survey that 41 percent of teachers in the country had limited-
English-proficient students in their classroom, yet only 13 
percent of teachers had more than 8 hours of training in how to 
teach these students. Clearly there is room for improvement.
    Our Federal programs in the Higher Education Act and the No 
Child Left Behind Act are aimed toward improving the quality of 
teaching through better preparation and professional 
development. They are also aimed at improving the distribution 
of these teachers so that concentrations of poverty or minority 
populations are no longer coupled with a concentration of 
underprepared teachers.
    They also recognize that we need to do a better job of 
making sure that the teaching profession reflects the diversity 
of America's schools. Title II of the Higher Education Act 
supports teacher quality by focusing on improving the quality 
of teacher preparation programs, rigor of teacher certification 
requirements, and recruiting teachers to serve in high-need 
districts and schools. It is funded at less than $60 million.
    Title II of the No Child Left Behind Act is a formula grant 
to States to improve teacher quality and reduce class size. It 
is funded at 2.9 billion, a very significant Federal 
investment. While similar in goals, it is not clear how 
complementary these two programs are.
    In this 110th Congress we will reauthorize both the Higher 
Education Act and the No Child Left Behind Act. This presents a 
unique opportunity to improve these laws so that they operate 
in a more integrated fashion and move us closer to our goal of 
a highly qualified teacher in every classroom.
    I would like to thank our excellent panel of witnesses for 
joining us today, and I am looking forward to your testimony on 
how the programs are currently working and on what steps we can 
take to better coordinate them.
    [The statement of Mr. Hinojosa follows:]

 Prepared Statement of Hon. Ruben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelong Learning, and Competitiveness

    Good Morning. Welcome to the Subcommittee on Higher Education. 
Lifelong Learning and Competitiveness hearing on ``Preparing Teachers 
for the Classroom: The Role of the Higher Education Act and No Child 
Left Behind.''
    Reaching the goals of the No Child Let Behind Act will hinge on the 
quality of teaching in our classrooms. Unfortunately, too often, the 
number of poor and minority students in a school is also an indicator 
of the number of teachers who are not certified or who are teaching 
outside of their field of expertise in a school. The students who need 
the most experienced and skilled teachers are typically in schools that 
have the least experienced teachers. Our goal should be to change that.
    Not only do we need to ensure that teachers are experts in the 
subjects that they are teaching. We also need to ensure that they are 
highly qualified to teach the students they have in their classrooms. 
The National Center for Education Statistics reported in its 1999-2000 
Schools and Staffing Survey that 41.2 percent of teachers in the 
country had limited English proficient students in their classroom. 
Yet, only 12.5 percent of teachers had more than 8 hours of training in 
how to teach these students. Clearly, there is room for improvement.
    Our federal programs in the Higher Education Act and the No Child 
Left Behind Act are aimed toward improving the quality of teaching 
through better preparation and professional development. They are also 
aimed at improving the distribution of these teachers so that 
concentrations of poverty or minority populations are no longer coupled 
with a concentration of under-prepared teachers They also recognize 
that we need to do a better job of making sure that the teaching 
profession reflects the diversity of America's schools.
    Title II of the Higher Education Act supports teacher quality by 
focusing on improving the quality of teacher preparation programs, 
rigor of teacher certification requirements and recruiting teachers to 
serve in high need districts and schools. It is funded at less than $60 
million. Title II of the No Child Left Behind Act is a formula grant to 
states to improve teacher quality and reduce class size. It is funded 
at $2.9 billion--significant federal investment. While similar in 
goals, it is not clear how complementary these two programs are.
    This Congress, we will reauthorize both the Higher Education Act 
and the No Child Left Behind Act. This presents a unique opportunity to 
improve these laws so that they operate in a more integrated fashion 
and move us closer to our goal of a highly qualified teacher in every 
classroom.
    I would like to thank our excellent panel of witnesses for joining 
us today. I am looking forward to your testimony on how the programs 
are currently working and on what steps we can take to better 
coordinate them.
    I would like to yield to my good friend and ranking Member, Mr. Ric 
Keller of Florida, for his opening statement.
                                 ______
                                 
    Chairman Hinojosa. Before introducing the panel, I would 
like to yield to my good friend and Ranking Member Mr. Ric 
Keller of Florida for his opening statement.
    Mr. Keller. Well, thank you very much, Mr. Chairman, and 
good morning to all our witnesses. I want to thank each of our 
witnesses for joining us today to discuss teacher training and 
professional development.
    Both the Higher Education Act and No Child Left Behind play 
a key role in preparing, recruiting, training and retaining 
today's teachers. Today we are here to listen and learn about 
ways that Congress can improve Title II and both of these laws 
to improve teacher quality and to make sure that quality 
teachers are staying in the classroom.
    There are over 1,200 institutions of higher education that 
award degrees in elementary and secondary education. In 
addition to earning baccalaureate degrees in education, other 
undergraduates get ready to teach by participating in teacher 
education programs while earning a degree in an academic 
subject area. Still other individuals enter teaching through 
postbaccalaureate certificate programs or master's programs 
offered by institutions of higher education. Finally, 
alternative routes to teaching that target, for example, 
individuals changing careers may also involve higher education 
institutions.
    In years past there has been much discussion and scrutiny 
of the caliber of teacher education programs at institutions of 
higher education. Teacher preparation programs have been 
criticized for providing prospective teachers with inadequate 
time to learn subject matter, for teaching a superficial 
curriculum, and for being unduly fragmented. On the other hand, 
many teacher preparation programs are outstanding and deserve 
to be emulated.
    As we work to reauthorize the Higher Education Act this 
year, Congress will examine the most effective use of Federal 
funding for teacher training, whether it is teacher education 
programs at colleges and universities or alternative routes for 
teacher certification.
    I hope that the discussion we have today gives us some good 
news about improvements that are being made at the 
institutional level as well as some recommendations for 
improvements to the Higher Education Act and No Child Left 
Behind Act to target policy and funding toward what works best.
    Thank you to our distinguished panel of witnesses who are 
here today. I look forward to hearing your testimony.
    Mr. Chairman, I yield back.
    [The statement of Mr. Keller follows:]

   Prepared Statement of Hon. Ric Keller, Senior Republican Member, 
       Subcommittee on Higher Education, Lifelong Learning, and 
                            Competitiveness

    Good morning, thank you for joining us here today to discuss 
teacher training and professional development. Both the Higher 
Education Act and No Child Left Behind play a role in preparing, 
recruiting, training and retaining today's teachers. Today, we are here 
to listen and learn about ways that Congress can improve Title II in 
both of these laws to improve teacher quality and to make sure that 
quality teachers are staying in the classroom.
    There are over 1,200 institutions of higher education that award 
degrees in elementary and secondary education. In addition to earning 
baccalaureate degrees in education, other undergraduates get ready to 
teach by participating in a teacher education program while earning a 
degree in an academic subject area. Still other individuals enter 
teaching through post-baccalaureate certificate programs or master's 
programs offered by institutions of higher education. Finally, 
alternative routes to teaching that target, for example, individuals 
changing careers, may also involve higher education institutions.
    In years past, there has been much discussion and scrutiny of the 
caliber of teacher education programs at institutions of higher 
education. Teacher preparation programs have been criticized for 
providing prospective teachers with inadequate time to learn subject 
matter; for teaching a superficial curriculum; and for being unduly 
fragmented. As we work to reauthorize the Higher Education Act this 
year, Congress will examine the most effective use of federal funding 
for teacher training, whether it is teacher education programs at 
colleges and universities or alternative routes for teacher 
certification.
    Additionally, Congress needs to look into how efficiently the K-12 
Title II funds are spent. Title II funds under No Child Left Behind are 
used for two purposes: professional development and class size 
reduction. According to a November 2005 GAO study on teacher 
qualification requirements, half of Title II NCLB funds are currently 
used for classroom size reduction. Concerning to me though is that 
there is very little evidence to suggest that reducing class size 
improves student achievement. While I agree that we should strive to 
keep class sizes as small as possible, I think we should also make sure 
these funds are spent wisely on the best professional development 
available.
    I hope that the discussion we have today gives us some good news 
about improvements that are being made at the institutional level, as 
well as some recommendations for improvements to the Higher Education 
Act and No Child Left Behind to target policy and funding towards what 
works best. Thank you to our distinguished panel of witnesses who are 
here today. I look forward to your testimony.
                                 ______
                                 
    Chairman Hinojosa. Without objection, all Members will have 
14 days to submit additional materials or questions for the 
hearing record.
    [The statement of the Association of Teacher Educators 
submitted by Mr. Hinojosa follows:]

          Prepared Statement of the Board of Directors of the
                 Association of Teacher Educators (ATE)

    Chairman Hinojosa and members of the Subcommittee, thank you for 
the opportunity to submit a written statement which may be considered 
for adding to the official record of the hearing held May 17, 2007, 
``Preparing Teachers for the Classroom: The Role of the Higher 
Education Act and the No Child Left Behind Act''. The Association of 
Teacher Educators was founded in 1920 and is an individual membership 
organization devoted solely to the improvement of teacher education 
both for school-based and post secondary teacher educators. ATE members 
represent over 700 colleges and universities, over 500 major school 
systems, and the majority of state departments of education.
    In considering the subject of the hearing and the testimony that 
was presented, we would like to emphasize the following points:
    Research has shown that novice teachers, whether they gain 
certification through traditional programs or alternative programs, 
need continuing mentoring and induction in the critical first three 
years of their careers. There is a need for accountability and 
structure for both university-based and alternative teacher preparation 
programs to ensure novice teachers entering the classrooms will be 
prepared. As Dr. Emily Feistritzer pointed out, traditional teacher 
preparation programs have done a good job preparing classroom teachers, 
but alternative certification programs have arisen in response to high 
demands, often in high needs and hard to staff schools or specific 
subject areas such as math, science or special education. Both HEA and 
NCLB should support efforts to develop partnerships between 
institutions of higher education and K-12 districts that emphasize 
mentoring, induction for novice teachers and meaningful, regular, and 
ongoing professional development for tenured or seasoned teachers.
    The Federal government has spent more than $50 million on one 
program, the American Board for Certification of Teacher Excellence, 
that has licensed a total of 200 teachers and is accepted in five 
states. On a per-teacher cost basis, this is clearly not the best use 
of scarce Federal resources. ABCTE relies on a test alone to put 
teachers into classrooms. Reauthorization of the Higher Education Act 
and No Child Left Behind should use government funds to promote 
university-based teacher preparation programs which prepare much 
greater numbers of teachers. Research demonstrates that these programs 
have a higher retention rate for novice teachers in their first five 
years of teaching than alternative programs do. This is because of 
their multiple, intensive, research-based clinical experiences and 
student teaching requirements.
    Teacher education programs have changed significantly in the past 
several years, and they can be expected to change in the future. The 
Association of Teacher Educators strongly supports the concept of 
Professional Development Schools, in which college and university 
schools of education partner with pre-K-12 schools in a variety of 
meaningful ways. Other partnerships that are being discussed, including 
Teachers for a New Era, represent innovations that encourage this 
evolution of teacher preparation. We believe the reauthorization of the 
Higher Education Act and No Child Left Behind should support such 
collaborative innovations between institutions of higher education and 
K-12 districts.
    In considering reauthorization of the Higher Education Act and No 
Child Left Behind, we support the following:
    <bullet> We strongly support passage of the Teacher Excellence for 
All Children (TEACH) Act of 2007 (H.R.2204), and urge incorporation of 
its provisions into Title II of HEA and Title II of NCLB;
    <bullet> We believe NCLB reauthorization, in particular, should 
include funds to help states develop methods to measure teacher 
effectiveness and to refine the NCLB definition of a highly qualified 
teacher to address the unique circumstances of certain kinds of 
teachers, such as special education teachers and teachers in rural 
areas who teach multiple subjects;
    <bullet> We support a comprehensive approach to recruiting and 
retaining teachers in high-need schools by requiring adequate working 
conditions for all teachers and providing financial incentives, high-
quality residency programs, improved professional development to them.
    <bullet> We believe these reauthorizations should provide resources 
to states to develop and implement comprehensive teacher induction and 
data tracking systems (at both university and district levels) that 
will help document the relationship of different teacher education 
program strategies with K-12 student learning performance. This is an 
accomplishment in educational research that is now hindered by the lack 
of funds available to track teachers from their institutions of higher 
education or alternative teacher education programs through their 
teaching career and relate their educational experiences and teaching 
practices to the performance outcomes of the students they teach.
    Chairman Hinojosa, thank you for the opportunity to provide this 
statement as your Subcommittee continues its important work.
                                 ______
                                 
    Chairman Hinojosa. I would like to introduce our very 
distinguished panel of witnesses here with us this morning. The 
first will be Mr. George Scott. He is the Director of 
Education, Workforce and Income Security Issues at the 
Government Accountability Office in Washington, D.C., and he 
has over 19 years of public service. His current 
responsibilities include issues in higher education, student 
loans and grant programs, as well as accreditation in 
institutional grant programs. His previous assignments include 
work on retirement income security, private and public sector 
pensions, Federal retirement programs, and Social Security.
    Welcome, Mr. Scott.
    Dr. Sharon Robinson has served the last 2 years as the 
president of the American Association of Colleges for Teacher 
Education. She was formally president of the Educational 
Testing Services Educational Policy Leadership Institute as 
well as a senior vice president and chief operating officer at 
EPS. Sharon also has worked in the Department of Education as 
well as with the National Education Association. She is a Ph.D. 
Graduate from the University of Kentucky and has completed the 
renowned Harvard Business School Advanced Management Program.
    Thank you for being with us.
    Dr. Janice Wiley is the deputy director of instruction for 
the Region One Education Service Center in Edinburg, Texas, 
which just happens to be located in the congressional district 
which I represent. Region One serves 37 school districts in a 
7-county area along the Texas-Mexico border and includes over 
370,000 students. She has been an educator for 33 years, and 29 
of those years have been in service to our students in Region 
One. Janice holds a Ph.D. From the University of Texas in 1999, 
and she also holds certification in five separate instructional 
or administrative areas. Finally, she has taught leadership 
classes at the University of Texas Pan American in Edinburg.
    Region One has been very important to my congressional 
district for many years. It is a pleasure to welcome someone 
from home. Thanks for coming today.
    Dr. Daniel Fallon is the director of higher education at 
Carnegie Corporation of New York. He oversees support for 
grants in areas of teacher education and reform, school 
leadership development, general education, and other areas of 
great national interest. He is professor emeritus of psychology 
and of public policy at the University of Maryland College 
Park. In addition to his teaching duties, he also served there 
as the vice president for academic affairs and provost. Dr. 
Fallon has worked in colleges in Texas, including Texas A&M; 
Colorado; and New York; and has published widely in academia 
and is the author of a prize-winning book entitled The German 
University.
    Most importantly, my staff informs me that your heritage is 
part Spanish and Irish, so I give you bienvenido.
    Dr. Emily Feistritzer is president and CEO of the National 
Center for Alternative Certification as well as president of 
the National Center for Education Information, a private 
nonpartisan research organization here in Washington, D.C. For 
the past 25 years, she has been conducting studies on the 
status of the teaching profession. She has coauthored 38 widely 
acclaimed database books on education. Dr. Feistritzer has 
testified before Congress many times, and she began her career 
as a high school science and mathematics teacher.
    We appreciate your willingness to share your expertise with 
us today, and welcome.
    For those of you who have not testified before this 
subcommittee, let me explain our lighting system and the 5-
minute rule. Everyone, including Members, is limited to 5 
minutes of presentation or questioning. The green light is 
illuminated when you begin to speak. When you see the yellow 
light, it means you have 1 minute remaining. When you see the 
red light, it means your time has expired, and you should need 
to conclude your testimony. Please be certain as you testify to 
turn on and speak into the microphones in front of you.
    We will now hear our first witness.
    Mr. Scott, you may begin.

 STATEMENT OF GEORGE SCOTT, DIRECTOR, EDUCATION, WORKFORCE AND 
 INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Scott. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss the 
results of GAO's studies of Federal efforts to improve teacher 
quality.
    Approximately 3 million teachers are responsible for 
educating over 48 million students, and they account for over 
one-half of public school expenditures each year. While the 
hiring and training of teachers is primarily a State and local 
responsibility, a thorough investment in teacher training is 
substantial.
    In 1998, Congress amended the Higher Education Act to 
enhance the quality of teaching. In 2001, Congress passed the 
No Child Left Behind Act, which established Federal 
requirements that all teachers of core academic subjects be 
highly qualified.
    In 2006, about $3 billion in Federal funds were 
appropriated for teacher quality efforts on Title II of HEA and 
Title II of No Child Left Behind. Given that both laws are 
scheduled for reauthorization this year, this hearing presents 
an excellent opportunity to explore teacher quality provisions 
under these laws.
    My testimony will discuss approaches to and funding of 
teacher quality programs, how recipients are using Title II 
funds, and the Department of Education support of these 
activities.
    In summary, we reported that teacher quality provisions 
under HEA and No Child Left Behind have different approaches 
and are funded differently. While the overall goal of both 
titles is to improve student achievement by improving the 
quality of teachers, some of the specific approach is 
different. For example, a major focus of HEA provisions is on 
training prospective teachers, while No Child Left Behind 
provisions focus on improving teacher quality in the classroom 
and employing highly qualified teachers.
    Also, both laws use reporting mechanisms to increase 
accountability; however, HEA focuses more on institutions of 
higher education, while No Child Left Behind focuses on schools 
and school districts.
    Teacher quality funds under HEA and No Child Left Behind 
are distributed differently. HEA funds are distributed through 
one-time competitive grants, State partnerships and recruitment 
grants. All three types of grants require a match from non-
Federal sources. No Child Left Behind provides funds to States 
annually through formula grants. States and districts generally 
receive No Child Left Behind funds based on the amount they 
received in 2001, the percentage of children residing in the 
State or district, and the number of children in low-income 
families.
    In 2006, Congress appropriated $2.9 billion to No Child 
Left Behind and about $60 million under HEA for teacher quality 
activities.
    HEA and No Child Left Behind provide flexibility for 
recipients to use funds for a broad range of efforts to improve 
teacher quality, including many similar activities. However, 
one difference is that No Child Left Behind specifies that 
teachers can be hired to reduce class size, while HEA does not 
specifically mention class size reduction. Both laws fund 
professional development and recruitment activities. For 
example, mentoring was the most common professional development 
activity among the HEA grantees we visited. Some districts also 
use No Child Left Behind funds for mentoring as well.
    HEA and No Child Left Behind funds also support efforts to 
recruit teachers. For example, many HEA grantees we visited use 
their funds to fill teacher shortages, while some districts we 
visited use No Child Left Behind funds to provide recruitment 
bonuses and advertise opening teaching positions.
    The Department of Education is providing better assistance 
to recipients of Title II funds and is improving its oversight 
of teacher quality efforts. Our work identified areas where 
education could improve its assistance to grantees, enhance 
information on their efforts, and more effectively measure the 
results of these activities.
    In response to our recommendations, Education has improved 
communication with HEA grantees and potential applicants. 
Education has also provided assistance to recipients of No 
Child Left Behind funds by offering professional development 
workshops and related materials that teachers can access on 
Education's Website. In addition, Education assisted States and 
districts by providing updated guidance on teacher 
qualification requirements.
    Education has also made progress in addressing GAO concerns 
by improving how the Department measures the results of teacher 
quality activities by establishing performance targets. For 
example, in 2005, Education established performance for State 
and partnership grants under HEA.
    In conclusion, the Nation's public schoolteachers play a 
vital role in educating over 48 million students. While Title 
II of HEA and No Child Left Behind share the goal of improving 
teacher quality, it is not clear the extent to which these laws 
complement each other. Our studies of teacher quality programs 
under each law have found areas for improvement, such as data 
quality and assistance from education. We have also found that 
HEA grantees, States, districts and schools engage in similar 
activities; however, not much is known about how well, if at 
all, these laws are aligned. Thus, there are additional 
opportunities to understand how the laws work together at the 
Federal, State and local level.
    Mr. Chairman, this concludes my statement, and I will be 
happy to answer any questions from you or members of the 
subcommittee. Thank you.
    [The statement of Mr. Scott follows:]

Prepared Statement of George A. Scott, Director, Education, Workforce, 
   and Income Security Issues, U.S. Government Accountability Office

    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here this morning to discuss the federal government's efforts to 
improve teacher quality. Teachers are the single largest resource in 
our nation's elementary and secondary education system. Approximately 3 
million teachers are responsible for educating over 48 million students 
and they account for over one half of public school expenditures ($215 
billion) each year. Research has shown that teachers play a significant 
role in improving student performance. However, research has also shown 
that many teachers--especially those in high-poverty districts--lack 
competency in the subjects they teach and that most teacher training 
programs leave new teachers feeling unprepared for the classroom.
    While the hiring and training of teachers is primarily the 
responsibility of state and local governments and institutions of 
higher education, the federal investment in enhancing teacher quality 
is substantial and growing. In 1998, the Congress amended the Higher 
Education Act (HEA) to enhance the quality of teaching in the classroom 
by improving training programs for prospective teachers and the 
qualifications of current teachers. In 2001, the Congress passed the No 
Child Left Behind Act (NCLBA)--the most recent reauthorization of the 
Elementary and Secondary Education Act--which established federal 
requirements that all teachers of core academic subjects be highly 
qualified. In 2006, about $3 billion of federal funds were appropriated 
for NCLBA Title II and HEA Title II to address teacher quality. Given 
that NCLBA and HEA are both slated for reauthorization in 2007, this 
hearing presents a timely opportunity to explore teacher quality 
provisions covered under those laws.
    This statement focuses on the approaches, implementation, and 
evaluation of teacher quality programs under HEA and NCLBA. I will 
first provide information on the goals, approaches, and funding of 
these programs. Then I will discuss the allowable activities and how 
recipients are using the funds. Finally, I will summarize our findings 
related to Education's support and evaluation of these activities.
    My remarks today are drawn from previous GAO reports covering HEA 
teacher quality programs and Title II under NCLBA,\1\ supplemented with 
updated information. We updated information by interviewing state 
officials, officials from institutions of higher education, and 
Education officials. We also reviewed recent studies and Education 
documents. We conducted our work in accordance with generally accepted 
government auditing standards.
    In summary:
    <bullet> While the overall goal of Title II in both HEA and NCLBA 
is to improve teacher quality, some of the specific approaches differ. 
For example, HEA focuses more on training prospective teachers than 
NCLBA. In addition, HEA and NCLBA are funded differently, with HEA 
funds distributed through competitive grants, while Title II under 
NCLBA provides funds annually to all states through a formula.
    <bullet> Both acts provide states, districts, and grantees with the 
flexibility to use funds for a broad range of activities to improve 
teacher quality, including many activities that are similar, such as 
professional development and recruitment. A difference is that NCLBA's 
Title II specifies that teachers can be hired to reduce class size, 
while HEA does not specifically mention class-size reduction. With the 
broad range of activities allowed, we found both similarities and 
differences in the activities undertaken.
    <bullet> Under both HEA and NCLBA, Education has provided 
assistance and guidance to recipients of these funds and is responsible 
for holding recipients accountable for the quality of their activities. 
Our previous work identified areas in which Education could improve its 
assistance to states on their teacher quality efforts and more 
effectively measure the results of these activities. Education has made 
progress in addressing our concerns by disseminating more information 
to recipients particularly on teacher quality requirements and 
activities and improving how the department measures the results of 
teacher quality activities by, for example, establishing performance 
targets.
Teacher Quality Provisions under HEA and NCLBA Have Somewhat Different 
        Approaches and Are Funded Differently
    While the overall goal of Title II under both HEA and NCLBA is to 
improve student achievement by improving the teacher workforce, some of 
the specific approaches differ. For example, a major focus of HEA 
provisions is on the training of prospective teachers (preservice 
training) while NCLBA provisions focus more on improving teacher 
quality in the classroom (in service training) and hiring highly 
qualified teachers. Also, both laws use reporting mechanisms to 
increase accountability. However, HEA focuses more on institutions of 
higher education while NCLBA focuses on schools and school districts. 
Additionally, HEA focuses on expanding the teacher workforce by 
supporting recruitment from other professions.
    In addition, HEA and NCLBA Title II funds are distributed 
differently. HEA teacher quality funds are disbursed through three 
distinct types of grants: state, partnership, and recruitment grants. 
State grants are available for states to implement activities to 
improve teacher quality in their states by enhancing teacher training 
efforts, while partnership grants support the collaborative efforts of 
teacher training programs and other eligible partners.\2\ Recruitment 
grants are available to states or partnerships for teacher recruitment 
activities.
    All three types of grants require a match from non-federal sources. 
For example, states receiving state grants must provide a matching 
amount in cash or in-kind support from non-federal sources equal to 50 
percent of the amount of the federal grant.\3\ All three grants are 
one-time competitive grants; however, state and recruitment grants are 
for 3 years while partnership grants are for 5 years.\4\ HEA amendments 
in 1998 required that 45 percent of funds be distributed to state 
grants, 45 percent to partnership grants, and 10 percent to recruitment 
grants. As of April 2007, 52 of the 59 eligible entities (states, the 
District of Columbia, and 8 territories) had received state grants.\5\ 
Because the authorizing legislation specifically required that entities 
could only receive a state grant once, only seven would be eligible to 
receive future state grants. In our 2002 report, we suggested that if 
Congress decides to continue funding teacher quality grants in the 
upcoming reauthorization of HEA, it might want to clarify whether all 
59 entities would be eligible for state grant funding under the 
reauthorization, or whether eligibility would be limited to only those 
states that have not previously received a state grant. We also 
suggested that if Congress decides to limit eligibility to entities 
that have not previously received a state grant, it may want to 
consider changing the 45 percent funding allocation for state grants. 
In a 2005 appropriation act, Congress waived the allocation 
requirement. In 2006, about 9 percent of funds were awarded for state 
grants, 59 percent for partnership grants, and 33 percent for 
recruitment. When Congress reauthorizes HEA, it may want to further 
clarify eligibility and allocation requirements for this program.
    NCLBA, funded at a much higher level than HEA, provides funds to 
states through annual formula grants. In 2006, Congress appropriated 
$2.89 billion through NCLBA and $59.9 million for HEA for teacher 
quality efforts.\6\ While federal funding for teacher initiatives was 
provided through two other programs prior to NCLBA, the act increased 
the level of funding to help states and districts implement the teacher 
qualification requirements. States and districts generally receive 
NCLBA Title II funds based on the amount they received in 2001, the 
percentage of children residing in the state or district, and the 
number of those children in low-income families. After reserving up to 
1 percent of the funds for administrative purposes, states pass 95 
percent of the remaining funds to the districts and retain the rest to 
support state-level teacher initiatives and to support NCLBA 
partnerships between higher education institutions and high-need 
districts that work to provide professional development to teachers.
    While there is no formula in NCLBA for how districts are to 
allocate funds to specific schools, the act requires states to ensure 
that districts target funds to those schools with the highest number of 
teachers who are not highly qualified, schools with the largest class 
sizes, or schools that have not met academic performance requirements 
for 2 or more consecutive years. In addition, districts applying for 
Title II funds from their states are required to conduct a districtwide 
needs assessment to identify their teacher quality needs. NCLBA also 
allows districts to transfer these funds to most other major NCLBA 
programs, such as those under Title I, to meet their educational 
priorities.\7\
Some HEA and NCLBA Funds Were Used for Similar Activities As Allowed 
        under Both Acts
    HEA provides grantees and NCLBA provides states and districts with 
the flexibility to use funds for a broad range of activities to improve 
teacher quality, including many activities that are similar under both 
acts. HEA funds can be used, among other activities, to reform teacher 
certification requirements, professional development activities, and 
recruitment efforts. In addition, HEA partnership grantees must use 
their funds to implement reforms to hold teacher preparation programs 
accountable for the quality of teachers leaving the program. Similarly, 
acceptable uses of NCLBA funds include teacher certification 
activities, professional development in a variety of core academic 
subjects, recruitment, and retention initiatives. In addition, 
activities carried out under NCLBA partnership grants are required to 
coordinate with any activities funded by HEA. Table 1 compares 
activities under HEA and NCLBA.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With the broad range of activities allowed under HEA and NCLBA, we 
found both similarities and differences in the activities undertaken. 
For example, districts chose to spend about one-half of their NCLBA 
Title II funds ($1.2 billion) in 2004-2005 on class-size reduction 
efforts, which is not an activity specified by HEA.\8\ 1We found that 
some districts focused their class-size reduction efforts on specific 
grades, depending on their needs. One district we visited focused its 
NCLBA-funded class-size reduction efforts on the eighth grade because 
the state already provided funding for reducing class size in other 
grades. However, while class-size reduction may contribute to teacher 
retention, it also increases the number of classrooms that need to be 
staffed and we found that some districts had shifted funds away from 
class-size reduction to initiatives to improve teachers' subject matter 
knowledge and instructional skills. Similarly, Education's data showed 
that the percent of NCLBA district funds spent on class-size reduction 
had decreased since 2002-2003, when 57 percent of funds were used for 
this purpose.
    HEA and NCLBA both funded professional development and recruitment 
efforts, although the specific activities varied somewhat. For example, 
mentoring was the most common professional development activity among 
the HEA grantees we visited. Of the 33 HEA grant sites we visited, 23 
were providing mentoring activities for teachers. In addition, some 
grantees used their funds to establish a mentor training program to 
ensure that mentors had consistent guidance. One state used the grant 
to develop mentoring standards and to build the capacity of trainers to 
train teacher mentors within each district. Some districts used NCLBA 
Title II funds for mentoring activities as well. We also found that 
states and districts used NCLBA Title II funds to support other types 
of professional development activities. For example, two districts we 
visited spent their funds on math coaches who perform tasks such as 
working with teachers to develop lessons that reflected state academic 
standards and assisting them in using students' test data to identify 
and address students' academic needs. Additionally, states used a 
portion of NCLBA Title II funds they retained to support professional 
development for teachers in core academic subjects. In two states that 
we visited, officials reported that state initiatives specifically 
targeted teachers who had not met the subject matter competency 
requirements of NCLBA. These initiatives either offered teachers 
professional development in core academic subjects or reimbursed them 
for taking college courses in the subjects taught.
    Both HEA and NCLBA funds supported efforts to recruit teachers. 
Many HEA grantees we interviewed used their funds to fill teacher 
shortages in urban schools or to recruit new teachers from 
nontraditional sources--mid-career professionals, community college 
students, and middle- and high-school students. For example, one 
university recruited teacher candidates with undergraduate degrees to 
teach in a local school district with a critical need for teachers 
while they earn their masters in education. The program offered tuition 
assistance, and in some cases, the district paid a full teacher salary, 
with the stipulation that teachers continue teaching in the local 
school district for 3 years after completing the program. HEA 
initiatives also included efforts to recruit mid-career professionals 
by offering an accelerated teacher training program for prospective 
teachers already in the workforce. Some grantees also used their funds 
to recruit teacher candidates at community colleges. For example, one 
of the largest teacher training institutions in one state has partnered 
with six community colleges around the state to offer training that was 
not previously available. Finally, other grantees targeted middle and 
high school students. For example, one district used its grant to 
recruit interns from 14 high-school career academies that focused on 
training their students for careers as teachers. Districts we visited 
used NCLBA Title II funds to provide bonuses to attract successful 
administrators, advertise open teaching positions, and attend 
recruitment events to identify qualified candidates. In addition, one 
district also used funds to expand alternative certification programs, 
which allowed qualified candidates to teach while they worked to meet 
requirements for certification.
    Finally, some states used HEA funds to reform certification 
requirements for teachers. Reforming certification or licensing 
requirements was included as an allowable activity under both HEA and 
NCLBA to ensure that teachers have the necessary teaching skills and 
academic content knowledge in the subject areas. HEA grantees also 
reported using their funds to allow teacher training programs and 
colleges to collaborate with local school districts to reform the 
requirements for teacher candidates. For example, one grantee partnered 
with institutions of higher education and a partner school district to 
expose teacher candidates to urban schools by providing teacher 
preparation courses in public schools.
Education Is Working to Provide Better Assistance and Improve Its 
        Evaluation and Oversight Efforts
    Under both HEA and NCLBA, Education has provided assistance and 
guidance to recipients of these funds and is responsible for holding 
recipients accountable for the quality of their activities. In 1998, 
Education created a new office to administer HEA grants and provide 
assistance to grantees. While grantees told us that the technical 
assistance the office provided on application procedures was helpful, 
our previous work noted several areas in which Education could improve 
its assistance to HEA grantees, in part through better guidance. For 
example, we recommended that in order to effectively manage the grant 
program, Education further develop and maintain its system for 
regularly communicating program information, such as information on 
successful and unsuccessful practices. We noted that without knowledge 
of successful ways of enhancing the quality of teaching in the 
classroom, grantees might be wasting valuable resources by duplicating 
unsuccessful efforts. Since 2002, Education has made changes to improve 
communication with grantees and potential applicants. For example, the 
department presented workshops to potential applicants and updated and 
expanded its program Web site with information about program 
activities, grant abstracts, and other teacher quality resources. In 
addition, Education provided examples of projects undertaken to improve 
teacher quality and how some of these efforts indicate improved teacher 
quality in its 2005 annual report on teacher quality.\9\
    Education also has provided assistance to states, districts and 
schools using NCLBA Title II funds. The department offers professional 
development workshops and related materials that teachers can access 
online through Education's website. In addition, Education assisted 
states and districts by providing updated guidance. In our 2005 report, 
officials from most states and districts we visited who use Education's 
Web site to access information on teacher programs or requirements told 
us that they were unaware of some of Education's teacher resources or 
had difficulty accessing those resources. We recommended that Education 
explore ways to make the Web-based information on teacher qualification 
requirements more accessible to users of its Web site. Education 
immediately took steps in response to the recommendation and 
reorganized information on its website related to the teacher 
qualification requirements.
    In addition to providing assistance and guidance, Education is 
responsible for evaluating the efforts of HEA and NCLBA recipients and 
for overseeing program implementation. Under HEA, Education is required 
to annually report on the quality of teacher training programs and the 
qualifications of current teachers. In 2002, we found that the 
information collected for this requirement did not allow Education to 
accurately report on the quality of HEA's teacher training programs and 
the qualifications of current teachers in each state. In order to 
improve the data that states are collecting from institutions that 
receive HEA teacher quality grants, and all those that enroll students 
who receive federal student financial assistance and train teachers, we 
recommended that Education should more clearly define key data terms so 
that states provide uniform information. Further, in 2004, the Office 
of Management and Budget (OMB) completed a Program Assessment Rating 
Tool (PART) assessment \10\ of this program and gave it a rating of 
``results not demonstrated,'' due to a lack of performance information 
and program management deficiencies. Education officials told us that 
they had aligned HEA's data collection system with NCLBA definitions of 
terms such as ``highly qualified teacher.'' However, based on the PART 
assessment, the Administration proposed eliminating funding for HEA 
teacher quality grants in its proposed budgets for fiscal years 2006-
2008, and redirecting the funds to other programs. Congress has 
continued to fund this program in fiscal years 2006 and 2007.
    Education has responded to our recommendations and issues raised in 
the PART assessment related to evaluating grantee activities and 
providing more guidance to grantees on the types of information needed 
to determine effectiveness. When the Congress amended HEA in 1998 to 
provide grants to states and partnerships, it required that Education 
evaluate the activities funded by the grants. In 2005, Education 
established performance measures for two of the teacher quality 
enhancement programs--state grants and partnership grants--and required 
grantees to provide these data in their annual performance plans 
submitted to Education.\11\ The performance measure for state grants is 
the percentage of prospective teachers who pass subject matter tests, 
while the measure for partnership grants is the percentage of 
participants who complete the program and meet the definition of being 
``highly qualified.'' In addition, in 2006, Education included 
information in letters to grantees on the types of information that it 
requires to assess the effectiveness of its teacher quality programs. 
For example, in its letters to state grantees, Education noted that 
when reporting on quantitative performance measures, grantees must show 
how their actual performance compared to the targets (e.g., benchmarks 
or goals) that were established in the approved grant application for 
each budget period.
    In addition, in May 2006, Education issued its final report on 
HEA's partnership grants, focusing on the 25 grantees of the 1999 
cohort.\12\ The goal of the study was to learn about the collaborative 
activities taking place in partnerships. It was designed to examine 
approaches for preparing new and veteran teachers and to assess the 
sustainability of project activities after the grant ends. Among its 
findings, Education reported that partnerships encouraged and supported 
collaboration between institutions of higher education and schools to 
address teacher preparation needs.
    Under NCLBA, Education holds districts and schools accountable for 
improvements in student academic achievement, and holds states 
accountable for reporting on the qualifications of teachers. NCLBA set 
the end of the 2005-2006 school year as the deadline for teachers of 
core academic subjects, such as math and science, to be highly 
qualified.\13\ Teachers meeting these requirements must (1) have at 
least a bachelor's degree, (2) be certified to teach by their state, 
and (3) demonstrate subject matter competency in each core academic 
subject they teach.\14\ Education collects state data on the percent of 
classes taught by highly qualified teachers and conducts site visits in 
part to determine whether states appropriately implemented highly 
qualified teacher provisions.\15\
    In state reviews conducted as part of its oversight of NCLBA, 
Education identified several areas of concern related to states' 
implementation of teacher qualification requirements and provided 
states feedback.\16\ For example, some states did not include the 
percentage of core academic classes taught by teachers who are not 
highly qualified in their annual state report cards,\17\ as required. 
In addition, because some states inappropriately defined teachers as 
highly qualified, the data that these states reported to Education were 
inaccurate according to a department official. In many states, the 
requirements for teachers were not sufficient to demonstrate subject 
matter competency. Since subject matter competency is a key part of the 
definition of a highly qualified teacher, such states' data on the 
extent to which teachers have met these requirements could be 
misleading. Education also found that a number of states were 
incorrectly defining districts as high-need, in order to make more 
districts eligible for partnerships with higher education institutions. 
According to Education, each of these states corrected their data and 
the department will continue to monitor states to ensure they are using 
the appropriate data.
    In addition to Education's oversight efforts, OMB completed a PART 
assessment of NCLBA Title II in 2005 and rated the program as 
``moderately effective.'' While OMB noted that the program is well-
managed, it also noted that the program has not demonstrated cost-
effectiveness and that an independent evaluation has not been completed 
to assess program effectiveness. In response to OMB's assessment, 
Education took steps to more efficiently monitor states and conducted 
two program studies related to teacher quality. An Education official 
told us that the program studies had been conducted but the department 
has not yet released the findings.
Concluding Observations
    In conclusion, the nation's public school teachers play a key role 
in educating 48 million students, the majority of our future workforce. 
Recognizing the importance of teachers in improving student 
performance, the federal government, through HEA and NCLBA, has 
committed significant resources and put in place a series of reforms 
aimed at improving the quality of teachers in the nation's classrooms. 
With both acts up for reauthorization, an opportunity exists for the 
Congress to explore potential interrelationships in the goals and 
initiatives under each act.
    While HEA and NCLBA share the goal of improving teacher quality, it 
is not clear the extent to which they complement each other. Our 
separate studies of teacher quality programs under each of the laws 
have found common areas for improvement, such as data quality and 
assistance from Education. We have also found that states, districts, 
schools, and grantees under both laws engage in similar activities. 
However, not much is known about how well, if at all, these two laws 
are aligned. Thus, there may be opportunities to better understand how 
the two laws are working together at the federal, state, and local 
level. For example, exploring links between efforts aimed at improving 
teacher preparation at institutions of higher education and efforts to 
improve teacher quality at the school or district level could identify 
approaches to teacher preparation that help schools the most.
    Mr. Chairman, this concludes my prepared statement. I welcome any 
questions you or other Members of this Subcommittee may have at this 
time.
Teacher Quality
   approaches, implementation, and evaluation of key federal efforts
    Teachers are the single largest resource in our nation's elementary 
and secondary education system. However, according to recent research, 
many teachers lack competency in the subjects they teach. In addition, 
research shows that most teacher training programs leave new teachers 
feeling unprepared for the classroom.
    While the hiring and training of teachers is primarily the 
responsibility of state and local governments and institutions of 
higher education, the federal investment in enhancing teacher quality 
is substantial and growing. In 1998, the Congress amended the Higher 
Education Act (HEA) to enhance the quality of teaching in the classroom 
and in 2001 the Congress passed the No Child Left Behind Act (NCLBA), 
which established federal requirements that all teachers of core 
academic subjects be highly qualified.
    This testimony focuses on
    (1) approaches used in teacher quality programs under HEA and 
NCLBA, (2) the allowable activities under these acts and how recipients 
are using the funds, and (3) how Education supports and evaluates these 
activities.
    This testimony is based on prior GAO reports. We updated 
information where appropriate.
    While the overall goal of Title II in both HEA and NCLBA is to 
improve teacher quality, some of their specific approaches differ. For 
example, a major focus of HEA provisions is on the training of 
prospective teachers while NCLBA provisions focus more on improving 
teacher quality in the classroom and hiring highly qualified teachers. 
Both laws use reporting mechanisms to increase accountability; however, 
HEA focuses more on institutions of higher education while NCLBA 
focuses on schools and districts. In addition, HEA and NCLBA grants are 
funded differently, with HEA funds distributed through one-time 
competitive grants, while Title II under NCLBA provides funds annually 
to all states through a formula.
    Both acts provide states, districts, or grantees with the 
flexibility to use funds for a broad range of activities to improve 
teacher quality, including many activities that are similar, such as 
professional development and recruitment. A difference is that NCLBA's 
Title II specifies that teachers can be hired to reduce class-size 
while HEA does not specifically mention class-size reduction. Districts 
chose to spend about one-half of their NCLBA Title II funds on class-
size reduction in 2004-2005. On the other hand, professional 
development and recruitment efforts were the two broad areas where 
recipients used funds for similar activities, although the specific 
activities varied somewhat. Many HEA grantees we visited used their 
funds to fill teacher shortages in urban schools or recruit teachers 
from nontraditional sources, such as mid-career professionals. 
Districts we visited used NCLBA funds to provide bonuses, advertise 
open teaching positions, and attend recruitment events, among other 
activities.
    Under both HEA and NCLBA, Education has provided assistance and 
guidance to recipients of these funds and is responsible for holding 
recipients accountable for the quality of their activities. GAO's 
previous work identified areas where Education could improve its 
assistance on teacher quality efforts and more effectively measure the 
results of these activities. Education has made progress in addressing 
GAO's concerns by disseminating more information to recipients, 
particularly on teacher quality requirements, and improving how the 
department measures the results of teacher quality activities by 
establishing definitions and performance targets under HEA.
    While HEA and NCLBA share the goal of improving teacher quality, it 
is not clear the extent to which they complement each other. States, 
districts, schools, and grantees under both laws engage in similar 
activities. However, not much is known about how well, if at all, these 
two laws are aligned. Thus, there may be opportunities to better 
understand how the two laws are working together at the federal, state, 
and local level.
                                endnotes
    \1\ GAO, Higher Education: Activities Underway to Improve Teacher 
Training but Reporting on These Activities Could Be Enhanced, GAO-03-6 
(Washington, D.C.: Dec. 11, 2002) and GAO, No Child Left Behind Act: 
Improved Accessibility to Education's Information Could Help States 
Further Implement Teacher Qualification Requirements, GAO-06-25 
(Washington, D.C.: Nov. 21, 2005).
    \2\ Eligible partnerships must include at least three partners, 
consisting of teacher training programs, colleges of Arts and Sciences, 
and eligible local school districts. Partnerships may include other 
groups such as state educational agencies, businesses, and nonprofit 
educational organizations.
    \3\ Partnerships must match from non-federal sources 25 percent of 
the partnership grant in the first year, 35 percent in the second, and 
50 percent in each succeeding year. States and partnerships that 
receive recruitment grants have the same matching requirements for 
these grants as they have under their separate grant programs.
    \4\ According to Education, an institution of higher education can 
have more than one grant (simultaneously or sequentially) as long as 
the members of the partnership are not identical (i.e. a new 
partnership is formed).
    \5\ Since 1999, 63 partnership grants have been made to various 
entities, and 68 recruitment grants were made.
    \6\ The funding authorizations for Title II, along with the rest of 
HEA, were extended through June 30, 2007, under the Third Higher 
Education Extension Act of 2006 (Pub. L. No. 109-292).
    \7\ Specifically, districts are allowed to transfer up to 50 
percent of the funds allocated to them under most major NCLBA programs, 
including Title II, into other programs under NCLBA. For example, 
districts may transfer a portion of their Title II funds into Title I 
for initiatives designed to improve student achievement.
    \8\ Education surveyed approximately 800 districts and found that 
they spent $1.2 billion, about half of their NCLBA Title II funds in 
2004-2005, to hire more teachers in order to reduce class size. 
According to an Education official, no comparable HEA expenditure data 
is available.
    \9\ The Secretary's Fourth Annual Report on Teacher Quality, U.S. 
Department of Education (Washington, D.C.) August 2005.
    \10\ OMB uses the PART as a diagnostic tool meant to provide a 
consistent approach to evaluating federal programs as part of the 
executive budget formulation process and as a central component of its 
overall governmentwide management efforts.
    \11\ Grantees are required to submit data on how well they meet 
their project performance measures that they negotiate with their 
Education grant managers.
    \12\ See Partnerships for Reform: Changing Teacher Preparation 
through the Title II HEA Partnership Program: Final Report, May 2006. 
Department of Education, 2006.
    \13\ Although 2005-2006 was the original deadline, on October 15, 
2005 Education sent a policy letter to the Chief State School Officers 
saying that states that do not quite reach the 100 percent goal by the 
end of the 2005-2006 school year will not lose federal funds if they 
are implementing the law.
    \14\ Veteran teachers may demonstrate subject matter competency 
through a state-developed High Objective Uniform State Standard of 
Evaluation, whereby subject matter competency is established through 
teaching experience, professional development, coursework, and other 
activities.
    \15\ In 2003, Education aligned HEA's definition of highly 
qualified teacher'' to that in NCLBA.
    \16\ As of April 2006, Education officials had completed reviews of 
all states.
    \17\ States must prepare and disseminate an annual report card that 
includes information on student achievement and the professional 
qualifications of teachers in the state, the percentage of teachers 
teaching with emergency or provisional credentials, and the percentage 
of classes in the state not taught by highly qualified teachers. These 
data are presented in the aggregate and are also disaggregated by high-
poverty compared to low-poverty schools.
                                 ______
                                 
    Chairman Hinojosa. Dr. Robinson.

 STATEMENT OF SHARON ROBINSON, PRESIDENT, AMERICAN ASSOCIATION 
               OF COLLEGES FOR TEACHER EDUCATION

    Ms. Robinson. Good morning, Mr. Chairman and members of the 
subcommittee. Thank you so much for the opportunity to testify 
before you today. I represent the American Association of 
Colleges for Teacher Education. Our members are 800 schools and 
colleges of education in all the States of the Nation.
    In my written testimony I describe three myths about 
schools of education that I am hoping to dispel. Myth number 
one holds that teacher candidates leaving the academy are weak 
in content knowledge. Myth number two states that schools of 
education are ivory towers divorced from the realities of the 
pre-K-12 classrooms, producing teachers who are unprepared for 
today's realities in the classroom. Myth number 3, my personal 
favorite, suggests that schools of education reject 
accountability.
    While I argue that each of these myths is wrong, I do not 
assert that schools of education are where they need to be, for 
there is certainly considerable work yet to be done, but I 
think it is important to acknowledge that we are not standing 
still, and I think Mr. Fallon's testimony will dramatically 
illustrate this fact.
    It is also important to acknowledge that schools of 
education alone cannot solve the Nation's teacher supply and 
distribution problems. Federal incentives are needed to support 
able candidates in becoming well prepared and to distribute 
these well-prepared teachers to the schools where they are most 
needed.
    In order to make real headway, we need a much more systemic 
approach. One such approach was recently developed by my 
colleague Linda Darling-Hammond. It is called the Marshall Plan 
for Teaching. This bold plan is reflected in Chairman Miller's 
recently introduced TEACH Act, which includes many of the 
features of the Marshall Plan for Teaching.
    Title II both of the Higher Education Act and of the No 
Child Left Behind Act are linchpins in the Federal investment 
for teacher quality, yet neither is currently robust enough to 
produce the transformation that is needed. The purpose of Title 
II of the Higher Ed Act is to transform teacher education so 
that it is rigorous and accountable. I am pleased to report 
that transformation is under way, but that which was envisioned 
by the law, systemic and comprehensive, has not occurred. 
Worthy efforts are too few and unsustained given the minimal 
and uncertain $60 million Federal investment.
    Title II of the Higher Education Act was envisioned as a 
$300 million program. It has never been funded at that level, 
and every year funds seem to dwindle.
    In summary, our reauthorization recommendations for Title 
II of the Higher Education Act include a targeted investment in 
data systems for program improvement and accountability, 
partnerships focused on clinical development to produce 
expertise in teaching diverse learners, a new teaching 
fellowship program such as a service scholarship program, and a 
revision of the pass rate requirements.
    Title II of No Child Left Behind is the $2.9 billion 
investment in professional development, yet according to the 
Department, only 28 percent of Title II Part A funds are 
actually spent on professional development. Title II No Child 
Left Behind funds should be targeted to produce systemic and 
sustainable change in the States working through partnerships 
involving higher education and school districts.
    I submit for the record our recommendations for improving 
Title II of No Child Left Behind, which include support for the 
development of teacher performance assessments to be used in 
programs and in licensing, state-of-the-art mentoring programs 
for beginning teachers, preparation and professional 
development to help teachers learn to use data and assessments 
more effectively, clinical training to ensure that all teachers 
are prepared to teach diverse populations including English-
language learners and special education students, and 
partnerships to reduce teacher shortages in urban and rural 
areas.
    The relationship between higher education and pre-K-12 
schools has changed dramatically in the last decade, resulting 
in ongoing relationships that promote innovation leading to 
improved instructional practice in both the academy and the 
Nation's classrooms. Both Title IIs need to support and fund 
these rich partnerships to yield maximum benefit to our 
Nation's learners. I look forward to discussing these comments 
with you further.
    Chairman Hinojosa. Thank you.
    [The statement of Ms. Robinson follows:]

  Prepared Statement of Sharon P. Robinson, Ed.D., President and CEO, 
         American Association of Colleges for Teacher Education

    Good morning, Chairman Hinojosa and members of the Subcommittee. 
Thank you for the opportunity to testify before you today.
    I represent the American Association of Colleges for Teacher 
Education. Our members are 800 schools and colleges of education in all 
states of the nation. Schools of education produce over 90% of the new 
teachers who enter our classrooms every year.
    Colleges of education have changed dramatically over the last 
decade. Major reforms of programs since the late 1980s have created a 
curriculum much stronger in content and how to teach it, in how to 
serve diverse learners well, and in how to apply what is learned in 
courses to the classroom through tightly connected clinical training. 
Gone from most universities are the education majors that ducked 
serious subject matter and provided abstract theory divorced from 
practice. Our teacher candidates have also changed. A major share are 
mid-career professionals moving into teaching as a second career. Many 
are instructional aides who have returned to school to become highly 
qualified teachers. Others go to classes from their own living rooms 
via the Internet. And a growing number attend their university classes 
in the public schools where they are teaching, which function like 
teaching hospitals do in medicine.
    Indeed, we are not your grandmothers' schools of education!
    Although there are still some weak programs of teacher education 
that are a matter of significant concern to us, most of the enterprise 
has changed dramatically as a result of reforms launched by states, 
universities, and the federal government.
    I would like to dispel three myths about schools of education that 
often masquerade as facts.
    Myth #1 holds that teacher candidates leaving the academy are weak 
in content knowledge. While that once was often true, nothing could be 
further from the truth today. In every state, beginning teachers 
demonstrate significant content knowledge in their area of 
concentration either by completing a major or by passing a rigorous 
content test or both. The most recent MetLife survey reported that 98% 
of principals reported that first-time teachers are well prepared to 
teach subject matter. Nearly 60% of principals found the quality of new 
teachers entering the profession today to be noticeably better than the 
quality of new teachers in the past. And in states like Kentucky and 
California where major reforms of preparation were undertaken, studies 
have found that at least 85% of teachers and employers report that new 
teachers from public colleges are entering teaching well prepared for 
their work. Preliminary findings from a forthcoming report from the 
Education Testing Service indicate that the academic quality of teacher 
candidates is improving--in terms of SAT scores, grade point averages, 
and Praxis scores. Indeed, an earlier ETS study found that newly 
prepared high school teachers have higher SAT scores than their peers 
and equivalent or higher grade point averages in their subject matter 
majors. The practice of majoring in education without strong subject 
matter preparation and then entering teaching as a mathematics or 
chemistry teacher is a thing of the past.
    Myth #2 holds that schools of education are ivory towers, divorced 
from the realities of the K-12 classroom, producing teachers who are 
unprepared for today's schools. This, too, has changed dramatically. 
Schools of education are integrally involved with K-12 schools. 
Professional development schools, which are schools modeled after 
teaching hospitals in the medical profession, are increasingly the 
norm. In the last decade, universities have launched more than 1,000 
such school partnerships across the country, which provide state-of-
the-art sites for preparing teachers, pursuing reforms, and conducting 
research. Studies have found that teachers trained in these sites--many 
of which are in hard-to-staff urban communities--feel better prepared 
and are rated as more effective. In addition, veteran teachers report 
improvements in their own practice, and curriculum reforms stimulated 
by these university partnerships have produced student achievement 
gains. Candidates in these sites often complete a full year of student 
teaching or residency under the wing of an expert veteran teacher. 
Research tells us that such sustained clinical experiences are a 
predictor of effectiveness and retention.
    Myth #3, my personal favorite, suggests that schools of education 
reject accountability. In fact, we may be the only portion of the 
higher education community that fully embraces accountability. We want 
to know if our graduates are effective; if they remain in the 
profession; if they generate high achievement from their students. 
Higher education systems in Texas, Louisiana, California, Florida, and 
Ohio, to name a few, are actively developing the capacity to follow 
education graduates and make determinations about program 
effectiveness. These efforts are underway based on the initiative of 
the colleges of education supported by external funding.
    Even though national professional accreditation is voluntary in 
most states, most teacher education institutions volunteer to undertake 
national accreditation, even though about 1/4 of institutions do not 
receive full approval on their first attempt. NCATE accreditation now 
requires solid evidence of teacher education outcomes, including how 
candidates perform on licensing examinations, how they succeed in 
classrooms, how many enter and stay in teaching, and, increasingly, how 
they influence student learning. Teacher educators are committed to 
evaluating preparation programs based on the success of graduates
    I am not asserting that there is no room for improvement in schools 
of education--for there certainly is considerable work yet to be done. 
But I think it is important to acknowledge that we are not standing 
still. It is also important to acknowledge that schools of education 
alone cannot solve the nation's teacher supply and distribution 
problems. Federal incentives are needed to support able candidates in 
becoming well-prepared and to distribute these well-prepared teachers 
to the schools where they are most needed.
    Teachers in the U.S. are paid considerably less than their peers 
who go into other lines of work, and many must go into debt to complete 
their preparation, as there is very little governmental support to help 
them gain the skills they need to do their extraordinarily complex jobs 
well. If they go to teach in high-need communities, they will generally 
earn considerably less than if they teach in wealthy districts. 
Meanwhile, our competitor nations that are higher achieving (such as 
Finland, Sweden, Norway, Netherlands, Germany, France, Australia, New 
Zealand, Japan, Taiwan, and Singapore) have made substantial 
investments in teacher training and equitable teacher distribution in 
the last two decades. These nations recruit their best and brightest 
into high-quality graduate-level teacher education (which includes a 
year of practice teaching in a clinical school connected to the 
university), completely subsidized for all candidates at government 
expense. They provide mentoring for all beginners in their first year 
of teaching, and their funding mechanisms ensure equitable salaries, 
often with additional stipends for hard-to-staff locations, which are 
competitive with other professions.
    In order to make headway on the issue of recruiting, preparing, and 
retaining teachers where they are needed most, we need a much more 
systemic approach.
    I would like to submit for the record a copy of the ``Marshall Plan 
for Teaching'' that was written recently by AACTE Board member and 
internationally renowned teacher educator Dr. Linda Darling-Hammond. 
This bold plan points out that in order for our nation to ensure that 
every student has a teacher who knows how to teach challenging content 
to diverse learners, we need to invest $3 billion annually. Chairman 
Miller's TEACH ACT that he recently introduced includes some features 
of this plan. The simple fact is that the federal government has not 
made the kind of investment in either higher education or pre-K-12 
education that is needed to get the result we want.
    The two Title IIs--of the Higher Education Act and of the No Child 
Left Behind Act--are lynchpins in the federal investment in teacher 
quality. Yet neither is currently robust enough to produce the 
transformation that is needed.
    Title II of the Higher Education Act was first authorized in 1998, 
four years before the enactment of No Child Left Behind. This will be 
the first time Congress has had an opportunity to look at the Higher 
Education Act in relation to the requirements of NCLB.
    The purpose of Title II of HEA is to transform teacher 
preparation--so that it is rigorous and accountable. I am pleased to 
report to you that transformation is under way. Schools of education 
are deeply involved with other components of the university--including 
schools of arts and sciences--and with local school districts. The 
successes of some of these new models of preparation have been 
documented in a number of recent reports, including a major volume by 
the National Academy of Education. When the ``highly qualified'' 
mandate was enacted in NCLB, Title II HEA funds were increasingly used 
to prepare teachers to meet those requirements.
    Schools of education are at the beginning of developing more 
meaningful and robust capacity for accountability--through collection 
of rich assessment data regarding their candidates and their programs. 
The development of valid and reliable performance assessments is an 
essential element of those activities. For example, a consortium of 
universities in California has developed the PACT assessment 
(Performance Assessment for California Teachers) that, like the 
National Board's assessments, measures the actual teaching skills and 
outcomes of prospective teachers. This assessment and similar efforts 
in Wisconsin, Washington, Oregon, North Carolina, and elsewhere 
demonstrate the possibilities for improving preparation by measuring 
whether new teachers can actually teach before they enter the 
profession. Such measures build on earlier work--such as the teacher 
work sample assessment--and could provide much stronger accountability 
than the current requirements for teachers to pass paper-and-pencil 
tests of basic skills and subject matter knowledge that, though 
important, fall short of looking at whether teachers can actually 
succeed in teaching diverse students.
    We believe that state certification requirements should include 
this type of performance assessment so that parents and students are 
assured that a beginning teacher is skilled in instructing all 
students. A modest investment by the federal government could 
facilitate the continued development of valid and reliable teacher 
performance assessments so that states may adopt them. Such an 
investment is called for in the TEACH Act recently re-introduced by 
Chairman Miller.
    The Higher Education Act has also put a premium on partnerships 
among K-12 schools, colleges of education, and schools of arts and 
sciences. Such partnerships are no longer novel, but are increasingly 
routine.
    But the transformation envisioned by the law--systemic and 
comprehensive--has not occurred. The transformation remains spotty and 
unsustained given the minimal $60 million federal investment. Title II 
of the Higher Education Act was envisioned in 1998 as a $300 million 
program. This amount is a bare minimum for starting on the critical 
agenda of ensuring that every beginning teacher is adequately prepared 
to teach the challenging content standards required under NCLB and to 
do so successfully with students with a wide array of learning needs. 
Yet every year the funds dwindle.
    I would like to submit our reauthorization recommendations for 
Title II of the Higher Education Act for the record. In summary, we 
propose
    <bullet> A targeted investment in the development of data systems 
so that schools of education can follow their graduates and assess 
their impact on student learning, track teacher movement, and measure 
retention.
    <bullet> An investment in partnerships among schools of education, 
schools of arts and sciences, and K-12 schools that targets sustained 
clinical experience, teaching diverse learners (including ELL and 
special education students), addressing the critical shortage areas 
(including, math, science, special education, and ELL) and addressing 
teacher turnover in high-need schools--with a significant increase in 
funding. This would include support for partnerships that provide high-
quality internships and residencies in communities where teachers are 
most needed.
    <bullet> A new Teaching Fellowship program that would provide 
service scholarships to cover the cost of preparation in exchange for 
teaching in high-need fields and high-need schools for at least four 
years.
    <bullet> A revision of the Pass Rate requirements so that pass 
rates are reported for candidates who have completed 100% of their 
coursework. (This will ensure that candidates taking certification 
exams have completed all content and pedagogical curricula courses.)
    Title II of the No Child Left Behind Act is the federal 
government's $2.9 billion investment in professional development. Yet, 
according to the Department of Education, only 28% of the funds are 
actually spent on professional development. About half of the funds go 
to class-size-reduction initiatives in states.
    Title II NCLB funds should be targeted to produce systemic and 
sustainable change in states--working through partnership involving 
higher education and local school districts. The funds should support 
developing and carrying out statewide initiatives to address the 
following challenges:
    <bullet> Persistent and critical shortages in fields such as math, 
science, special education, and ELL.
    <bullet> The maldistribution of teachers so that the neediest 
students are most likely to have the least qualified teachers.
    <bullet> Ensuring that rural and urban schools have effective 
teachers and high retention rates.
    <bullet> Ensuring that all teachers can provide instruction in a 
rigorous curriculum to diverse learners.
    I submit for the record our recommendations for improving the No 
Child Left Behind Act, which include:
    <bullet> Partnerships to reduce teacher shortages in urban and 
rural areas;
    <bullet> Preparation that will ensure that all new teachers are 
prepared to teach diverse populations, including English language 
learners and special education students;
    <bullet> Preparation and professional development to help teachers 
learn to use data and assessments to improve teaching and learning; and
    <bullet> State-of-the-art mentoring programs for beginning teachers 
so that they become increasingly competent and stay in teaching.
    <bullet> Support for the development of teacher performance 
assessments that enhance teacher preparation and teacher 
accountability.
    I would also like to submit our publication ``Teacher Education 
Reform: The Impact of Federal Investments,'' which profiles grants 
funded by Title II of the Higher Education Act. Next month, I will be 
pleased to submit to the Subcommittee our upcoming publication, 
``Preparing STEM Teachers: The Key to Global Competitiveness.''
    The relationship between higher education and K-12 schools has 
changed dramatically in the last decade. There is no longer a clear 
line between the role of higher education and the role of public 
schools. Rather, there are ongoing innovative relationships that 
promote the improvement of instructional practice in both the academy 
and the classroom. Both Title IIs need to support and fund these rich 
partnerships to yield maximum benefit for our nation's learners.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Chairman Hinojosa. Dr. Wiley.

          STATEMENT OF JANICE WILEY, DEPUTY DIRECTOR,
                   REGION ONE SERVICE CENTER

    Ms. Wiley. Mr. Chairman and members of the subcommittee, I 
thank you for the opportunity to testify today. I am Janice 
Wiley, deputy director for the Region One Education Service 
Center located in Edinburg, Texas. We serve a student 
population of over 373,000 students along the south Texas-
Mexico border, and of those, about 144,000 are limited-English-
proficient students. Ninety-seven percent of our student 
population is of Hispanic decent, with 85 percent qualifying as 
economically disadvantaged.
    To serve these students there are over 23,000 teachers in 
the Region One area, and over 18,000 of those teachers serve 
core academic subject areas. Of those, about 12 percent hold a 
master's degree, and about 40 percent have less than 10 years 
experience.
    If you can imagine for a first-year teacher entering the 
first day of teaching at a local high school, there she finds 
25 to 30 students in each class period, and the class is made 
up of the demographic characteristics that I just mentioned. 
There are also many diverse learners, including limited-
English-proficient migrant students as well as special needs 
students, and for many of them, at least half, they will be the 
first in their family to earn a high school diploma and the 
first to attend college.
    Not only is the novice teacher faced with the challenge of 
helping all these students meet State and Federal standards, 
but the school is rated based on the passing rate of his or her 
students. Can you feel the immense pressure that this teacher 
must be facing? And what can we do to support the teacher so 
that after a few years he/she does not feel burned out, leave 
the classroom and feel like they are facing a losing battle?
    We can continue to provide professional development and 
mentoring programs to assist the teacher so their students are 
successful not only in meeting, but surpassing these academic 
standards. We believe a key factor in increasing student 
achievement lies in improving the quality of teachers in our 
classrooms. Title II funds make it possible to provide these 
learning opportunities for our teaching force.
    It is impossible for teachers to learn everything they need 
to know for a lifetime of teaching during their college 
preparation work. Therefore, professional development and 
mentor programs are crucial for beginning teachers. Research 
clearly shows a well-trained teacher is the greatest factor in 
predicting student achievement, and that, dollar for dollar, 
money spent on professional development produces far greater 
gains in learning than do investments in tests, materials or 
programs.
    Even our most experienced teachers have professional 
development needs. Many graduated from teacher preparation 
programs before State content standards were developed and well 
before technology played such an important role in our 
profession. Additionally, due to brain research, we know more 
about how students learn cognitively than ever before. 
Experienced teachers must be knowledgeable about new 
scientifically research-based strategies in order to reach all 
students.
    Through Title II funds we have been able to fulfill many of 
these professional development needs in Region One. We have 
formed a local P-16 council to align instruction from high 
school to our colleges and universities to create a seamless 
transition for our students.
    Title II funds have been used also in our Texas Regional 
Science and Math Collaborative. This is a network of State 
universities, service centers and school districts that provide 
professional development in math and science. Teacher mentors 
are developed, and participating teachers may earn college 
credit and pursue graduate degrees in the math and science 
content fields.
    The Texas Science, Math, Engineering and Technology Center, 
Region One is one of five centers in Texas that were created to 
develop professional development opportunities in the STEM 
content areas. Project-based learning is emphasized, in which 
teachers learn how to engage students in more relevant, real-
world problem-solving activities. This is a collaboration of 
our local school districts, service centers, the local 
university, community college and the Workforce of South Texas.
    Region One has also formed a collaborative with other 
service centers to produce a curriculum based on the State 
content standards. Districts use Title II funds to pay for 
professional development needed to implement the
    standards-based curriculum. Key participants in the 
training are campus administrators, who learn how to support 
the curriculum, monitor and provide feedback. Also through our 
Texas American History Grant, which is designed to raise 
student achievement by improving teachers' knowledge and 
appreciation of traditional U.S. history.
    Title II moneys have also been used to pay stipends to 
recruit highly qualified teachers in shortage areas, mentor 
programs for beginning teachers and principals, hiring of 
additional teachers to reduce class size, particularly in the 
early grades.
    Since 2004, Region One has shown immense gains in student 
achievement. In reading we have gained 10 percent, from 71 to 
81 percent; mathematics, a gain of 11 percent; and in science 
we have seen the largest gain of 18 percent. We believe these 
gains are due to the Title II professional development that we 
provide to our teachers, and we are hopeful these funds will 
continue.
    Thank you for the opportunity to be here and present my 
testimony.
    Chairman Hinojosa. Thank you.
    [The statement of Ms. Wiley follows:]

  Prepared Statement of Dr. Janice Wiley, Deputy Director, Region One 
                        Education Service Center

    Mr. Chairman and members of the Subcommittee, I thank you for the 
opportunity to testify today. I am Dr. Janice Wiley, Deputy Director 
for Instructional Support Services of the Region One Education Service 
Center located in Edinburg, Texas. The Region One Service Center serves 
a student population of over 373,000 located along the south Texas-
Mexico border, of which approximately 144,000 students are limited 
English proficient. Ninety-seven percent of the student population is 
of Hispanic descent with 85% qualifying as Economically Disadvantaged. 
To serve these students, there are over 23,256 teachers in the Region 
One area, with over 18,000 teachers in the academic core subject areas. 
Of those, only 12.6% hold a master's degree and approximately 40% have 
less than 10 years experience.
    Imagine a first-year teacher entering his/her first day of teaching 
at local high school. There are 25-30 students in each class period; 
the class made up of many of the demographic characteristics that I 
just mentioned. There are also many diverse learners including students 
that are Limited English Proficient, migrant students, as well as 
special needs students. For many of them, at least half will be the 
first in their family to earn a high school diploma and the first to 
attend college, much less have an advanced degree. Not only is the 
novice teacher faced with the challenge of helping all of these 
students meet state and federal standards, but the school is rated 
based on the passing rates of his/her students. Can you feel the 
immense pressure this teacher must be facing? What can we do to support 
this teacher so that after a few years he/she does not feel burned out 
or worse yet, feel like they are facing a losing battle all by 
themselves? We can continue to provide quality professional development 
and mentoring programs to assist the teacher so that their students are 
successful in not only meeting, but surpassing state and federal 
academic standards. The Region One Education Service Center believes 
vehemently that a key factor in increasing student achievement lies in 
improving the quality of teachers in our classrooms. Title II funds 
make it possible to provide these learning opportunities for our 
teaching force.
    It is impossible for teachers to learn everything they need to know 
for a lifetime of teaching during their college preparation work; 
therefore professional development and mentor programs are crucial for 
beginning teachers. Research clearly shows that a well-trained teacher 
is the greatest factor in predicting student achievement and that, 
dollar for dollar, monies that are spent on professional development 
produce far greater gains in student learning than do investments in 
tests, materials, or programs.
    Even our most experienced teachers have professional development 
needs. Many graduated from teacher preparation programs before state 
content standards were developed and well before technology played such 
an important role in our profession. Additionally, due to brain 
research we know more about how students learn cognitively than ever 
before. Experienced teachers must be knowledgeable about new 
scientifically researched-based strategies in order to reach all 
students.
    Through Title II funds we have been able to fulfill many of our 
teachers' professional development needs. Many efforts are being 
coordinated locally with the service center facilitating many of the 
activities. We have formed a local P-16 council to align instruction 
from high school to our colleges and universities and to create a 
seamless transition for our students.
    Title II funds have been used to serve identified needs and have 
been used by the Region One Education Service Center to form the 
numerous initiatives:
    <bullet> Texas Regional Science and Math Collaborative--A network 
of statewide universities, education service centers, and school 
districts that provide professional development in math and science. 
Teacher mentors are developed and participating teachers may earn 
college credit and pursue graduate degrees in the math and science 
content fields.
    <bullet> Texas Science, Math, Engineering, and Technology (TSTEM) 
Center--Region One ESC is one of only 5 centers in Texas created to 
develop professional development opportunities in the STEM content 
areas. Project-based learning will be emphasized in which teachers will 
learn how to engage students in more relevant real-world problem 
solving activities. This is a collaboration of local school districts, 
Region One ESC, universities, community colleges, and the Workforce of 
South Texas.
    <bullet> CSCOPE Curriculum--Region One Esc has formed a 
collaborative to produce a curriculum based on the state content 
standards. Districts use Title II funds to pay for the professional 
development needed to implement the standards-based curriculum. Key 
participants in the training are campus administrators who also learn 
how to support the curriculum, monitor the implementation, and provide 
feedback to teachers through analysis of data from six weeks tests and 
walkthrough observations.
    <bullet> Teaching American History Grant -This program is designed 
to raise student achievement by improving teachers' knowledge and 
understanding of and appreciation for traditional U.S. history. This is 
a partnership between local school districts, Region One ESC, 
University of Texas Pan American, and local museums.
    Title II monies have also been used in recruitment and retention in 
the following manner:
    <bullet> Stipends to recruit highly qualified teachers in shortage 
areas;
    <bullet> Mentor programs for beginning teachers and principals;
    <bullet> Hiring of additional teachers to reduce class size, 
particularly in the early grades
    Since the 2004 school year, Region One has shown significant gains 
in student achievement for all students on state assessments. Reading 
increased from 71% to 81% passing rate, a gain of 10%. Mathematics 
increased from 58% to 69%, a gain of 11%. Social Studies increased from 
77% to 81%, a gain of 4%. Science has seen the largest increase, from 
43% to 61%, a gain of 18%. We firmly believe that these gains are due 
to the professional development that we provide to our teachers through 
Title II funds. We are hopeful that these funds will continue to be 
available to meet the needs of the children in south Texas.
    Thank you for the opportunity to be here today to present this 
information. I will be happy to answer any questions that the committee 
may have.
                                 ______
                                 
    Chairman Hinojosa. Dr. Fallon.

         STATEMENT OF DANIEL FALLON, PROGRAM DIRECTOR,
                      CARNEGIE CORPORATION

    Mr. Fallon. Good morning. Thank you for inviting me to 
testify on behalf of our common goal: to provide high-quality 
teachers for the Nation's classrooms.
    I am Dan Fallon. In the summer of 2000, I began planning an 
ambitious private philanthropic initiative to rethink and thus 
improve the way teachers receive their education at our 
country's colleges and universities. For the past 6 years I 
have been administering this program, which is called Teachers 
for a New Era. I work for Carnegie Corporation of New York, one 
of the oldest large philanthropies in the United States. With 
the cooperation and support of the Annenberg Foundation and the 
Ford Foundation, Carnegie Corporation of New York has enabled 
11 institutions of higher education throughout the United 
States to restructure their academic programs of teacher 
education by focusing on learning gains made by pupils in 
working classrooms of public schools.
    We have financed the big bet we are making on teacher 
education through an investment from all sources of more than 
$125 million in funds provided primarily by the private sector. 
Although it is still too early to draw definitive conclusions 
about the many features of Teachers for a New Era, some 
promising patterns are emerging. We believe on the basis of our 
experience, for example, that teacher quality could be 
significantly advanced first through incentives to the States 
to improve educational data systems and use them for purposes 
of program improvement; second, by providing incentives to 
encourage teacher education programs to support novice 
teachers; and, third, by inviting teacher education programs to 
partner with school districts on evidence-based, continuous 
improvement designs for teacher education focused on pupil 
learning.
    Teachers for a New Era does not dictate a common curriculum 
or structure for teacher education. There is as yet no solid 
research basis to justify with persuasive evidence the 
imposition of a single model. More importantly, the genius of 
American education is its diversity and its responsiveness to 
local needs and local culture.
    Instead of curricular conformity, Teachers for a New Era 
demands attention to three large design principles. The first 
is fostering a culture of respect for persuasive evidence. The 
second is effectively engaging contributions from faculty in 
the academic content disciplines of the arts and sciences. And 
the third is thinking about teaching as academically taught, 
skilled clinical practice. This is a template for reform that 
any teacher education program anywhere in the United States 
could implement.
    Embedded within the requirement of an evidence-based 
program is for us the generally novel challenge that the 
teacher education program find a way to measure the quality of 
its work by demonstrable pupil learning occurring in the 
classrooms of teachers who are graduates of the program. A 
similarly novel challenge is embedded within the conception of 
teaching as clinical practice. It obliges the teacher education 
program to offer each of its graduates intensive mentoring and 
support during the first 2 full years of professional teaching, 
a feature we call academy-based induction.
    The apparent success of focusing on pupil learning and of 
academy-based induction forms the rationale for what my 
testimony offers to you. First, we believe you can facilitate 
the production of high-quality teachers by providing incentives 
to the States to enable the formation of educational data 
systems that serve broad purposes of program improvement. 
Second, encouraging the adoption of academy-based induction 
holds the promise of significantly reduced costs coupled with 
instructional improvement. Third, promoting partnerships 
between school districts and teacher education programs to 
construct evidence-based continuous improvement designs focused 
on pupil learning appears from our experience a promising 
strategy for increased teacher quality, especially in 
challenging, high-need schools.
    Mr. Chairman, members of the committee, we offer you a 
vision for a reliable means of preparing effective teachers who 
can teach all children from all walks of life to learn to high 
standards. It is a vision of higher education in the Nation's 
service.
    Thank you for your attention this morning.
    Chairman Hinojosa. Thank you.
    [The statement of Mr. Fallon follows:]

   Prepared Statement of Daniel Fallon, Director, Program in Higher 
              Education, Carnegie Corporation of New York

Introduction
    My name is Daniel Fallon. I serve as Director of the Program in 
Higher Education at Carnegie Corporation of New York, which is the 
philanthropic organization established in 1911 by Andrew Carnegie to 
maintain the benefaction he intended to pursue with the wealth he had 
accrued in his lifetime. In Mr. Carnegie's words, our mission is to 
promote ``* * * the advancement and diffusion of knowledge and 
understanding to benefit the citizens of the United States.''
    Over the course of the twentieth century Carnegie Corporation of 
New York has provided support for many worthwhile American activities, 
with a particular focus on education. For example, resources from the 
philanthropy helped establish the first nationally available pension 
fund for college teachers, the Teachers Insurance Annuity Association, 
known by its initials TIAA. Research supported by the Corporation 
provided the basis for establishing national need-based financial aid, 
now known more commonly as Pell Grants. Other investments were 
instrumental in establishing the College Board, the Educational Testing 
Service, and more recently the National Board for Professional Teaching 
Standards.
    Since the early 1980's the Corporation has increased its efforts to 
improve the quality of teaching in the nation's schools. Under its 
current president, Vartan Gregorian, it undertook a major initiative 
beginning in 2001 to reform teacher education. The initiative is called 
Teachers for a New Era and I am its principal designer and have 
directed its development since its inception. The Annenberg Foundation 
and the Ford Foundation have joined Carnegie Corporation in this 
effort, contributing significant resources to extend the reach of 
Teachers for a New Era and to disseminate positive findings arising 
from its work.
Purpose of this testimony
    I have accepted your invitation to describe today the work we are 
doing in teacher education reform. Some of our findings thus far may be 
helpful to you if you begin to consider ways to facilitate the 
production of high quality teachers. For example, in my testimony I 
will discuss three areas you may find useful: (1) the value for states 
of recording educational data, releasing such data to higher education 
institutions for purposes of improvement of teacher education programs, 
and placing responsibility for educational data with research 
institutions; (2) how academy-based induction functioning as a 
complement to district-based induction increases efficiency, reduces 
costs, and improves pupil learning; and (3) why it may be worthwhile to 
provide incentives for teacher-education programs to adopt evidence-
based continuous-improvement designs focused on facilitating pupil 
learning.
    I speak on behalf of the eleven institutions of higher education 
that are participating in Teachers for a New Era, and with their 
consent. I should add that the presidents of the Teachers for a New Era 
institutions, led by President Simon of Michigan State University and 
President Hennessy of Stanford University, are preparing a letter to 
the National Research Council. You will be receiving a copy of this 
letter, which addresses the congressional charge to the Council to 
prepare a report on teacher education. It echoes some of the themes I 
raise today, but also places a particular emphasis on the value of 
teacher education reform to improve the nation's competitiveness in the 
areas of science, technology, engineering, and mathematics.
    As an officer of Carnegie Corporation of New York I hope my 
testimony may serve one of our basic purposes: to increase the life 
chances of citizens of the United States.
Why try to reform teacher education?
    We decided to undertake this work seven years ago with no 
illusions. There was a well-justified consensus within the policy 
community about teacher education. It was judged in general to be 
intellectually incoherent. Its value in providing certified teachers 
was of unproven effectiveness. Finally, numerous well-organized efforts 
at reform of teacher education had not led to any fundamental change in 
the enterprise. In short, most informed observers did not think that 
teacher education was a worthy target of philanthropic attention. 
Nonetheless, we decided to make a big bet on it.
    We undertook our initiative on teacher education for two principal 
reasons. The first is the much-discussed emergence in the U.S. of a 
knowledge-based economy. Our nation is today and for the foreseeable 
future generating wealth principally through knowledge, information, 
and services. If the nation is to preserve its standard of living and 
protect the quality of life of its citizens, it must place priority on 
producing a highly educated work force. We understand the 
reauthorizations of the Elementary and Secondary Education Act and the 
Higher Education Act in recent years as a rational political response 
to the challenge of a new economy.
    The second reason for our investment is a fundamental paradigm 
shift in our conception of how well children learn in schools. For more 
than a generation our knowledge was based on the excellent pioneering 
work of sociologist James Coleman sponsored by the U.S. government in 
the late 1960's. These analyses led to a prevailing conclusion that 
pupil achievement was largely controlled by economic inequality 
mediated in large part by family circumstances. The science on which 
this idea was based depended for the most part on cross-sectional 
analyses of average test scores of some groups of pupils compared with 
others. Longitudinal data permitting the analysis of the change in test 
scores by individual pupils over time were largely nonexistent and thus 
not available to Coleman. That circumstance changed with the broad 
introduction in several states during the decade of the 1980's of 
mandatory state-wide testing in the public schools. As the accumulation 
of these data made further analysis possible, researchers began to look 
at the performance of individual pupils in successive years with 
different teachers. They discovered that some teachers demonstrated an 
ability to raise pupil achievement reliably, in some cases quite 
dramatically, even in the face of severe economic hardship experienced 
by the pupil. In other words, our knowledge shifted from thinking that 
wealth, families, and neighborhoods were the principal source of pupil 
achievement to understanding that high quality teaching made a very 
significant contribution.
    The two new developments, a new knowledge-based economy and an 
understanding that the quality of the teacher was likely the single 
most important school-based factor influencing the achievement of 
pupils, were foremost in giving Carnegie Corporation of New York 
confidence that an investment in improving the quality of teacher 
education would be worthwhile. To these we added other considerations. 
We believe, on principle, that higher education institutions are the 
best place to educate teachers. Further, we are convinced that a new 
generation of faculty at colleges and universities are more prepared 
than ever before to accept the challenge of designing strong programs 
of teacher education.
Evidence-based guidelines for reform
    The U.S. has not on the whole invested heavily in rigorous research 
on education. Primarily for that reason we do not know with high 
confidence what an ideal teacher education program might look like. We 
began with a straightforward presumption that observable pupil learning 
is the only way to make high quality teaching visible. Therefore, if we 
want to see evidence of high quality teaching, we must look for pupil 
learning. We studied the limited amount of relevant research literature 
carefully and could find no reason based on evidence to recommend a 
specific structure or curriculum for teacher education. Instead, we 
asked higher education institutions to respond to challenges for 
teacher education around three large design principles that were 
justified to the best of our ability on sound evidence.
    The first design principle is cultivating a respect for evidence. 
Within this general framework we embedded a radical idea, that the 
higher education institution must find a way to measure the quality of 
the teacher education program by demonstrable pupil learning occurring 
in classrooms of teachers who were graduates of the program.
    The second design principle is effectively engaging faculty from 
the disciplines of the arts and sciences. This includes acquiring 
knowledge of the content that the teacher will teach, of course, but 
also speaks to the importance of general education for the teacher. 
Also important is the idea that faculty from the disciplines of the 
arts and sciences will learn from their contact with teacher candidates 
and with their colleagues in colleges of education more effective ways 
of representing content so that it is readily learned by students.
    Finally, the third design principle calls for understanding the act 
of teaching as skilled clinical practice. Thus, it considers pupils as 
clients, the classroom as a clinic, and the teacher as a clinician who 
assists each child in learning to high standards. Taking this idea 
seriously requires that teacher education programs work closely with 
representative school districts, that teacher candidates be exposed 
early and often to working classrooms, that some highly effective 
teachers from schools be appointed to positions as ``professors of 
practice'' in the teacher education program, and that higher education 
faculty from the disciplines of the arts and sciences also observe 
teaching in classrooms and assist in instructing teacher candidates 
about the teaching of the content. The third design principle embeds a 
second radical idea within the teacher education program, namely, that 
the teacher education program should offer to each of its graduates a 
program of intensive mentoring and support during the first two full 
years of professional clinical practice. Through this device the novice 
teacher who was once a teacher candidate in the teacher education 
program continues to receive education to become an effective teacher. 
We call this idea academy-based induction, or residency.
    By tightly coupling the teacher education program to working 
classrooms in schools, requiring an ongoing professional relationship 
with recent graduates who are working as novice teachers, and using 
pupil learning in the classrooms of graduates as the primary means of 
measuring quality, Teachers for a New Era is explicitly a design for 
continuous improvement. We believe this is an evidence-based program 
that will enable a teacher education program to gather the data it 
needs to improve continuously over time. The functional nature of the 
reform challenge ensures that any teacher education program anywhere in 
the United States today could meet it by applying the design 
principles.
A capsule description of how Teachers for a New Era is being 
        implemented
    Instead of requesting proposals to participate, Carnegie 
Corporation of New York engaged policy analysts from the RAND 
Corporation, and appointed a National Advisory Panel of distinguished 
figures from the world of policy, practice and research. With 
assistance from these two groups, we went through an iterative process 
of investigation of teacher education programs, culminating in site 
visits to numerous institutions, and ultimately in the identification 
of eleven institutions of higher education that we believed were 
capable of meeting the challenges we posed in our general prospectus, 
which is attached to this document. We then invited proposals from just 
these eleven, and went through multiple revisions of the proposals 
until each proposal was judged to have produced a work plan capable of 
meeting our requirements.
    In addition to the prospectus describing Teachers for a New Era, I 
have separately provided each member of the Subcommittee with a 
laminated 4x6 card containing a list of the eleven participating 
institutions on one side, and a schematic summary of the design 
principles on the other side. We designed the initiative so as to 
provide strong support for fundamental reform. Each of the eleven 
institutions of higher education was awarded $5 million over a five to 
seven year period, and was then asked to raise another $5 million 
independently, with at least 30% of the matching money dedicated to a 
permanent endowment to support the reconfigured program of teacher 
education. In addition, each institution received $500,000 to be shared 
with ``partners,'' such as school districts or other cooperating 
institutions, to facilitate relationships necessary for preparing 
effective teachers. Thus, each institution received $10.5 million in 
direct support. Carnegie Corporation of New York also contracted with 
outside partners, primarily the Academy for Educational Development, to 
provide direct technical assistance for the life of the project that 
included assistance for each institution with budget development, 
monitoring of benchmarks, consultation services, and several meetings 
of teams from all institutions each year to discuss progress on the 
design principles. All in all, the philanthropic investment in this 
unusual national initiative has exceeded $125 million.
Early findings and implications
    Although it is too early to draw many confident conclusions about 
the long-term success of this initiative, a few patterns are becoming 
clear. First, in a few pilot studies several of the institutions have 
been able to link pupil learning gains in public school classrooms with 
teachers who have pursued distinct teacher education programs before 
being appointed as teachers. These investigations have been very 
helpful in pointing to areas within the teacher education curriculum 
that require strengthening. The promise of this approach seems clear. 
Nonetheless, we have found in many instances that there are severe 
obstacles to retrieving data for legitimate program improvement 
purposes, even when the data are available, there are no objections 
from union representatives, and proper safeguards have been taken to 
protect the identities of particular teachers and particular students. 
In other cases, state or local data are not collected in ways that make 
comparisons for research purposes useful.
    We thus find ourselves faced with the dilemma that (a) we cannot 
mount an evidence-based system for program improvement without data 
from the schools; and (b) the authorities responsible for school data 
are often unable to provide data for program improvement. Therefore, if 
your legislative deliberations include data systems, and you wish to 
improve the education of future teachers, you may wish to consider 
incentives to states and local school districts to construct 
comprehensive data systems that collect measures that can be compared 
directly from school to school within a district, and from district to 
district within a state. It would be helpful if such data systems 
included unique identifiers that permitted the linking of performance 
of individual pupils with the teachers that taught them, in ways that 
protect the identity of the pupils and the teachers, and also included 
provisions that require such data to be made available to institutions 
of higher education with teacher education programs for the purpose of 
program improvement. There may also be distinct advantages in ensuring 
that school data repositories be entrusted to research institutions in 
the state rather than to state regulatory agencies.
    A second finding of importance has been the remarkable success of 
the implementation of academy-based induction as a supplement to 
district-based induction programs. For example, one of our grantees, 
the University of Virginia, has shown that its academy-based induction 
achieved a 33% reduction in attrition of novice teachers over and above 
the existing district-based induction program by itself. Innovations of 
this kind result in enormous cost savings to districts and lead to more 
effective instruction for pupils. To offset the cost of design and 
introduction of academy-based induction nationally, you may want to 
consider offering incentives to partnerships between teacher-education 
programs and school districts to propose them.
    Finally, a third finding is that the introduction of an evidence-
based continuous-improvement program built around the Teachers for a 
New Era design principles has resulted in substantial long-term 
administrative and organizational changes within these higher education 
institutions. The effect of new management has been to promote greater 
institution-wide responsibility for teacher education and to improve 
the application of the considerable knowledge resources throughout 
these institutions to the enterprise of teacher education. Therefore, 
you may want to consider some form of incentive grants to higher 
education institutions that propose to restructure teacher education by 
agreeing to design principles similar to Teachers for a New Era.
Summary and conclusion
    As we review the fifth year of implementation since the first group 
of institutions received awards under Teachers for a New Era, a wide 
variety of very encouraging developments are beginning to emerge. The 
comprehensive application of the design principles appears to be 
shaping a coherent vision of effective teaching as academically-taught 
skilled clinical practice. Therefore, we have reason to hope that a 
foundation is being laid for an evidence-based program of teacher 
education driven by attention to pupil learning in working classrooms 
in a form that enables continuous improvement of teacher education.
    Ours is a vision for reliable means of preparing effective teachers 
who can teach all children, from all walks of life, to learn to high 
standards. It is a vision of higher education in the nation's service.
    Thank you for your attention this morning.
                                 ______
                                 
    Chairman Hinojosa. Yes, Dr. Feistritzer. You may begin.

           STATEMENT OF EMILY FEISTRITZER, PRESIDENT,
         NATIONAL CENTER FOR ALTERNATIVE CERTIFICATION

    Ms. Feistritzer. Thank you, Mr. Chairman and members of the 
committee. Thank you for this opportunity to speak to you this 
morning on the very critical topic of preparing teachers for 
the classroom.
    I am Emily Feistritzer, and I am actually the founder and 
president of the National Center for Alternative Certification, 
which was created in 2003 with a discretionary grant awarded to 
the National Center For Education Information, which I also 
run, to serve as a national clearinghouse for information about 
alternative routes to teacher certification.
    Since 1983, the National Center for Education Information 
has been tracking what is going on in teacher preparation and 
certification at all levels throughout the country, and we 
actually started focusing on documenting what States were doing 
regarding creating alternative routes for certifying teachers 
in 1983.
    I would like to discuss with you data and information about 
these alternative routes to teaching and their impact on the 
preparation of all teachers going forward. Alternate routes to 
teacher certification are having a profound impact on who 
enters teaching, how they enter teaching, when they enter 
teaching, and where they teach.
    What began in the early 1980s as a way to ward off a 
projected shortage of teachers and replace emergency 
certification have evolved into very sophisticated models for 
recruiting, training and certifying people who already have at 
least a bachelor's degree and want to become teachers.
    In 1983, when we first started tracking this issue, there 
were eight States that said they had some type of alternative 
to the approved college undergraduate teacher education program 
route for certifying teachers. In 2007, and the latest report I 
will make copies available to the committee, every State in the 
United States and the District of Columbia report that they now 
have at least one alternative route to teacher certification. 
All told, 13 alternate routes to teacher certification have 
been created in the 50 States, and they are being implemented 
in approximately 485 programs throughout the country.
    Last year 59,000 individuals entered teaching through 
alternative routes and this constitutes about a third of all of 
the new teachers, new, never-taught-before teachers, in that 
year. That number increased from 39,000 in 2003-2004. I have a 
graph in my written testimony which you will have which shows 
the exponential growth of the production of teachers through 
alternative routes.
    Furthermore, Title II of the No Child Left Behind Act, 
resubmissions of their plans for meeting the highly qualified 
teacher requirements, we analyzed those, and 38 of the States 
specifically said they were going to use alternative routes to 
ensure that their teachers met the highly-qualified teacher 
mandate.
    So this is not any longer a stepchild of the system. 
Alternate routes have become a major player in the production 
of teachers. A hallmark of alternative routes is that they are 
a market-driven phenomenon. They don't exist unless there is a 
demand for a teacher in a specific subject in a specific area 
in a specific geographic region of the country. Alternate 
routes are very efficient in that the programs do exist to 
recruit, train, place teachers where teachers are most needed.
    There has been a lot of change in the alternative teacher 
certification movement over time, and currently--and my yellow 
light is already on--it is important to note that they are 
specifically designed to recruit, prepare and license 
individuals who already have at least a bachelor's degree. They 
require rigorous screening processes such as passing tests, 
interviews. They are very heavily on-the-job training programs. 
The coursework and equivalent experiences in professional 
education studies generally occur while they are teaching. They 
involve working with mentor teachers and other support 
personnel, and they set high performance standards for 
completion of the programs.
    What do we know about preparing teachers through alternate 
routes? In summary, we know that there is a wide variation in 
preparation of programs, from about a third of them that 
require 31 or more credit hours that an individual takes on a 
college campus for which they pay tuition to a college or 
university, all the way down to about a third that don't 
require any such courses. About a half of alternate route 
programs now are being administered by higher education 
institutions, a fourth of them by school districts, and a 
fourth by collaborations, individual States or private 
entities.
    Nearly all alternate routes are field-based teacher 
preparation programs that include mentoring and learning 
experiences directly related to classroom teaching. More than 
half of alternate-route teachers come into the profession with 
experience from other professional careers, and only a fourth 
of teachers who have entered teaching through alternate routes 
say they would have become a teacher if the program had not 
been available.
    Chairman Hinojosa. Thank you.
    [The statement of Ms. Feistritzer follows:]

Prepared Statement of Emily Feistritzer, President, National Center for 
    Alternative Certification and the National Center for Education 
                              Information

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to speak before you today on the critical topic of 
preparing teachers for the classroom. My name is Emily Feistritzer and 
I am the president of the National Center for Alternative Certification 
which was created in 2003 with a discretionary grant awarded to the 
National Center for Education Information to serve as a comprehensive 
clearinghouse for information about alternative routes to teacher 
certification.
    The Center's web site, www.teach-now.org, is used by tens of 
thousands of individuals per day, including policy makers and 
individuals seeking to become teachers.
    In addition to collecting, analyzing and disseminating information 
about teacher preparation and certification since 1979, the National 
Center for Education Information has been documenting what is going on 
in the development of alternatives to college-based undergraduate 
teacher education program routes to certification since 1983 and 
publishing descriptions of alternative routes in an annual publication, 
ALTERNATIVE TEACHER CERTIFICATION: A State-by-State Analysis. I have 
made the 2007 edition of this 346-page document available to you, as 
well as Alternate Routes to Teaching, a book I co-authored with 
Charlene K. Haar which was published by Pearson Education, Inc. in 
April of this year.
    I would like to discuss with you data and information about these 
alternative routes to teaching and their impact on the preparation of 
all teachers going forward.
    Alternate routes to teacher certification are having a profound 
impact on the who, what, when, where and how of K-12 teaching. What 
began in the early 1980s as a way to ward off projected shortages of 
teachers and replace emergency certification has evolved into a 
sophisticated model for recruiting, training and certifying people who 
already have at least a bachelor's degree and want to become teachers.
    When the National Center for Education Information (NCEI) first 
began in 1983 asking state certification officials the question, ``What 
is your state's status regarding alternatives to the traditional 
college teacher education program route for certifying teachers?'' 
eight states said they were implementing some type of alternative route 
to teacher certification.
    Now, in 2007, all 50 states and the District of Columbia report 
they have at least some type of alternate route to teacher 
certification. All toll, 130 alternate routes to teacher certification 
now exist in these 50 states and the District of Columbia. In addition, 
these states report that approximately 485 alternate routes programs 
are implementing the alternative routes to teacher certification they 
established.
    Based on data submitted by the states, NCEI estimates that 
approximately 59,000 individuals were issued teaching certificates 
through alternative routes in 2005-06, up from approximately 50,000 in 
2004-05 and 39,000 in 2003-04. As shown in the figure below, the 
numbers of teachers obtaining certification through alternative routes 
have increased substantially since the late 1990s. Nationally, 
approximately one-third of new teachers being hired are coming through 
alternative routes to teacher certification.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Furthermore, an analysis of the NCLB Title II reports the states 
re-submitted to the U.S. Department of Education last summer after none 
of the original reports showed that any state had met the highly 
qualified teacher requirement, revealed that 38 states specifically 
stated they intend to utilize alternate routes to ensure that all of 
their teachers meet the highly qualified teacher requirements. This 
illustrates, further, the market-driven, solution-oriented role these 
effective programs are having in meeting the demand for qualified 
teachers.
    A hallmark of alternative routes is that they are market-driven. 
Alternate routes to teaching are created for the explicit purpose of 
filling a demand for teachers in specific subject areas in specific 
schools in specific geographic regions. They are designed for 
individuals who already have at least a bachelor's degree--many of whom 
have experience in other careers--who want to teach the subjects in 
areas where there is a demand for teachers.
Why Alternate Routes?
    Since the mid 1960s, reforming teacher education and certification 
was the focus of solving teacher quantity and quality issues. Having 
enough qualified teachers has been at the root of most reform efforts 
concerning teachers.
    For decades, teacher education and certification have been 
identified as both the cause and solution of many of the problems 
regarding teachers. The 1,300 or so Colleges of Education have taken 
the brunt of criticism for not adequately preparing qualified teachers. 
Additionally, state agencies responsible for licensing (certifying) 
teachers have been targets for an array of attacks -from the 
complicated certification processes to weak assessments that fail to 
measure competencies for teaching.
    In 1983, the state of New Jersey grabbed national headlines with 
its out-of-the-box solution. New Jersey created an alternative route to 
teacher certification specifically to attract a new market for teaching 
-liberal arts graduates--and transition them into elementary and 
secondary teaching without going through a traditional college teacher 
education program.
    This solution to teacher quantity and quality began the alternative 
teacher certification movement and the nation took notice. Significant 
changes in alternative routes to teacher certification have occurred 
since the mid-1990s. In addition to the development of alternative 
routes at the state level, an evolving consensus of essential 
characteristics shows that most alternate routes:
    <bullet> are specifically designed to recruit, prepare and license 
individuals who already have at least a bachelor's degree--and often 
other careers.
    <bullet> require rigorous screening processes, such as passing 
tests, interviews, and demonstrated mastery of subject matter content.
    <bullet> provide on-the-job training.
    <bullet> include coursework or equivalent experiences in 
professional education studies before and while teaching.
    <bullet> involve work with mentor teachers and/or other support 
personnel.
    <bullet> set high performance standards for completion of the 
programs.
What do we know about preparing teachers through alternate routes?
    1. There is wide variation in preparation programs--from about a 
third that require 31 or more college credit hours of education courses 
to a third that require none for which a candidate pays college 
tuition.
    2. About half of alternate route programs now are being 
administered by higher education institutions, a fourth by school 
districts and a fourth by collaborations, states, or private entities.
    3. Nearly all alternate route programs are field-based teacher 
preparation programs that include mentoring and learning experiences 
directly related to classroom teaching.
    4. More than half of alternate route teachers came into the 
profession with experience from a professional career outside of 
education.
    5. Only one-fourth a teachers who have entered teaching through 
alternate routes say they would have become a teacher if the program 
had not been available.
What does the research say about the effectiveness of various teacher 
        preparation routes?
    Most of the research conducted concerning alternative routes to 
teacher certification shows that alternate routes do what they are 
designed to do: bring people into teaching who would not otherwise have 
become teachers. The research also indicates that the route one goes 
through does not seem to matter all that much as far as effective 
teaching goes. Experience and effective mentoring seem to be the most 
important variables for becoming a competent teacher.
    A growing body of research shows that after a couple of years' 
experience, differences in teacher performance measures and/or student 
achievement disappear regardless of what kind of route a teacher comes 
into teaching through.
    A scientifically designed study still underway shows similar 
results. How Changes in Entry Requirements Alter the Teacher Workforce 
and Affect Student Achievement reported findings from this study being 
conducted by Donald Boyd, Pamela Grossman, Hamilton Lankford, Susanna 
Loeb, and James Wyckoff. The researchers focused their study on 
pathways into teaching in New York City and the ``effects of such 
programs on the teacher workforce and on student achievement'' (1). The 
study's basic findings indicate that, after two years, the small 
differences among the groups at the beginning of teaching disappear 
(Boyd, et al, 2005).
    In 2005, the American Educational Research Association (AERA) 
released Studying Teacher Education: The Report of the AERA Panel on 
Research and Teacher Education (2005).
    The compendium's findings regarding alternate routes included:
    <bullet> The studies provided some evidence that alternatively 
certified teachers may be ``more willing than traditionally certified 
teachers to teach in low-SES urban schools, but these data may reflect 
more where teachers can get jobs than actual teacher preferences'' 
(663).
    <bullet> ``there were no differences between alternatively and 
traditionally certified teachers in terms of teacher efficacy or in 
teaching competence as measured by classroom observations'' (663).
    <bullet> The research showed ``very little difference between 
alternatively and traditionally certified teachers'' (670).
    <bullet> ``The studies of the alternative certification programs in 
Houston, Dallas, and Milwaukee school districts indicate inconclusive 
results'' (674). Anticipated retention was higher in Milwaukee in 
alternative programs. In Houston there were no significant differences 
between traditionally certified and alternatively certified teachers' 
``perception of the problems they faced in the classroom,'' at the end 
of the first academic year (674).
    <bullet> The studies that ``compared the impact of multiple teacher 
education programs on various dimensions of teacher quality have 
suggested that alternatively certified teachers may in some 
circumstances have higher expectations for the learning of students of 
color living in poverty than teachers who have been traditionally 
certified'' (689).
    More targeted research needs to be done to find out what it is that 
makes for effective teachers. The research conducted thus far seems to 
indicate that preparation route does not matter.
    I would like to conclude my statement with some statistics from the 
U.S. Department of Education that shed light on who actually is being 
prepared to teach and who actually become teachers, as well as the 
structure of K-12 education which illustrates the realities of teacher 
demand.
A. Are Bachelor Degree Recipients a Reliable Market for Teachers?
    Getting clarity about college graduates who are qualified to teach 
upon receiving their bachelor's degree and who go into teaching, as 
well as those who do not, is not easy. The U.S. Department of 
Education's Baccalaureate and Beyond Longitudinal Studies are often 
cited for these data which are based on samples, so NCES does not 
report these findings in numbers of individuals, but rather in 
percentages.
    The latest published Baccalaureate and Beyond Longitudinal Studies 
show that 12.2 percent of baccalaureate degree recipients in 1999-2000 
had taught as regular teachers ``in a K-12 school at some point between 
receiving the 1999-2000 bachelor's degree and the 2001 interview'' 
(USDoE, 2000/01, 5).
    Given that NCES data show that 1,237,875 bachelor's degrees were 
awarded by degree-granting institutions in 1999-2000, one could 
estimate that 151,000 new graduates were teaching at some point within 
a year of receiving their baccalaureate degree.
    The data indicate that, of those 151,000 who received a bachelor's 
degree in 1999-2000 and were teaching in 2001, 21 percent were neither 
certified nor had prepared to teach as part of their undergraduate 
program. It is conceivable that some of these individuals were becoming 
certified to teach through alternate route programs.
    NCES data also show that more than one-third (35 percent) of 
Education Bachelor's Degree recipients in 1999-2000 were not teaching 
the following year. Furthermore, the data indicate that one-fourth (25 
percent) of education bachelors' degree recipients in 1999-2000 had not 
even prepared to teach and/or were not certified to teach.
    Fewer than half (47.5 percent) of graduates with education degrees 
in 1992-93 were teaching in 1994.
    Furthermore, of the B.A. recipients who were certified and/or had 
prepared to teach as part of their undergraduate program, 23 percent 
were not teaching within a year of graduating.
    A follow-up survey in 1997 of 1992-93 baccalaureate degree 
recipients indicated that 13 percent of those graduates had taught by 
1997. However, the B&B follow-up report also stated that ``8 percent 
expected to teach full-time in three years and 7 percent expected to 
teach in the longer term. Thus, it appears that many graduates who 
teach soon after college do not expect to spend much time teaching, let 
alone make it a career'' (USDoE, 2000-152, x).
    These statistics lead one to question the efficiency of the model 
for teacher production. The problem is further compounded by NCES data 
that show that about one-third of these new teachers leave within the 
first three years of teaching, and about half of them have left 
teaching after five years.
    Alternative routes to teacher certification programs, on the other 
hand, accept only individuals who not only already have a bachelor's 
degree, but come into a program because they want to teach. In most 
alternate route programs, the participants fill particular existing 
teacher vacancies. Alternative routes exist to recruit, train and 
certify baccalaureate degree holders to meet the demand for specific 
teachers to teach specific subjects at specific grade levels in 
specific schools.
    The retention rate for alternate route teachers in California and 
other large teacher-production states is 85-90 percent after five 
years.
B. School District Size and Student Enrollment.
    The sizes of school districts and where students are enrolled vary 
greatly and bear directly on teacher demand.
    National Center for Education Statistics (NCES) data indicate there 
were 14,383 regular public school districts in 2003-04. Fewer than 2 
percent of these school districts enrolled one-third of all the 
students enrolled in the United States. These are the 256 school 
districts that enroll 25,000 or more students. When the next category 
of school districts by size is added--those that enroll between 10,000 
and 24,999--587 additional school districts enter the count, taking the 
number of school districts that enroll 10,000 or more students to 843; 
these school districts represent just 6 percent of all school districts 
that enroll more than half (52.1 percent) of all the public elementary 
and secondary students.
    At the other end of the spectrum, more than one-fifth (2,994) of 
all school districts enroll between 1 and 299 students each and account 
for less than 1 percent of all students enrolled. Nearly half of all 
school districts (6,703 or 46.6 percent) enroll fewer than 1,000 
students each, and collectively account for only 5.5 percent of total 
public elementary and secondary school enrollment across the nation.
    Since these local school districts are responsible for hiring and 
placing teachers, it is obvious that the needs and demands for teachers 
in a metropolitan school district with a diverse population that 
includes several hundred schools, each of which likely enrolls anywhere 
from fewer than 100 students to more than 3,000 are different from a 
school district that has a handful of small schools in a rural 
predominantly white community.
    Alternate routes, again, by their very nature, address such 
disparities. Alternate routes are created to meet specific needs for 
specific teachers in specific areas.
C. Public School Size and Student Enrollment
    NCES data indicate that more than one in 10 (11.02 percent) of all 
schools and nearly 17 percent of secondary schools enroll fewer than 
100 students each.
    Furthermore, more than one-third (35.89 percent) of public 
secondary schools enroll fewer than 300 students each. These statistics 
are crucial in any discussion about out-of-field teaching or having a 
teacher with a major or minor teaching every class in ever school in 
the country. In these small schools, generally there is no more than 
one physics class, one chemistry class and one biology class per day. 
The chances that a teacher with a major or minor in each of these 
sciences will be teaching each of those three classes per day in each 
of these schools are slim to none.
    Many alternative routes to teacher certification meet the needs for 
highly qualified teachers in these and other high demand subjects, such 
as special education, in small schools by targeting programs that 
ensure that teachers have--or obtain--content and pedagogical mastery 
in the subjects they are teaching. Alternate routes that utilize 
technology and distance learning opportunities are likely to appeal to 
the needs of small schools.
D. Teacher Vacancies (Demand)
    The 2003-04 SASS data (2006-313) also show that the demand for 
teachers, as indicated by vacancies in schools and subjects, is 
greatest:
    In schools
    <bullet> at the secondary level,
    <bullet> in central cities and urban fringe/large towns,
    <bullet> that enroll 750 or more students; In subjects of
    <bullet> Special education,
    <bullet> English/language arts,
    <bullet> Mathematics,
    <bullet> Sciences, and
    <bullet> Foreign languages.
    All of these statistics are important in understanding the context 
in which teachers are recruited, prepared and hired.
    Alternate route programs, by their very nature, are established to 
meet specific needs for specific teachers in specific subject areas in 
specific schools.
    The targeted nature of alternate routes is the reason they are 
proliferating at a rapid rate, why thousands of people who would not 
otherwise have done so are choosing to become teachers.
Recommendations
    I urge the Congress in its reauthorization of Title II of the 
Higher Education Act (HEA) and of Title II of No child Left Behind 
(NCLB) to make changes that reflect the significant and growing role 
alternate routes have in bringing high quality individuals into the 
teaching profession who--without them--would not otherwise become 
teachers. As I have documented earlier in this statement, these 
competent teachers make a commitment to teach in classrooms where 
teachers are most needed. They now constitute one-third of all new 
teachers being hired.
    The Federal government needs to target the nation's resources so 
that the most qualified individuals who intend to teach can do so in 
high-quality efficient programs that meet the need for specific 
teachers in specific subjects in specific schools across this nation. 
Both HEA and NCLB are the very vehicles to ensure that programs of 
preparation are created and/or enhanced to attract highly qualified, 
experienced adults who know their subject matter and are eager to use 
their life experiences and practical knowledge to--as they report 
themselves--``help young people learn and develop.''
    Specific recommendations in the reauthorization of the Higher 
Education Act and No Child Left Behind are:
    1. Shift the focus in the preparation of teachers from institutions 
of higher education exclusively to a wide variety of providers of 
recruitment and preparation programs that are targeted to actually 
producing effective teachers in the classrooms where they are needed.
    2. Encourage school districts and state departments to collect and 
disseminate data about their teachers, including their preparation to 
teach and their effectiveness.
    3. Encourage research that could be utilized by the public as well 
as researchers and policymakers that would yield answers to such 
critical questions as, ``What makes for truly effective teachers and 
how do they come by those qualities?''
    4. Funding should be more market-driven and flow to programs that 
are proving their effectiveness in recruiting and preparing competent 
teachers where they are needed.
    5. One of the chief contributions of alternate routes to teaching 
has been infusing the teacher workforce with experienced adults that 
have earned valuable life skill equity. The federal government should 
encourage initiatives that help transition more of these people into 
teaching, particularly in high schools, where there is a need for their 
applied knowledge. With their real world experience base and maturity, 
alternate route teachers can do much to accelerate the development of 
skills high school students need to excel in college and the workforce.
    6. The federal government should create incentives for states and 
school districts to expand alternate routes to solve particular 
shortfalls in highly qualified areas. Alternate routes have been a 
wonderful incubator for innovation in addressing niche teaching 
shortages with highly qualified teachers. A market driven environment 
needs to be encouraged not stifled by attempts to standardize or 
develop regulations constricting experimentation with alternate routes.
    Thank you for this opportunity to speak before you today.
                                 ______
                                 
    Chairman Hinojosa. There will be opportunities for all of 
you to expand on your presentation as we go through the 
question-and-answer part of this hearing.
    My first question is directed to George Scott with the 
Government Accountability Office. Your testimony indicates that 
both the HEA Title II and the NCLB Title II fund partnership 
initiatives. What is known about how well these efforts are 
linked?
    Mr. Scott. Mr. Chairman, the prior work looked at these two 
programs separately. This is one area where we think further 
study is warranted in terms of looking at how well there is 
coordination between the HEA programs and the NCLBA programs. 
We think this is one area where additional study would really 
help provide additional information on how well these programs 
are coordinated.
    Chairman Hinojosa. Have you and your staff found any 
benefits in funding the teacher improvement efforts under the 
two different laws?
    Mr. Scott. I think, as we discuss in our reports, while 
there is certainly benefit to allowing different approaches to 
funding some of these programs, but to the extent that there is 
potential for overlap or duplication, I think it is important 
that we continue to receive good information on the efforts and 
outcomes of these programs so we can continue to monitor them 
and see to what extent there is overlap.
    Chairman Hinojosa. I appreciate that.
    Dr. Robinson, I assume you are familiar with the American 
Board of Certification of Teacher Excellence. My understanding 
is that this is a teacher certification program developed in 
2001 intended to be a fast track to produce certified teachers. 
I also note that the Federal Government invested $51 million in 
that effort. How do the costs per teacher certification compare 
between the teachers your association works with versus the 
cost for those certified by the alternative entity?
    Ms. Robinson. Mr. Chairman, ABCTE, as we call it, is 
essentially a test in primarily model of alternative licensing. 
It is being marketed to the States. It is now being used in 
about five States, but the numbers are still quite low. So, in 
essence, the Federal Government since 2001 has spent $51 
million to license fewer than 200 teachers, so that is quite a 
high cost per individual. If those funds had been devoted to 
scholarships for these individuals who want to come into 
teaching, had those funds been used to support monitoring 
programs, or, more importantly, I think these funds might have 
been used to develop performance assessments in teacher 
education so that we would have additional information on 
candidate quality.
    Right now we have simply yet another test of content when 
there are already other tests of content out there. I would 
suggest that the funds now being used to support yet another 
content test be devoted to developing performance assessment in 
teacher education so that candidates can come to the licensing 
process with some valid information not just of what they know, 
but also of what they can do.
    Chairman Hinojosa. With that statement and the testimony I 
heard, what the current state of teacher training reflects, 
what percentage of any new funds which you recommend go 
directly for the accountability purposes?
    Ms. Robinson. That is an interesting question. I think that 
in Title II of the Higher Education Act, we have got to 
dedicate a percentage of funds to developing the data system if 
the State is already not involved in designing such systems. We 
have enough evidence, given the work of the schools and 
Teachers for a New Era and other efforts, we know these data 
systems can be designed, and we know that the schools of 
education have to have some money to come to the table and 
intrude themselves, if you will, on an already intense effort 
to develop accountability systems at the State level.
    Chairman Hinojosa. I am going to cut you short because the 
time is moving real fast, and I want to ask questions of the 
other presenters. But give thought to my question and give us 
in writing what percentage you think would be best for us to 
consider.
    [Additional information submitted by Ms. Robinson follows:]

      Summary of AACTE's HEA Legislative Language Recommendations

Title II, Section 202, State Grants
    Many states have developed or are in the process of developing 
statewide data systems that can connect K-12 to higher education so 
that teacher retention, teacher effectiveness, and preparation program 
effectiveness can be tracked. These data systems entail considerable 
costs both in dollars and labor, particularly in the development 
stages. Title II of the Higher Education Act is well situated to assist 
in these efforts. AACTE recommends refocusing the state grants on 
helping states develop these data systems. These data systems will 
allow states to better meet their educational needs as they will be 
able to use the data from the system to track teacher movement, analyze 
student learning in relation to teacher quality, measure induction 
program effectiveness, analyze what factors contribute most to 
effective teaching (and revamp preparation programs and certification 
requirements accordingly), and create uniformity in how districts and 
institutions within the state report on retention, accountability, and 
qualifications.
Title II, Section 203, Partnership Grants
    AACTE recommends that the Partnership Grants be refocused on 
strengthening educator preparation programs by providing intensive 
clinical experiences through residency programs in high-need schools; 
preparing all educators to work with diverse learners, including ELL 
and special education students, as well as ensuring that all educators 
can use student data to inform their instruction; addressing critical 
shortage areas such as special education, ELL, mathematics and science; 
and, developing dissemination tools to disburse best practice models in 
effective educator preparation.
Title II, Section 204, Recruitment Grants
    AACTE recommends folding the Teacher Recruitment grant program into 
Section 203.
Title II, Section 207, Accountability for Programs that Prepare 
        Teachers
    AACTE recommends revising the Pass Rate requirements so that pass 
rates are only reported for candidates who have completed 100% of their 
coursework. This will ensure that candidates taking certification exams 
have the benefit of completing all content and pedagogical curricula 
that will contribute to their performance on the exams.
Title II, Centers of Excellence
    AACTE proposes an amendment to Title II called ``Centers of 
Excellence''. This new authority would strengthen educator preparation 
at institutions that serve historically underrepresented students. 
These Centers prepare teachers to use scientifically-based research to 
inform their instructional techniques, prepare teachers to close the 
achievement gap, strengthen mentoring programs for new teachers, and 
provide scholarships to help candidates at grantee institutions 
complete their preparation. This amendment was included in H.R. 609 in 
the last Congress.
Title IV
    AACTE recommends that a new section be added to Title IV for the 
Teaching Fellowships program. This program would provide service 
scholarships to candidates who commit to teaching for a minimum of four 
years in a high-need school or field. The scholarships would cover the 
cost of the candidate's preparation program.

                      AACTE's HEA Recommendations

                          legislative language
Title II, Section 202--State Grants
    We recommend replacing the current use of funds with the language 
below
    (d) USES OF FUNDS--An eligible State that receives a grant under 
this section shall use the funds to develop and establish State-level 
integrated data management systems capable of enabling evidence-based 
accountability, evidence-based decision making, and evidence-based 
management as applied to one or more of the following activities:
    (1) TEACHER PREPARATION--(A) Collecting, synthesizing, and 
analyzing evidence demonstrating the influence of teacher preparation 
programs on teacher classroom performance and on student academic 
growth and achievement. (B) Identifying evidence for the most effective 
patterns of preparation for acquiring necessary academic content 
knowledge and essential pedagogical knowledge and skills in relation to 
various teaching licenses and teaching assignments.
    (2) NOVICE TEACHER INDUCTION AND SUPPORT--Collecting, synthesizing, 
and analyzing evidence demonstrating the influence of novice teacher 
induction, support, and mentoring activities at State, district, and 
school levels on teacher classroom performance and on student academic 
growth and achievement.
    (3) TEACHER PROFESSIONAL DEVELOPMENT--Collecting, synthesizing, and 
analyzing evidence demonstrating the influence of teacher professional 
development activities at State, district, and school levels on teacher 
classroom performance and on student academic growth and achievement.
    States receiving a grant under this section must assure that state 
partnerships are established to engage all relevant providers and 
stakeholders in such a manner that enables evidence of effects to 
become the basis for evidence-based management directed at continuous 
system-level improvement.
    Funding recommendation: Authorizing level of $400,000 per year for 
5 years totaling $2,000,000 per state grants. This would enable funding 
for 15 state grants (assuming $6 million per year for 5 years). 
Recommend funding as many possible per year, with the provision that 
grantees would share learnings.
Title II, Section 203--Partnership Grants
    We recommend incorporating the following language into Section 203
    1. Authorization for partnership grants between institutions of 
higher education and high need school districts to a) strengthen 
educator preparation programs and b) prepare high quality educators for 
high-need communities through a) intensive one year clinical 
residencies as part of teacher preparation in specialized ``teaching 
schools'' or professional development schools and b) model induction 
and mentoring programs.
    Eligible partnerships:
    Required partners:
    a) a school, college or department of education at an institution 
of higher education
    b) a high need school district
    c) the college of Arts and Sciences, or departments within, at an 
Institution of Higher Education (or in cases where institutions of 
higher education are exclusively educator preparation programs, 
assurances that in depth content knowledge is part of the program) 
(NOTE: Some schools such as Bank Street College are do not have 
colleges of arts and sciences)
    optional partners:
    a) a non-profit organization
    b) a state education agency
    Required use of funds:
    a) Support of a teacher education model that includes, in addition 
to teacher education coursework necessary for certification, a one year 
intensive residency experience in a specialized teaching school or 
professional development school staffed by expert mentor teachers.
    These teaching schools must be designed and staffed to offer high-
quality education to students in high-need communities and high-quality 
preparation for teachers. The resident teacher works in the classroom 
of an expert mentor teacher throughout the year, while gradually taking 
on more responsibility for teaching. Coursework must meet state 
licensing standards and include subject matter pedagogy, knowledge of 
student learning and assessment, the teaching of students with 
disabilities and English language learners, classroom management, 
working effectively with parents, and uses of technology.
    Such programs may serve undergraduate or graduate students 
preparing to be teachers in high-need schools
    b) Development of a model mentoring and induction program for new 
teachers that provides regular coaching by an expert teacher in the 
same teaching field for at least the first year of a teacher's career
    c) gather information about the impact of the residency program on 
student learning and teacher retention
    Authorization: $300 million
    2. Authorize challenge grants to improve the capacity of educator 
preparation programs to a) prepare all teachers and principals to work 
with diverse learners including ELL and special education students, b) 
prepare all educators to utilize data and evidence about student 
learning to inform instructional decision making, c) target the 
production of more teachers in key shortage areas including math, 
science, special education and teachers of English Language Learners d) 
ensure a high degree of curricular content knowledge and knowledge of 
how to teach that content to a wide range of learners.
    Authorization: $200 million
    Dissemination, collaboration, coordination and technical assistance 
contract
    3. Proposal to create capacity to develop and disseminate knowledge 
about best practices in educator preparation
    A grant or contract shall be made with education organizations with 
expertise in educator preparation and an established network of 
educator preparation programs for the following purposes:
    a) to ensure sharing of best practices in designing and 
implementing educator preparation programs, including residency models
    b) to provide technical assistance to educator preparation programs 
that need to strengthen their ability to a)prepare teachers to instruct 
diverse learners b) utilize data to make instructional decisions and c) 
ensure a high degree of curricular content knowledge and knowledge of 
how to teach that content to a wide range of learners.
    Authorization: $2 million a year for 7 years
Title II, Section 204--Teacher Recruitment Grants
    We recommend eliminating this section. The partnerships grants 
described above can be used for teacher recruitment efforts.
Title II, Section 207--Accountability for Programs that Prepare 
        Teachers
    We recommend amending subpart (f)(1)(A)--Pass Rate as follows
    `(A) Pass rates and scaled scores----
    `(i) For the most recent year for which the information is 
available, the pass rate and scaled scores for each prospective teacher 
who has completed 100 percent of the coursework required by the teacher 
preparation program on the teacher certification or licensure 
assessments of the State in which the institution or alternative 
certification program is located, but only for those prospective 
teachers who took those assessments within 3 years of completing the 
coursework.
    `(ii) A comparison of the institution's or alternative 
certification program's pass rate and scaled scores for prospective 
teachers who have completed 100 percent of the coursework at the 
teacher preparation program with the average pass rate for institutions 
and alternative certification programs in the State.
    `(iii) In the case of teacher preparation programs with fewer than 
10 graduates who have completed 100 percent of the coursework required 
by the program taking any single initial teacher certification or 
licensure assessment during an academic year, the institution or 
alternative certification program shall collect and publish information 
with respect to an average pass rate on State certification or 
licensure assessments taken over a 3-year period.
    Title II, Centers of Excellence
    We recommend adding a new section in Title II for the Centers of 
Excellence Program
    `(a) PURPOSES--The purposes of this part are----
    `(1) to help recruit and prepare teachers, including minority 
teachers, to meet the national demand for a highly qualified teacher in 
every classroom; and
    `(2) to increase opportunities for Americans of all educational, 
ethnic, class, and geographic backgrounds to become highly qualified 
teachers.
    `(b) PROGRAM AUTHORIZED--From the amounts appropriated to carry out 
this part, the Secretary is authorized to award competitive grants to 
eligible institutions to establish centers of excellence.
    `(c) DEFINITIONS--As used in this part:
    `(1) ELIGIBLE INSTITUTION--The term `eligible institution' means--
--
    `(A) an institution of higher education that has a teacher 
preparation program that meets the requirements of section 301 and that 
is----
    `(i) a institution (as defined in section 322);
    `(ii) a Hispanic-serving institution (as defined in section 502);
    `(iii) a Tribal College or University (as defined in section 316);
    `(iv) an Alaska Native-serving institution (as defined in section 
317(b)); or
    `(v) a Native Hawaiian-serving institution (as defined in section 
317(b));
    `(B) a consortium of institutions; or
    `(C) an institution or a consortium of institutions described in 
subparagraph (A) in partnership with any other institution of higher 
education, but only if the center of excellence established under 
section 205 is located at an institution described in subparagraph (A).
    `(2) HIGHLY QUALIFIED--The term `highly qualified' has the meaning 
given such term in section 9101 of the Elementary and Secondary 
Education Act of 1965 (20 U.S.C. 7801).
    `(3) SCIENTIFICALLY BASED READING RESEARCH--The term 
`scientifically based reading research' has the meaning given such term 
in section 1208 of the Elementary and Secondary Education Act of 1965 
(20 U.S.C. 6368).
    `(4) SCIENTIFICALLY BASED RESEARCH--The term `scientifically based 
research' has the meaning given such term in section 9101 of the 
Elementary and Secondary Education Act of 1965 (20 U.S.C. 7801).
    `(d) USE OF FUNDS--Grants provided by the Secretary under this part 
shall be used to ensure that current and future teachers are highly 
qualified, by carrying out one or more of the following activities:
    `(1) Implementing reforms within teacher preparation programs to 
ensure that such programs are preparing teachers who are highly 
qualified, are able to understand scientifically based research, and 
are able to use advanced technology effectively in the classroom, 
including use for instructional techniques to improve student academic 
achievement, by----
    `(A) retraining faculty; and
    `(B) designing (or redesigning) teacher preparation programs that--
--
    `(i) prepare teachers to close student achievement gaps, are based 
on rigorous academic content, scientifically based research (including 
scientifically based reading research), and challenging State student 
academic content standards; and
    `(ii) promote strong teaching skills.
    `(2) Providing sustained and high-quality pre-service clinical 
experience, including the mentoring of prospective teachers by 
exemplary teachers, substantially increasing interaction between 
faculty at institutions of higher education and new and experienced 
teachers, principals, and other administrators at elementary schools or 
secondary schools, and providing support, including preparation time, 
for such interaction.
    `(3) Developing and implementing initiatives to promote retention 
of highly qualified teachers and principals, including minority 
teachers and principals, including programs that provide----
    `(A) teacher or principal mentoring from exemplary teachers or 
principals; or
    `(B) induction and support for teachers and principals during their 
first 3 years of employment as teachers or principals, respectively.
    `(4) Awarding scholarships based on financial need to help students 
pay the costs of tuition, room, board, and other expenses of completing 
a teacher preparation program.
    `(5) Disseminating information on effective practices for teacher 
preparation and successful teacher certification and licensure 
assessment preparation strategies.
    `(6) Activities authorized under sections 203 and 204.
    `(e) APPLICATION--Any eligible institution desiring a grant under 
this section shall submit an application to the Secretary at such a 
time, in such a manner, and accompanied by such information the 
Secretary may require.
    `(f) MINIMUM GRANT AMOUNT--The minimum amount of each grant under 
this part shall be $500,000.
    `(g) LIMITATION ON ADMINISTRATIVE EXPENSES--An eligible institution 
that receives a grant under this part may not use more than 2 percent 
of the grant funds for purposes of administering the grant.
    `(f) REGULATIONS--The Secretary shall prescribe such regulations as 
may be necessary to carry out this part.
Title IV Amendments
    We recommend adding a new section to Title IV for this program
    4. Proposal to create a program of Teaching Fellowships to provide 
service scholarships that cover tuition and living costs in high-
quality undergraduate or graduate programs, including residency models, 
for those who will teach in a high-need field or location for at least 
4 years.
    Service scholarships would be used proactively to recruit 
candidates to the fields and locations where they are needed, covering 
up to three years of undergraduate or two years of graduate teacher 
education and would be:
    <bullet> Allocated on the basis of academic merit and indicators of 
potential success in teaching, such as perseverance, capacity and 
commitment to teaching in high-need communities;
    <bullet> Targeted especially to areas of teaching shortage as 
defined nationally and by individual states, and
    <bullet> Awarded in exchange for teaching for four years in 
priority schools, defined on the basis of poverty rates and educational 
needs (e.g. language minority status).
    Authorization: $500 million
    To provide 20,000 service scholarships of up to $25,000 each 
annually.
                                 ______
                                 

      Summary of AACTE's NCLB Legislative Language Recommendations

Title IX, Section 9101, Highly Qualified Teacher Definition
    The current definition of HQT emphasizes the importance of a 
teacher having content knowledge and does not explicitly address the 
importance of the teacher's ability to convey that knowledge to K-12 
students. AACTE amends the definition to require all new teachers to 
have at least 450 supervised clinical hours in the P-12 classroom prior 
to certification or licensure. In addition, all new teachers must pass 
a performance assessment prior to certification or licensure. These new 
components would go into effect for the 2010-11 school year. AACTE also 
amends the HQT definition to ensure that only a teacher who has 
completed a state approved higher education or state approved alternate 
route preparation program is described as HQT. A teacher candidate in 
the process of becoming licensed or certified may not be described as 
HQT.
Title II, Section 2113, part (a)
    Institutions of higher education are critical partners in preparing 
educators and providing professional development to teachers. As NCLB 
is currently written, the IHE role in contributing to professional 
development is quite limited. AACTE amends the allocation of NCLB Title 
II funds so that IHE's are eligible to receive 5% of the state's Title 
II funds to partner with LEA's.
Title II, Subpart 3, Section 2134, Use of Funds
    NCLB reserves need to be targeted to the specific education needs 
of communities. AACTE recommends refocusing the Use of Funds solely on 
activities that will (1) address the teacher shortage areas such as in 
the STEM subject fields, ESL, and special education (2) address the 
teacher turnover and shortages in urban and rural areas (3) ensure that 
all teachers can serve diverse populations and, (4) provide substantial 
clinical experiences for teacher candidates.
Title II, Subpart 3, Subgrants to Eligible Partnerships, Preparing 
        Teachers to Utilize Student Data
    Part of being an effective teacher is the ability to analyze 
student achievement data and other measures of student performance to 
gauge where the students are in their learning and to improve 
instruction based on that information. AACTE recommends adding a new 
authorization that would support pre-service and in-service teachers in 
developing the skills to analyze student data and to improve their 
classroom instruction based on the data analysis.
Title II, Part C, Innovation for Teacher Quality, Regional Reciprocity 
        Consortium
    AACTE recommends a new program be added to Title VI that would 
encourage states to develop regional reciprocity agreements to 
facilitate teacher mobility and to allow states to more easily fill 
hard-to-staff subjects and schools. Teachers participating in this 
program would be highly effective teachers.
Title II, Subpart 1, Portable Performance-Based Teacher Assessment and 
        10 State Pilot Studies
    Based on a proposal in the 109th Congress's TEACH Act (S. 1218, 
H.R. 2835), AACTE recommends that NCLB encourage the use of teacher 
performance assessments and add a new program that would authorize the 
development of valid and reliable model performance assessments and the 
piloting of these assessments in 10 states. The passage of performance 
assessments by teacher candidates will ensure their readiness to enter 
the classroom.
Title II, Section 2113, Use of State Funds, Subpart (c), State 
        Activities
    AACTE recommends adding to the use of funds initiatives addressing 
teacher workforce diversity, recruitment of teachers in the STEM fields 
and other shortage fields, and encouraging partnerships between P-12 
schools and institutions of higher education.
Title II, Establishing Teacher Induction Programs
    Critical to teacher success is the support he or she receives in 
the first years of teaching. Title II of NCLB should include an 
emphasis on induction. AACTE has modified slightly the induction 
program outlined in the 109th Congress's TEACH Act (S. 1218, H.R. 2835) 
so that partnerships of IHE's and LEA's would develop strong induction 
programs that provide mentoring and professional development for new 
teachers.
Title II, Section 2123 and Section 2201, IHE's as Partners
    AACTE amends both sections to ensure that IHE's are required 
partners in the activities listed in each section.
P-16 Councils
    AACTE supports the creation of P-16 councils to identify and 
redress alignment gaps in the education pipeline. AACTE believes that 
faculty from the division of education in IHE's should be required 
members of these councils.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

                  What Can the Federal Government Do?

                      A Marshall Plan for Teaching

         Linda Darling Hammond, Professor, Stanford University

    A strategic federal role is needed to create an infrastructure for 
strong teaching across the country. Individual innovative programs at 
the local level will not alone solve the problems we face. Federal 
strategies for enhancing the supply of teachers have precedents in the 
field of medicine as well as teaching. Since 1944, Washington has 
subsidized medical training to meet the needs of underserved 
populations, to fill shortages in particular fields, and to build 
teaching hospitals and training programs in high-need areas. This 
consistent commitment has contributed significantly to America's world-
renowned system of medical training and care.
    Intelligent, targeted subsidies for preparation coupled with 
stronger supports at entry and incentives for staying in high-need 
schools are needed to ensure that all students have access to teachers 
who are indeed highly qualified. A serious national teacher quality and 
supply policy could be accomplished for $3 billion annually, less than 
1% of the more than $300 billion spent thus far in Iraq, and, in a 
matter of only a few years, could build a strong teaching force that 
would last decades.
    In the long run, these proposals would save far more than they 
would cost. The savings would include the more than $2 billion dollars 
now wasted annually because of high teacher turnover, plus the even 
higher costs of grade retention, summer school, remedial programs, lost 
wages and prison costs for dropouts[i] (increasingly tied to illiteracy 
and school failure)--all of which could be substantially lowered if we 
committed to ensuring strong teachers in the schools that most need 
them. Such a plan should focus on:
    <bullet> Increasing the supply and quality of teachers targeted to 
high-need fields and locations through
    1) Service scholarships for entering teachers, with special focus 
on high-need fields and locations (40,000 @ $25,000 each = $1 billion 
annually)
    2) Recruitment incentives for expert, experienced teachers to teach 
in high-need schools (50,000 teachers x $10,000 stipends ($500 million) 
+ $300 million to improve teaching conditions in high-need schools = 
$800 million)
    3) Improved preparation for teaching high-need students and for 
programs in high-need areas ($500 million, including $200 million for 
state-of-the-art ``teaching schools'' partnered with universities in 
hard-to-staff communities)
    <bullet> Improving retention and mobility of well-qualified 
teachers through
    4) Mentoring for all beginning teachers through investments in 
state and district mentoring programs (150,000 @ $4000 each = $600 
million)
    5) A high-quality, nationally available teacher performance 
assessment to guide training, improve quality, and facilitate 
interstate mobility ($100 million)
Increasing Teacher Supply and Quality in High-Need Fields and Locations
    While most states have long had surpluses of candidates in 
elementary education, English, and social studies, there are inadequate 
numbers of teachers trained in high-need areas like mathematics, 
physical science, special education, bilingual education and English as 
a Second Language (ESL), and there are problems getting well-prepared 
teachers to where they are most needed. Shortages in poor urban and 
rural schools are usually met by lowering standards--an especially 
dysfunctional response because the students in these schools need the 
most highly skilled teachers if they are to close the gap, and because 
high turnover rates for untrained teachers cost urban districts 
hundreds of millions of dollars in attrition costs. Because fully 
prepared beginning teachers are twice as likely to stay in teaching as 
those who enter without complete training, district shortages could be 
reduced rapidly if such districts could hire better prepared teachers 
(as fewer would need to be hired each year to replace those who left 
and a more adequate supply would be available). Two kinds of targeted 
incentives are needed to attract qualified teachers to schools and 
areas that historically have been underserved.
    1) First, the federal government should maintain a substantial, 
sustained program of service scholarships that completely cover 
training costs in high-quality pre-service or alternative programs at 
the undergraduate or graduate level for those who will teach in a high-
need field or location for at least 4 years. (After three years, 
candidates are much more likely to remain in the profession and to make 
a difference for student achievement.) While some federal grants are 
currently available, there are too few of them and they are too small 
in scope to serve as an adequate incentive to candidates.
    Service scholarships (as opposed to post hoc forgivable loans) can 
be targeted to high-ability candidates who might not otherwise enter 
teacher preparation. These incentives can be used proactively to 
recruit candidates to the fields and locations where they are needed. 
Nearly all of the vacancies currently filled with emergency teachers 
could be filled with talented, well-prepared teachers if 40,000 service 
scholarships of up to $25,000 each were offered annually. These should 
be designed to cover up to two years of undergraduate or graduate 
teacher education, including alternative programs for mid-career 
recruits, and should be:
    <bullet> Allocated on the basis of academic merit and indicators of 
potential success in teaching, such as perseverance, capacity and 
commitment;
    <bullet> Targeted especially to areas of teaching shortage as 
defined nationally and by individual states, and
    <bullet> Awarded in exchange for teaching for four years in 
priority schools, defined on the basis of poverty rates and educational 
needs (e.g. language minority status).
    (2) Second, recruitment incentives for high-need schools are also 
needed to attract and keep expert, experienced teachers in the schools 
where they are most needed, both to teach and to mentor other teachers. 
This requires a combination of salary incentives and improvements in 
working conditions, including the redesign of dysfunctional school 
organizations to support smaller pupil loads, and time for teachers to 
work and plan together.
    Federal matching grants to states and districts should provide 
incentives for the design of innovative approaches to attract and keep 
accomplished teachers in priority low-income schools, through 
compensation for accomplishment and for additional responsibilities, 
such as mentoring and coaching. $500 million would provide $10,000 in 
additional compensation for 50,000 teachers annually to be allocated to 
expert teachers in high-need schools through state- or locally-designed 
incentive systems, recognizing teacher expertise through such 
mechanisms as National Board Certification, state or local standards-
based evaluations, and carefully assembled evidence of contributions to 
student learning. (Matched by state and local contributions, this 
program would provide incentives to attract 100,000 accomplished 
teachers to high-poverty schools.)
    To keep high-quality teachers in high-poverty communities, schools 
need to offer working conditions that support teacher and student 
success. An additional $300 million should be allocated on a state / 
district matching grant basis to improve teaching conditions, 
including, as warranted, smaller classes and pupil loads, 
administrative supports for necessary materials and supplies, and time 
for teacher planning and professional development--all of which attract 
and keep teachers in schools.
    3) Third, just as the federal government has undertaken in 
medicine, the Marshall plan should fund improved preparation for 
teaching high-need students and for programs in high-need areas. For 
this purpose, the plan would allocate $300 million to improve 
preparation for teaching reading and literacy skills at all grade 
levels, mathematics and science, special education, and English 
language learners.
    An additional $200 million of these funds should be targeted for 
state-of-the-art teacher education programs in hard-to-staff 
communities that incorporate ``teaching schools'' partnered with 
universities, including urban teaching residencies and professional 
development school models. In these programs, candidates would take 
coursework focused on teaching challenging content to diverse learners 
while engaged in practice teaching in schools staffed by expert 
teachers and designed to model state-of-the-art practice. Since many 
teachers have a strong preference to teach close to where they grew up 
or went to school, this approach would also enhance the pool of local 
college graduates prepared to teach in their communities. Funding for 
200 programs at $1,000,000 per year per program (for 5 years), each 
serving an average of 150 candidates annually, would supply 30,000 
exceptionally well-prepared recruits to urban teaching each year who 
would provide long-term commitment and leadership in these districts.
Improving Teacher Retention and Mobility
    Most of the teacher supply problem in the United States is actually 
a problem of retention. Attrition is highest in the early years of 
teaching: About one-third of new teachers leave within 5 years, and the 
rates are much higher for teachers who enter with less preparation and 
those who do not receive mentoring. Current estimates average about 
$15,000 per teacher who leaves, totaling at least $2 billion each year. 
Because beginning teachers are generally less effective than those with 
3 or more years of experience, continual high turnover of beginning 
teachers also significantly reduces educational productivity. Stemming 
this attrition is critical, as recruitment efforts are otherwise like 
pouring water into a leaky bucket, rather than repairing it.
    4) Providing mentoring for all beginning teachers would reduce 
attrition and increase competence. A matching grant program could 
ensure support for every new teacher in the nation through investments 
in state and district mentoring programs. Based on the funding model 
used in California's Beginning Teacher Support and Assessment Program, 
a federal allocation of $4000 for each beginning teacher, matched by 
states or local districts, would fund a mentor for every 10-15 
beginning teachers. At 125,000 new teachers each year,[ii] an 
investment of $500 million could ensure that each novice is coached by 
a trained, accomplished mentor with expertise in the relevant teaching 
field.
    5) Finally, this preparation and mentoring can be strengthened if 
they are guided by a high-quality, nationally-available teacher 
performance assessment, which measures actual teaching skill in the 
content areas, and which can facilitate interstate mobility. Current 
examinations used for licensing and for federal accountability 
typically measure basic skills and subject matter knowledge in paper-
and-pencil tests that demonstrate little about teachers' abilities to 
practice effectively. Furthermore, in many cases these tests evaluate 
teacher knowledge before they enter or complete teacher education, and 
hence are an inadequate tool for teacher education accountability.
    The Interstate New Teacher Assessment and Support Consortium 
(INTASC), sponsored by the Council of Chief State School Officers, 
created teacher licensing standards adopted by most states and piloted 
performance assessments tied to the standards; several states, 
including Connecticut and California, have incorporated such 
performance assessments in the licensing process. These assessments 
have been found to be strong levers for improving preparation and 
mentoring, as well as determining teachers' competence. Federal support 
of $100 million for the development of a nationally available, 
performance assessment for licensing would not only provide a useful 
tool for accountability and improvement, but it would also facilitate 
teacher mobility across states, if it were part of an effort to unify 
the current medieval system of teacher testing that has resulted in 50 
separate ``fiefdoms'' across the country. Because teacher supply and 
demand vary regionally, teachers need to get easily from states with 
surpluses to those with shortages, which requires license reciprocity.
    With a purposeful focus, a Marshall Plan for Teaching could help 
ensure within only a few years that the U.S. has developed an 
infrastructure comparable to those in other countries for providing 
highly-qualified teachers to all children in all communities.
                                 ______
                                 
    Chairman Hinojosa. Dr. Wiley, you mentioned--by the way, I 
know that your teachers have a real challenge with students as 
you described in that Region One service area that you work.
    You mentioned that many teachers graduated prior to No 
Child Left Behind, before State content standards and new 
technology played crucial roles in current education efforts. 
So how do you work with experienced teachers in this regard, 
and do you think Federal resources should also target 
experienced teachers with 10 years or more?
    Ms. Wiley. Definitely I believe that it should target 
teachers, all teachers, because no matter what level, we all 
still have a lot to learn. And I believe that in our 
experienced teachers, many of them have served their students 
well, but as we have new expectations, and as States have 
developed the State standards, many of their courses are not 
aligned to those standards. And so we have done a lot of work 
in the Region One area to help teachers look at the curriculum 
that they are teaching to ensure that it helps the students 
meet the State standards, because many of the textbooks that 
teachers rely on only account for maybe 30 or 40 percent of the 
State standards and are not really aligned. They are aligned to 
a generic curriculum rather than the specific State 
expectations.
    So when we work with our teachers, particularly in the math 
and science, and now the expectation is that all students will 
be taking higher-level courses, and being proficient, for 
example, at the high school level, when many of our experienced 
teachers began teaching algebra I, only top students took that 
course. Now all students are required to take algebra I, 
geometry and algebra II, and in Texas we have added a fourth 
year of math and science.
    So to help teachers tailor--because one thing that teachers 
do express is they do not have enough time to teach all of the 
expectations, so we really have to target explicit knowledge 
that we want our students to have.
    Chairman Hinojosa. Thank you, Dr. Wiley.
    I would like to yield time to my good friend Congressman 
Castle.
    Mr. Castle. Thank you, Mr. Chairman, and thank all of you 
for your presentations, and I think I will start with you, Dr. 
Feistritzer.
    You actually answered a lot of questions that I had, but 
one question I have is in this alternative routes to teaching, 
because it is more than one--I mean, I know some of them, and 
there are probably a lot others--but Teach for America for 
veterans coming in, and then different programs for people with 
experiences, and different levels of science or training and 
then coming into teaching. Is there any distinction amongst 
them in terms of the quality of the teachers we are getting? Is 
anyone looking at that; is you or anyone looking at it, as far 
as you know?
    Ms. Feistritzer. Well, that is a very good question, 
because one of the recommendations that we make is that the 
Congress support some real resources to study more thoroughly 
what it is that makes for truly effective teachers.
    So there is a lot of evidence in the alternative routes. 
And I would like to clarify a bit about Teach for America and 
the Troops to Teachers programs. Both of those programs are 
federally funded, not exclusively in Teach for America's case, 
but exclusively for Troops to Teachers. Those programs really 
are recruitment efforts to bring specific populations of people 
into teaching. They are not really alternate routes to teacher 
certification programs because they are not certification 
programs.
    So when we talk about alternative routes to teacher 
certification, we are really talking about those State-created 
avenues whereby a person can get--a person who already has at 
least a baccalaureate degree can get into teaching in an 
expeditious manner besides just showing up in a classroom and 
fulfilling all of the requirements that they generally would 
need to take.
    And there are variations on the theme of alternative routes 
around the country. There are some programs that have very 
rigorous criteria for entry, that have very rigorous criteria 
for getting out of the program, and there are some programs 
that do possibly allow some warm bodies into the school system 
who might not--whose skills might not be well served to have.
    The balance of alternate routes, though, has emerged to be 
very selective about who they let into programs, and programs 
that don't do well--because, as I said in my formal remarks, 
the programs don't exist unless there is a need for teachers. 
These are very official----
    Mr. Castle. Are the programs sufficiently rigorous enough, 
or are we dealing with something that is less than going 
through a teacher certification program?
    Ms. Feistritzer. I think--and I have been tracking this 
issue since the early 1980s, and I know alternate routes, we 
have really gathered data on every alternate route program in 
the country, and I don't know of any alternate routes in this 
country that do not have rigorous entry requirements. You have 
to pass a test to get into one in practically every program in 
the country. You have to demonstrate knowledge of the subject 
matter that you are going to be teaching. They have interview 
processes whereby people have to really illustrate to 
interviewees that they have the competence and the desire and 
the basic qualifications to teach. There are interview programs 
set up now that can actually ascertain the likelihood that 
someone would be a good teacher, and the programs weed people 
out early. So by the time you finish an alternate route program 
in this country today, you have got a pretty good teacher.
    Mr. Castle. Let me go to Dr. Fallon. I know you to be 
extremely knowledgeable in this area, and I am just curious as 
to whether anyone is judging whether these alternative ways or 
the alternative routes to certification which we have just 
heard about, or alternative methodologies of teaching, Teach 
for America, the Troops to Teachers, are these programs really 
working? Are we getting people into the education profession? I 
don't think Teach for America has an intention of having people 
stay in it forever. Or are they rigorous enough, or are there 
problems with it? What is your view of those kind of programs?
    Mr. Fallon. I think on the whole you can be comfortable 
that most of the programs that you mentioned and the ones that 
are well known are rigorous enough and of reasonable high 
quality. We support it with a grant, a major study of 
alternative certification that was done by SLI International, 
which I think came to the very sensible conclusion that--
talking about how teachers get into classrooms as if there were 
something called alternative certification relative to 
something else is not a very sensible way of talking about 
that; that really what you ought to be talking about are 
pathways into teaching. People get into teaching in a variety 
of different ways, and as Emily pointed out, often you have 
recruitment programs such as Teach for America and others whose 
purpose it is ultimately to help those candidates get 
certificates.
    The knowledge base, I think, as you know better than anyone 
else because you spent a career looking at these questions, is 
very thin because educational research is not very well 
developed or very well supported, but we have provided through 
our foundation support for a variety of research efforts aimed 
at exactly this question.
    So we are, for example, providing support for a major study 
in New York City that looks at pupil learning gains of new 
teachers as a result of the pathway that took them into the 
classroom. The reason we are in New York City is because it is 
the largest school system in the United States. It educates 
more than 1.2 million students. There are more students in the 
New York City public schools than there are in 38 of the 50 
States, and as a result they hire something like 6,000 new 
teachers every year. And so if you look at a little matrix of 
where these teachers come from and find the little box called 
Teach for America, it has got 400 teachers in it. So you can 
get reasonable estimates of teacher quality.
    And what those findings show is that for novice teachers in 
their very first year of teaching, teachers who come out of 
college-recommended teacher-education programs, traditional 
teacher-education programs produce significantly greater value-
added pupil learning growth than either Teach for America 
candidates or the New York City Teaching Fellows.
    Those differences disappear after 3 years, so that after 3 
years you find that they are all producing pupil learning 
growth, but it is also the case that after 3 years the Teach 
for America candidates and the New York City Teaching Fellows 
have gone through a certification program.
    This study also does not control for differential attrition 
among the different groups, so there are some things that we 
don't quite know about it, but it does point in the direction 
of suggesting that clinical practice, that is student teaching, 
engaging in the classroom, is extremely important, because we 
know that is one of the major differences between, for example, 
Teach for America or similar kinds of programs and college-
recommended teachers programs.
    Chairman Hinojosa. Thank you, Dr. Fallon.
    I would like to recognize the gentleman from the State of 
New York, Congressman Tim Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Thank you very much 
for holding this hearing. And to the panel, thank you all. I 
have found your testimony to be very helpful.
    Dr. Fallon, let me start with you. I found your suggestion 
that teacher education programs include a postbaccalaureate 2-
year mentoring and supervisory component to be an intriguing 
idea, and I think a very good one. As a practical matter I can 
understand how it would work for gradates who are placed in 
reasonable proximity to their alma mater, but how do you see it 
working more broadly? Do you see a consortium of colleges of 
teacher education that would supervise people in a cooperative 
way in their regions, or do you see some network of supervising 
teachers? Just talk to us a little bit about that.
    Mr. Fallon. We are experimenting with this in these 11 
different institutions. In your packet each of you has a little 
laminated card that has on one side of it the listing of all of 
the institutions in Teachers for a New Era, and on the other 
side the design principles. In these 11 institutions we are 
experimenting with these notions.
    The answer to your question is that every one of them have 
teachers who are in a local area and also teachers who go far 
away, and what they have been doing is experimenting with 
virtual mentoring sessions in which, for example, a teacher who 
is having a particular difficulty can go onto a secure Website 
and ask a question of somebody from the teacher education 
program, saying, I had a meltdown in the classroom this 
morning.
    And I can't quite figure out what happened and these are 
what the circumstances were, and that teacher educator back at 
the university can provide in confidence to that teacher, in a 
way that doesn't in fact involve any employee of the school 
district, information about how to resolve that particular 
problem.
    Mr. Bishop. Quickly, if this idea were to be expanded, it 
would seem to me that some schools of education are well funded 
and would be able to accommodate the additional cost associated 
with providing the service. Others would not. Do you see this 
as a targeted place for Federal support to help less well-
endowed schools of education?
    Mr. Fallon. I personally think it is one of the strongest 
investments you can possibly make for a whole variety of 
reasons.
    Mr. Bishop. If I may, I am going to run out of time but I 
want to go on to Dr. Robinson. But thank you, Dr. Fallon.
    You talked about State certification to include a 
performance assessment, again, I think an excellent idea. How 
do you see that playing out? Do you see the assessment being 
undertaken by the supervising teacher for the student teacher 
placement or do you see it going forward in some other way?
    Ms. Robinson. I see this assessment process beginning in 
the program. So the design of the performance assessment would 
be done in consultation perhaps with the leadership of the 
State to make certain that the requirements of licensure that 
the State would want would be fully reflected in the data 
collected by the performance assessment.
    But it could begin in the program where the student becomes 
very accustomed to reflecting on practice, to reflecting on the 
impact that they make on students' learning, and in making 
changes in what they do. So the point is you want to be aware 
of what you are doing and be able to change based on that.
    Mr. Bishop. But do you see it--right now in many States 
certification is awarded upon graduation from a school of 
education. Do you see that as one of the minimum expectations 
for graduation to reach a certain level of competency in order 
to get the bachelor's degree?
    Ms. Robinson. Well, the degree can be one thing but I think 
licensure should be conferred based on completing a clinical 
experience in which you are assessed, and not just what you 
know but what you are able to do can be documented. So the 
conferring the degree could be a decision quite apart from 
getting the license.
    Mr. Bishop. One last question and the issue of the Title II 
moneys in No Child Left Behind, I believe it is only 28 percent 
go to actual teacher improvement efforts and I think it is 
close to 50 percent go to reduction of class sizes. It seems to 
me that is a two-edged sword because certainly reasonable class 
size is a component of an attractive teaching environment and 
one of the ways that Dr. Hammond suggests that we incentivize 
people to go to high need districts.
    Would you make a suggestion for us as we reauthorize No 
Child Left Behind in terms of proscribing a distribution of 
those funds, or should we leave it the way it is now?
    Ms. Robinson. Well, I would ask this question. What is the 
investment quality? Perhaps there should be money that goes to 
relieving an immediate need, and maybe class size represents 
that immediate need.
    But then the other funds must be given to creating a 
situation where this need gets ameliorated over time or you can 
stay in remediation forever. So I am concerned about how we are 
evaluating the impact of it.
    Mr. Bishop. Again let me sharpen the point a little bit. Do 
you see it as an issue in which the Federal Government would 
proscribe or do you see it as an issue that either the State or 
the local school system would make that judgment?
    Ms. Robinson. I think the Federal Government can require 
reporting of results, documenting what happened based on the 
use of the money, so that you can say to the State while you 
used the money on class size but student achievement didn't 
really change, therefore, your class size reduction strategy 
wasn't productive, don't do that any more.
    Mr. Bishop. Thank you very much. Mr. Chairman, thank you.
    Chairman Hinojosa. Thank you. I now wish to recognize the 
Congressman from Massachusetts, Congressman Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Thank you for having 
this hearing, for your leadership on these issues. Dr. Fallon, 
my query on this, I think the recommendations that you make are 
good. And we talked about this at length before. Don't our 
higher education institutions that are involved in preparing 
teachers for the classroom already have the ability to 
restructure their current systems to do the things that you are 
talking about?
    Mr. Fallon. They do have the ability to do that. I think in 
many instances what you are looking for is investment capital 
to allow the institution to completely redo the structures 
internally that are necessary to get where they want to go. I 
don't think you need indefinite funding to do this. I think you 
need upfront funding. And I think part of the answer to the 
question to Mr. Bishop about the academy-based induction, what 
we have discovered is that the advantages of this are so 
profound that the school districts pick up the costs because it 
is in their best interests to do so. To get there initially is 
not something----
    Mr. Tierney. It is also what you expect higher education 
institutions to do to prepare teachers. They are charging fair 
amounts of money for tuition, and this is their job.
    Ms. Robinson, how do we get some of these institutions, and 
I know Mr. Fallon has listed here, some of these colleges are 
very wealthy colleges with sizeable endowments, Stamford, 
Boston College, whatever. How do we get them to participate in 
this program so that billions of dollars that are tied up 
earning interest and otherwise inactive are invested into these 
kinds of things? Again from my previous comments, it bothers me 
to sit there and look at Harvard, $39 billion more or less in 
an endowment fund, Stamford, $3 billion fundraising venture 
going on and things of that nature, while we are all struggling 
trying to get resources on the public side down here. How do we 
get them to loosen up to maybe put the money into 
infrastructure changes and sometimes maybe not just for just 
their own institutions but for a consortium of institutions 
that service an area?
    Ms. Robinson. I wish I knew the answer to that.
    Mr. Tierney. I do, too.
    Ms. Robinson. I do think that we are relying on these 
institutions to provide leadership by demonstrating what is 
possible, so that we can hold up these examples as the model to 
be followed by others.
    And then we are also undertaking important conversations 
within the higher education community so that institutions 
understand that investing in teacher education in order to 
support the more expensive clinical component will pay off 
handsomely for the university, for the community and for their 
students. So, we are hoping to cajole and provide leadership 
that drives people in the direction of the advanced model, if 
you will, the more modern way of getting this done.
    Mr. Tierney. Do you agree with Dr. Fallon that the 
inhibition right now seems to be the lack of capital funding to 
make the transition structurally and that there need not be a 
programmatic funding that goes on and on and that most of these 
schools are entirely capable of doing this kind of work but 
seem to have some sort of difficulty changing over, or do you 
think it is just stubbornness, they just want to stay the same 
way?
    Ms. Robinson. Well, I don't think we see people rushing in 
the direct of rigorous clinical training because it is more 
expensive to do and many colleges of education are operating 
under a level budget if not a reduced budget. However, at the 
same time I point out that over 1,000 teacher professional 
development schools, which represent a much more rigorous 
partnership and enriched clinical training model, have been 
developed in the last 10 years.
    Now we are talking about extending the reach of the school 
of education into at least, I would say, the first 3 years of 
practice, and schools of education are already starting to try 
to do this on their own, but it is going to be spotty unless 
there is some Federal investment that allows this to happen in 
a more uniform way.
    Mr. Tierney. I am sort of bothered by especially the 
private institutions that charge so much and have such large 
endowments, why they would even think of coming with their hand 
out when this is their obligation, but to the other public 
institutions and others that aren't as well endowed I 
understand there is a need for that.
    I yield back, Mr. Chairman. Too many questions, too little 
time.
    Chairman Hinojosa. Thank you. I want to acknowledge that we 
have been joined by the gentlewoman, Congresswoman from North 
Carolina, Virginia Foxx, and know that if you want to ask any 
questions or have a dialogue that I would recognize you.
    Ms. Foxx. Thank you, Mr. Chairman. I am sorry that I was 
dealing with a situation where we have had a death in our 
district overseas, and I apologize but I was called out to do 
that.
    I would make one quick comment, and I apologize that I 
wasn't able to hear all of the information. But I come from a 
background of education. I was 12 years on a school board, 15 
years as an administrator and teacher at a university where I 
dealt with academic advising and orientation for new students 
and as a community college president and have worked with this 
issue of teacher recruitment and teacher retention over the 
years in North Carolina.
    And I would say that I have often said that if we pay the 
teachers well and we give them the support that they need in 
the classroom, that we would be able to retain a lot more of 
our teachers and we would be able to recruit more people into 
the classroom. I was one of a few Republicans who early on in 
the North Carolina legislature supported a great increase in 
pay for teachers.
    I think too often the schools, the universities are hide 
bound and don't make the adjustments they need to make quickly 
enough. I worked there for 15 years. I know.
    I was attracted to the community colleges because community 
colleges generally will adapt quicker than universities do. I 
frankly would like to see more emphasis on helping community 
colleges provide as much of the educational preparation as we 
can for people.
    I think we can--it is like nursing. In North Carolina if it 
weren't for the community colleges, we would have practically 
no nurses because they are educating about 95 percent of the 
nurses that are serving.
    And I think that we would be well served if we would look 
to the community colleges more, and I recommend that as a 
strategy. So just from my observation from those three 
perspectives, again I have been in all three of the areas, I 
think that would be something that would be well worth doing. 
So thank the panel and thank the chairman for recognizing me.
    Chairman Hinojosa. Thank you, Congresswoman Foxx. I would 
like to at this time recognize the Congresswoman from 
California, Congresswoman Susan Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. Thank 
you, all of you, for being here, good to see you. I wanted to 
go back to the two areas that I think we have been focusing on 
a great deal. One is the need for reflective teaching on the 
part of teachers, but also getting the teachers who demonstrate 
those skills into the classrooms where they are needed the 
most, highest need. And I am wondering how do you see instances 
where the universities who have participated in some of the 
high quality programs have some incentives that they place 
there for teachers to actually go into those high needs 
schools?
    Is there a role that the universities can play and is it--
are we needing to help incentivize them to do that also? How 
can we make that work?
    Ms. Robinson. It is interesting to note that as we have 
tried to catalog some of the uses of Title II higher education 
partnership funds, we find a number of partnerships focused at 
recruitment for hard-to-staff schools in urban and rural 
communities, and also there are a number of partnership 
programs that involve working with the community colleges. So I 
think that we have some examples here that are very, very 
informative. Additionally, there is----
    Mrs. Davis of California. Could you share--are there 
specific strategies, whether it is loan forgiveness, whether 
you have to stay there for at least 3 to 5 years? What 
specifically could we look at?
    Ms. Robinson. First of all, you are looking at specific 
recruitment which really does help letting these able students 
know that there are opportunities here that you may find very, 
very challenging. Then you are looking at loan forgivenesses, 
bonuses, you are looking at signing bonuses, unheard of means 
of using cash, if you will, in education, but you are also 
looking at offering these candidates a unique community. They 
are marketing themselves by saying you will join a team doing 
important work.
    And I will be happy to provide an example that we actually 
catalogued in a publication that we did to illustrate the 
payoff for the Federal investment in higher education across a 
number of topics, and recruitment is one of them.
    Additionally, we are finding that recognizing really star 
students and helping them position themselves early in the 
labor market is paying off. We are working in collaboration 
with Virginia, Delaware, D.C. And Maryland, to using a Web 
based tool to allow these candidates to put their names forward 
to recruiting school districts in hard-to-staff schools and say 
to these candidates, have we got a deal for you, to these 
students with very high TPAs and very good strong 
recommendations.
    Mrs. Davis of California. I appreciate that. And I don't 
think, Dr. Fallon--in your work have you been able to track 
teachers from perhaps going from one school to the other and 
are the performance levels the same, and if I could quickly 
also with the question because the time is going to run out, if 
you can address national board certification. Some of the 
issues you have all been talking about would reflect that. Are 
there practices embedded within schools of higher education and 
teaching schools where you found that that is effective or are 
there some problems with reaching the larger number of teachers 
that we obviously want to attract that go for that 
certification?
    Mr. Fallon. Let me just deal with several of the questions 
that you have asked in order. The first has to do with the 
question of the distribution of teachers in trying to find 
circumstances that will encourage teachers to go into high 
needs schools. We have been greatly impressed by the fact that 
providing for an academy-based induction program that in fact 
is focused on high needs schools produces teachers who really 
want to go into those schools.
    One of the more dramatic examples, one of our institutions 
is Michigan State University, and they developed a program with 
inner city Detroit and they traditionally had not been 
providing teachers for inner city Detroit, and the teachers who 
have been involved in that program who have done their student 
teaching there and are engaged in the induction programs there 
are in fact excited about doing it. It has been one of the big 
growth areas at Michigan State.
    Another quite interesting example to your point about is 
there anything in the institutions, the universities can do, 
Stanford wanted to find places where good teaching was being 
the model in particularly high needs schools, and what they did 
was to take advantage of the charter school legislation in 
California to create charter schools in high need areas where 
in fact the need for the teachers was great and good teaching 
did not exist. By doing that they created a pipeline for their 
own teachers, and these teachers are doing spectacular teaching 
in these situations. One of them at Summit Prep in Redwood, 
California, for example, is now listed as one of the top 
performing schools in California. So there are examples where 
this kind of strategy has worked.
    On the question that you asked about do we know what it is 
about the performance----
    Chairman Hinojosa. Dr. Fallon, I am sorry to interrupt you. 
The bells are beginning to ring. We have a series of eight 
votes coming up, and I would like to give an opportunity to 
other members of the committee to ask some questions before we 
take that break to go vote. I am very pleased that Congressman 
Scott from Virginia was able to return to the hearing, and I 
would like to recognize him for a few minutes.
    Mr. Scott. Thank you, Mr. Chairman. I wanted to follow up 
the last question and ask if there was a discipline in academia 
for urban education. You have elementary and secondary, but is 
there a discipline for urban education because there are 
certain skills that are needed there that you may not find 
elsewhere?
    Mr. Fallon. Several teacher education units specialize in 
urban education and especially those who see that they have a 
particular mission. Boston College with its Jesuit tradition 
for social justice, for example, located in Boston, is heavily 
focused on inner city Boston. University College in Milwaukee. 
Those are institutions, for example, where you have a natural 
connection with the local school district.
    But let me take a case from Virginia, at the University of 
Virginia in Charlottesville, you don't think of the City of 
Charlottesville necessarily as a high needs urban district but 
it shows all the characteristics demographically of such a 
district, and of course a significant number of University of 
Virginia graduates go outside of Albemarle County or the City 
of Charlottesville. But increasingly because of the nature of 
that program and the particular emphasis within it on urban 
education and urban education issues, increasingly a number of 
these graduates from the University of Virginia are going to 
inner city Richmond, to inner city Norfolk and to similar types 
of place of where needs are very high, and in those instances 
we have found that the induction programs and other kinds of 
support programs we provide for the teachers make it possible 
for the teachers to stay and to do good work in those schools.
    Mr. Scott. Let me just ask one other question, and I will 
defer to my colleagues. If a teacher is not being successful in 
teaching minority students and you see an achievement gap, a 
consistent achievement gap in the students, is there in-service 
professional development that can help cure that?
    Ms. Robinson. Mr. Scott, there are many interventions that 
could cure it, and the most important is to recognize with any 
teacher that they are not producing learning gains with the 
students, so that the building administrator, working with--
hopefully working in partnership with the university, can give 
a teacher the opportunity to design a professional development 
intervention.
    But the important thing is to help teachers reflect on the 
impact they are having on students' learning and recognize 
where they are not having the desired result and give them 
opportunities to change.
    Mr. Scott. Do those interventions work? Can you make a 
change?
    Ms. Robinson. Sure, yes, you can make a change. Teaching is 
clinical work. It is work that where you bring what you know 
and are able to do to the benefit of the student. And what we 
need is more teachers who have more capacity to reflect on the 
impact of their work through data and through consultation with 
other colleagues and other practitioners.
    We are seeing a lot of improvements in the learning of low-
income students, students of English, who are not English 
speakers in the home and special education.
    Mr. Scott. Out of respect to my colleagues I want to defer, 
but I want to follow up on that if we could. Thank you, Mr. 
Chairman. I yield back.
    Chairman Hinojosa. Thank you. I want to recognize the 
gentleman, Congressman John Yarmuth, from the State of 
Kentucky.
    Mr. Yarmuth. Thank you, Mr. Chairman. I just have one 
question. If we believe all the studies that we read about 
United States students are way behind students in many other 
nations in performance, academic performance, do we know enough 
about how other countries whose students are doing better than 
ours are doing, do we know enough about the way they train 
their teachers and school their teachers or are those lessons 
not particularly applicable to this culture? Just a fairly 
broad, but naive question. Dr. Robinson, do you want to attack 
that?
    Ms. Robinson. Mr. Yarmuth, we know some things. We know a 
lot about the way other countries are credentialing their 
teachers, what the expectations are, and I will be happy to 
make some of those references available. The biggest thing we 
have to understand is that the training and placement of these 
teachers represents one important part of a complicated 
formula. There are other components such as compensation, the 
status of the work in the larger society, and so forth, but 
also I would say the importance of learning that is placed in 
the--that learning has in the culture plays a role here as 
well. So while we admit some of the results we see 
internationally, we also have to recognize that our students 
have a lot of distractions.
    Mr. Yarmuth. Raw materials are a lot different there. Thank 
you.
    Voice. Can I testify? I am a former teacher. They do not 
teach to standardized tests. I will tell you that much.
    Mr. Hinojosa. Do you have any other questions? Thank you 
very much. I want to say that before I conclude we have seen 
different models that work and work very well throughout the 
country, and in an area that I represent we have been focusing 
a lot of efforts in the last 5 years in trying to recruit 
students in middle school to look at and consider the STEM 
fields and, Dr. Wiley, being that you represent that area, tell 
us what you are, the teachers are doing in that area, the 
schools, in collaboration with the University of Texas Pan 
American and the community college to be able to help us fill 
the pipeline with students towards those STEM careers.
    Ms. Wiley. One of the ways we have been working with our 
universities in our districts is in order to recruit we may 
have a campaign in our area to recruit more of our high school, 
and starting with middle school, students into the teaching 
profession. And many of our high schools are designing 
themselves into smaller learning communities where they are 
focusing on the STEM content areas so that we can produce 
students who have a high quality of math and science degrees 
but who are also interested in going into the teaching 
profession.
    And so through the center that we have and working with the 
university, we are also working with existing teachers to get 
Master's Degrees in those content fields, help pay for their 
tuition, so that we can better prepare the teachers who then 
can better prepare students in the STEM content areas.
    One of the areas that the students themselves feel if you 
talk to students they say that the curriculum is not relevant. 
So one of the focus of the STEM center is to put more relevance 
into our curriculum so that students understand how the STEM 
content is applied not just learning it for the content's sake. 
And so that is the biggest effort that we are making.
    Chairman Hinojosa. Thank you. Thank you. I am going to go 
ahead and proceed with concluding remarks because I believe 
that those eight votes are going to take quite a while and 
instead of recessing we are going to go ahead and try to 
conclude this.
    So as previously ordered, I want to say that Members will 
have 14 days to submit additional materials for the hearing 
record.
    Any Member who wishes to submit follow-up questions in 
writing to our witnesses should coordinate with majority staff 
within the requisite time.
    Without objection, this hearing is adjourned.
    [The Carnegie Report, submitted by Mr. Fallon, follows:]

            Teachers for a New Era: A National Initiative to
                    Improve the Quality of Teaching

Executive summary
    Recent research based on thousands of pupil records in many 
different cities and states establishes beyond doubt that the quality 
of the teacher is the most important cause of student achievement. More 
than ever, the nation needs assurance that colleges and universities 
are educating prospective teachers of the highest quality possible. The 
knowledge base for teacher education is better understood today than in 
1983, when an alarm was sounded by the Department of Education's 
report, A Nation at Risk. During the past generation, agreement among 
teacher educators has been growing on essential principles for 
excellence in the standard route by which students in higher education 
come to earn credentials enabling them to begin careers as teachers. A 
well supported, widely adopted, fully integrated approach, however, has 
been elusive.
    Carnegie Corporation of New York and other funders are now 
undertaking an ambitious reform initiative, Teachers for a New Era, to 
stimulate construction of excellent teacher education programs at 
selected colleges and universities. Success will require radical change 
in allocation of resources, academic organization, criteria for 
evaluating participating faculty, internal accountability measures, and 
relationships with practicing schools. At the conclusion of the 
project, the selected institutions should be regarded by the nation as 
administering the best programs possible for the standard primary route 
to employment as a beginning professional teacher.
    Teachers for a New Era is organized by three design principles 
described in detail in an announcement and prospectus. First, a teacher 
education program should be guided by a respect for evidence, including 
attention to pupil learning gains accomplished under the tutelage of 
teachers who are graduates of the program. Second, faculty in the 
disciplines of the arts and sciences should be fully engaged in the 
education of prospective teachers, especially in the areas of subject 
matter understanding and general and liberal education. Finally, 
education should be understood as an academically taught clinical 
practice profession, requiring close cooperation between colleges of 
education and actual practicing schools; master teachers as clinical 
faculty in the college of education; and residencies for beginning 
teachers during a two-year period of induction.
    Participation in Teachers for a New Era will be by invitation. A 
national advisory panel will advise the funders, including Carnegie 
Corporation of New York, on institutions to be selected. Institutions 
that agree to the conditions specified in the prospectus will be 
awarded up to $5 million for a period of five years, to be matched by 
equal funds provided by the institution. At least six awards will be 
made, staggered over three years, beginning with two awards in the 2002 
fiscal year. An independent research organization will assist the 
national advisory panel by providing descriptive and evaluative 
analysis as necessary.
Part One: Announcement
                              i. rationale
    New and convincing evidence that teaching is more important for 
schoolchildren than any other condition has been stunning in its 
clarity and exciting in its implications. Education leaders have always 
known that good teaching brings about learning by pupils. Now, recent 
research based upon thousands of pupil records in many different cities 
and states establishes beyond doubt that the quality of the teacher is 
the most important cause of pupil achievement. Excellent teachers can 
bring about remarkable increases in student learning even in the face 
of severe economic or social disadvantage. Such new knowledge puts 
teacher education squarely in the focus of efforts to improve the 
intellectual capacity of schoolchildren in the United States. More than 
ever, the nation needs assurance that colleges and universities are 
educating prospective teachers of the highest quality possible.
    Although many tools for significant improvement of teacher 
education are at hand, they have not yet been effectively assembled in 
widely used productive models. The knowledge base for teacher education 
is better understood today than in 1983, when an alarm was sounded 
through release by the Department of Education of its famous report, A 
Nation at Risk. During the past generation, agreement among teacher 
educators has been growing on essential principles for excellence in 
the standard route by which students in higher education come to earn 
credentials enabling them to begin careers as teachers. There is a 
remarkable convergence of design ideas among reform groups and 
professional associations.
    Many essential elements have been put in place in a number of 
colleges and universities. These include reliance upon courses and 
majors in the arts and sciences, close coordination with practicing 
schools, and a focus on pupil learning accomplished under teacher 
tutelage. Where new design ideas have been applied they have been knit 
together with core elements of a good teacher education program in 
basic areas such as curriculum, assessment, developmental psychology, 
instructional methods, and classroom management. A well supported, 
widely adopted, fully integrated approach, however, has been elusive. 
What is needed is a thoroughgoing reform engaging institutions of 
higher education in all of the academic programs that contribute to the 
education of prospective teachers and achieving priority support and 
attention by institutional administrative leadership. This kind of 
reform will reinforce a growing coherent energizing vision of teaching 
as a vital profession, a vision that induces high academic standards.
                        ii. general description
    Carnegie Corporation of New York and other foundations and funding 
sources now announce an ambitious reform initiative, Teachers for a New 
Era, to stimulate construction of excellent teacher education programs 
at selected colleges and universities. We seek a catalytic revision of 
teacher education led by colleges and universities committed to a new 
future for teaching and learning in the nation's schools.
    Through this initiative, Teachers for a New Era, we expect outcomes 
implementing radical change. Among these will be different allocation 
of resources; academic organization; criteria for evaluating 
participating faculty; internal accountability measures; and 
relationships with practicing schools. The purpose of Teachers for a 
New Era is to assist cooperating institutions in constructing and 
securing exemplary programs of education for prospective teachers. At 
the conclusion of the project, each of these institutions should be 
regarded by the nation as the locus for one of the best programs 
possible for the standard primary route to employment as a beginning 
professional teacher. The benchmarks of success for this effort will be 
evident in the characteristics of the teachers who graduate from these 
programs. They will be competent, caring and qualified, will be 
actively sought by school districts and schools, and will be known for 
the learning gains made by their pupils. The quality of the teachers 
prepared is expected to encourage the crafting of supportive public 
policy in states and school districts and emulation of the programs by 
other institutions.
    Teachers for a New Era is organized by three broad design 
principles, as described in detail in the attached prospectus. First, a 
teacher education program should be guided by a respect for evidence. A 
culture of research, inquiry, and data analysis should permeate the 
program. Among the features of this culture will be attention to pupil 
learning gains accomplished under the tutelage of teachers who are 
graduates of the program. Thus, pupil learning will become one measure 
of the effectiveness of a teacher education program. Second, faculty in 
the disciplines of the arts and sciences must be fully engaged in the 
education of prospective teachers, especially in the areas of subject 
matter understanding and general and liberal education. Finally, 
education should be understood as an academically taught clinical 
practice profession. That means that there will be close cooperation 
between colleges of education and actual practicing schools; master 
teachers in the schools will hold appropriate appointments as clinical 
faculty in the college of education; and graduates of teacher education 
programs will serve a residency under supervision of a mentor during a 
two-year period of induction into the teaching profession.
    Participation in Teachers for a New Era will be by invitation. A 
panel of experts will advise funding agencies on institutions to be 
selected. Colleges and universities are expected to be invitees, but 
the initiative leaves open the possibility that special groupings, such 
as a consortium of smaller institutions, or a state system of higher 
education, or an entire state, might qualify under special conditions. 
Included in the full array selected during the course of this 
initiative will be differing kinds of institutions, representing the 
variety of teacher education programs in the nation. Institutions that 
agree to the conditions specified in this announcement and prospectus 
will be awarded up to $5 million for a period of five years, to be 
matched by equal funds provided by the institution. The Corporation 
expects to make six awards, staggered over three years, beginning with 
two awards in Spring, 2002. Other foundations and funding sources will 
also participate in this historic project and will thus provide awards 
to other institutions, expanding the number of participating 
institutions beyond six.
    Teachers for a New Era is an initiative prepared in the belief that 
persuasive construction of high quality teacher education curricula 
will significantly improve the quality of teachers. In asserting that a 
well-developed program will address the design principles and issues 
described in the prospectus, it seeks to consolidate a consensus for 
the professional basis of teaching. It aims to acknowledge the rapidly 
changing conditions that support the education of prospective teachers 
and thus to look forward, anticipating trends and building the 
profession for the future. It will strengthen public confidence that 
academic institutions are exercising responsibility for quality 
education of prospective teachers.
         iii. support by foundations and other funding sources
    In designing Teachers for a New Era, Carnegie Corporation of New 
York has reviewed research and consulted broadly with grant making 
colleagues, experts in teacher education, and policy analysts. In the 
course of these discussions, other foundations have joined this 
initiative and committed resources. Therefore, Teachers for a New Era 
will be financed by a coalition of funding agencies. Carnegie 
Corporation of New York, with its own resources, is committed to making 
six awards through this initiative. Other foundations or funding 
sources will provide additional awards and other support.
    Because several foundations or funding sources are currently 
considering participation in this initiative in light of their 
priorities, commitments, and budgets, a complete listing of funding 
participants committed to the specific conditions and provisions of 
Teachers for a New Era is not fixed at this time. Carnegie Corporation 
of New York is acting as coordinator and informant. Where the term 
``funding agency'' is used in this announcement and prospectus, it will 
refer either to Carnegie Corporation of New York or another foundation 
or funding source participating in this initiative.
    The basic design principles put forward here are not proprietary. 
They are directed at the public interest and can be freely borrowed and 
modified by others, including legislative bodies and governmental 
agencies.
                               iv. scope
    There are many ways by which teachers acquire and sustain skills in 
teaching. Teachers for a New Era is explicitly focused on just one of 
these: the standard route by which students in higher education come to 
earn credentials enabling them to begin careers as teachers. This is 
often called the ``preservice'' teacher education curriculum. For 
purposes of this initiative, the conception includes ``induction'' as 
part of the standard route. Induction is a system of formal and 
informal support provided to licensed beginning teachers during their 
first exposure to full-time professional teaching.
    Hardly any teacher education program is a single well-defined 
entity. Multiple programs, such as special education or early childhood 
education, as well as many different elementary and secondary education 
programs, may all be housed together in one large administrative home, 
but be organized in very different ways to produce specific educational 
outcomes. Because local forms of organization differ, it is customary, 
as in this initiative, to refer to them conveniently with a single 
term: the teacher education program. The basic design principles put 
forward in this prospectus, however, are meant to apply fully, as 
appropriate, to each of the many specialty subprograms serving the 
education of prospective teachers.
    Two well-known forms of teacher education are not included in this 
request for proposals. The first is ``alternative'' certification, 
which provides specialized curricula for college graduates who enter 
the profession of teaching directly without having participated in the 
standard educational curriculum normally required for licensure. The 
second consists of professional development courses and activities for 
practicing teachers who need to sustain and render current their skills 
as teachers, often called the ``inservice'' teacher education 
curriculum. Both of these forms of teacher education are important and 
are subjects of philanthropic support through other venues. Neither, 
however, is a direct subject of Teachers for a New Era.
                          v. funding strategy
            A. Base Awards
    A small number of large awards will be made to selected 
institutions. The awards will be for an initial period of three years, 
with a contingent renewal for one additional two-year period. Thus, 
award funds could extend for program design and implementation over a 
period of five years. Each award will be for an amount up to one 
million dollars per year, to be matched on a 1:1 basis by the receiving 
institution. Matching funds may come from reallocations internal to the 
higher education institution's base budget or from newly raised private 
or public funds. ``In-kind'' resources, such as supplies, space, or 
temporarily apportioned personnel time are, of course, encouraged, but 
may not be used to meet the matching requirement.
    Renewal awards will be made contingent primarily upon two 
satisfactory outcomes: (1) attaining 24-month milestone goals as 
described in the awardee's initial proposal; and (2) submission of a 
satisfactory plan for matching funds, describing commitments obtained 
and planned. At least thirty percent of all matching funds must be 
pledged to endowment for support of the new program. Thus, in the case 
of a maximum award, ten million dollars will be invested in the 
institution for purposes of design and implementation; at least 1.5 
million dollars will consist of permanent endowment.
    Invited applicants should presume that they would meet the 
contingency for renewal. Therefore, an invited proposal will be written 
as a five-year comprehensive effort with full engagement from its 
initiation. The institution's design will assume progressive and 
systematic implementation throughout five years.
            B. Partner Support Awards
    At the beginning of the third year of support up to $250,000 will 
be added to each institution's award budget to assist in the support of 
partners. Upon renewal, up to an additional $500,000 will be added for 
this purpose. These funds are in addition to the base award. The 
awardee institution will be responsible for disbursing these funds to 
partner institutions. Partners may be school districts; teacher 
education programs at other institutions that agree to adopt the basic 
design principles being implemented by the awardee institution; or 
other institutions selected by the awardee institution in consultation 
with the funding agency. Each award by an awardee institution to 
support a partner may not be less than $75,000, nor more than $200,000, 
and only one may be awarded to any particular partner institution. 
Funding strategies for partner support awards will be developed by the 
awardee institutions and implemented in consultation with the funding 
agency.
                 vi. selection procedures and criteria
    A panel of advisers will recommend to the funding agencies a set of 
institutions to be invited to submit proposals for funding under terms 
of the Teachers for aNew Era initiative. The members of the panel will 
use their best judgment to propose institutions for selection and 
ultimately to recommend specific institutions to be invited. The panel 
will be assisted in its work by a research organization under contract 
to the funding agencies, which will supply descriptive information, 
relevant data, and analytical reports. No particular extant program is 
a target for endorsement or exclusion in this initiative. The panel 
will consider the universe of all institutions that harbor teacher 
education programs. Programs limited to entry only by graduate students 
as well as those open to beginning undergraduates are equally eligible. 
Criteria for selection will include the following:
    <bullet> The quality of the teacher education program currently in 
place at the institution
    <bullet> The capacity of the institution to serve as an exemplar or 
model for other institutions
    <bullet> The impact of the institution on the enterprise of teacher 
education
    <bullet> The local or regional public policy environment that most 
directly affects the institution
    <bullet> The capacity of the institution to engage in leadership 
activities to persuade other institutions to adopt successful features 
of the design principles
    <bullet> The quality of the faculty and administration
    Other criteria may emerge during the analysis that leads to 
selection of an institution invited to apply, but those listed here 
will be primary and dominant.
Part Two: Prospectus
                          i. design principles
    Institutions invited to participate in Teachers for a New Era will 
be asked to submit a proposal in conformity with this design 
prospectus. The proposal will set forth how the institution will 
address the design principles described here, and how it will engage 
the specific issues enumerated in section II, below. The design 
principles and engagement issues arise from a process of induction. 
They have been shown in most cases by credible demonstration to 
contribute to increases in teaching effectiveness. Where the empirical 
evidence is weak, they represent consensus views of leading researchers 
and practitioners, based upon experience and reason, about a secure 
basis for building teaching effectiveness.
    The principles and issues fit together comfortably and are not 
contradictory. In that sense, they are coherent. Indeed, their 
consistency is intended to convey a core understanding of normative 
best practice. They suggest a theory of action, as that phrase is 
commonly understood. It is that an inclusive academic culture of 
research, rigorous standards and respect for evidence provides for a 
self-correcting and continually improving teacher education program. 
Obviously, the word theory is not used here as the exacting canons of 
science define it. There is no fully constructed system. Instead, the 
coherence of the principles and issues, taken together, holds promise 
for perceiving elements of a general model that can readily be 
disseminated nationally and adopted generally by teacher education 
programs anywhere. The principles and issues provide considerable 
latitude for local circumstances, imaginative approaches, and the 
special strengths brought to the enterprise by any specific institution 
of higher education.
            A. Decisions Driven by Evidence
    A teacher education program should be evaluated against the most 
credible evidence of best practice. Although the qualitative, 
quantitative, and experimental research base for teacher education can 
be characterized as modest, it must nonetheless intelligently inform 
program design. For each key element, responsible faculty should ask, 
what evidence might be brought to bear upon a decision to include or 
exclude this element? Adjustments to the program should be regularly 
anticipated based upon reviews that confirm promising new findings.

                        1. Drawing Upon Research

    An exemplary teacher education program should begin with a 
persuasive scholarly discussion of what constitutes excellence in 
teaching. It should be based upon credible evidence, which includes 
sound research as well as compelling experience. Flowing from this 
research-based treatment, a college or university based program of 
instruction can arise from consideration of the means by which teaching 
effectiveness can be increased. Of course, not every design decision 
can be justified by a specific research finding. No experiment is 
perfect. The best experiments point to new experiments that need to be 
done. Trying to rule out alternative explanations requires mental 
effort of the most demanding kind. Working continually with evidence 
and evaluations of research, however, is an efficient means for 
clarifying our observations and building our confidence in practice. It 
builds a culture that justifies ongoing redesign of work as the program 
learns from the very steps it takes to improve. Thus, research not only 
precedes and supports experimentation. It accompanies and reinforces 
it. The teacher education program should be informed by a broad-ranging 
understanding of ongoing local research practice, and what can be 
trusted from published results in the research literature.

                     2. The Role of Pupil Learning

    A variety of teacher characteristics can be considered, on the 
basis of credible evidence, to constitute criteria for measuring 
success as a teacher. In every case, however, an essential criterion 
must be evidence for learning accomplished by pupils entrusted to the 
care of the teacher. Invited proposals will be considered only if they 
contain plans to evaluate the ongoing effectiveness of the teacher 
education program based in part on evidence of pupil learning that has 
occurred under the tutelage of teachers who are graduates of the 
program. This is understandably difficult to arrange, and few teacher 
education programs currently make good use of it.
    Furthermore, if pupil learning is required as a measure of the 
effectiveness of teacher education, one has to allow enough time for a 
teacher candidate to complete a program and to practice for several 
years as a professional teacher. Therefore, it is not expected that 
proposals in this competition will be able to demonstrate the 
effectiveness of their proposed design using measures of pupil learning 
during the period of grant support. It is required, however, that a 
successful proposal contain a method by which such measures will 
necessarily in due course assume their proper role in validating the 
design. It is expected that data will have begun to be collected before 
the period of grant support has terminated. In addition to this long-
term consideration of the role of pupil learning, attention to the 
assessment and measurement of pupil learning will be an integral 
element of the teacher education program, especially gaining attention 
during the student teaching component.
            B. Engagement with the Arts and Sciences
    Faculty appointed within the disciplines of the arts and sciences 
must be fully and functionally engaged in the education of prospective 
teachers. Proposals must address the matter forthrightly, because there 
are few successful precedents of organizational structures to 
facilitate this process. The means by which this may be accomplished 
will reflect the particular strengths and traditions of the applicant 
institution.
    Each proposal must, for example, describe how teacher candidates 
will encounter and surmount subject-matter understanding and general 
and liberal education, the domains of which lie principally within the 
core competencies of faculty in the arts and sciences. When 
conscientiously addressed in light of the requirements necessary to 
enfranchise a professional teacher, it is likely that fundamental 
questions will arise about the adequacy of design of academic major 
programs in the arts and sciences, or about the program of general and 
liberal education for all students. Such questions are important and 
cannot be ignored. At the same time, their complexity and difficulty 
must not block the development of a solution that is necessary for the 
education of teachers. Therefore, special solutions may be required for 
teacher candidates that may have the effect of requiring a particular 
kind of rigor for these students beyond that which is normally required 
for others.
    Some faculty in the arts and sciences will be expected to 
participate in the supervision of teacher candidates in clinical 
settings, as the candidates learn to teach academic disciplines to 
pupils in schools. Further, faculty in the arts and sciences will be 
expected to join with their colleagues in professional education to 
address the engagement issues described in Part II of this prospectus. 
In short, significant effort on the part of arts and sciences faculty 
will be required to sustain an excellent program of teacher education. 
Each proposal must address how deans, department chairs, and colleagues 
in the disciplines will support this effort.

                    1. Subject Matter Understanding

    It is essential for every teacher candidate to possess an academic 
major in a discipline of the arts and sciences, but even this may be 
insufficient to acquire the content knowledge necessary for excellent 
teaching. An evidence driven program can ask, for example, what kind of 
synthetic understanding of a discipline a teacher should have in order 
to take advantage of the kind of simple questions raised by ordinary 
pupils in schools. In addition to specific content mastery, does the 
teacher candidate possess integrative knowledge of the nature of the 
discipline, its premises, modes of inquiry, and limits of 
understanding?

                    2. General and Liberal Education

    Teachers should be perceived as representatives of a profession. 
Their professional authority will rest in a significant extent upon 
their ability to demonstrate that they are themselves educated persons. 
Therefore, teacher candidates must be expected to know more in the way 
of subject matter than just what they are charged with teaching. 
Teacher candidates must command general education, liberal education, 
and the liberal arts. Goals in these areas should be clearly specified, 
perhaps in greater detail than for other postsecondary students, and 
their competencies should be assessed.
            C. Teaching as an Academically Taught Clinical Practice 
                    Profession
    Successful proposals will include plans to engage faculty in the 
disciplines of education functionally in the teacher education program. 
The means by which this may be accomplished will reflect the particular 
strengths and traditions of the applicant institution. Each proposal 
must, however, address the following concepts, whose domains lie 
principally within the core competencies of faculty in education. 
Teachers for a New Era assumes that pedagogy lies at the heart of 
education as an academic enterprise. Furthermore, it assumes that a 
well-designed teacher education program relies upon sound core 
principles in the teaching of pedagogy. It adds to this sound core the 
implications of conceptualizing teaching as a clinical practice 
profession and requires that these become an integral part of the 
program design.
    Excellent teaching is a clinical skill. It occurs principally with 
clients (pupils) in clinics (classrooms or laboratories) arranged to 
enhance its efficacy. Just as for any clinical practice profession, 
there is a knowledge base for teaching that is taught and learned in 
traditional academic settings. This usually includes, for example, 
historical, philosophical, sociological, and economic foundations of 
education. In addition to academic study, clinical practice in schools 
takes place in complex public environments and entails interaction with 
pupils, colleagues, administrators, families and communities. Clinical 
education is developmental in its conception, and is designed to teach 
clinicians not to act upon the client, but to assist the client's 
growth and development. Good clinical practice keeps the client's 
interests as a central focus at all times. Exemplary teacher education 
provides for clinical education in a clinical setting.

                              1. Pedagogy

    Teacher education will equip professional teachers to assess what 
pupils already know and can do as the point of departure for new 
learning. Teacher candidates should know how to develop a rigorous 
curriculum that engages pupils, builds on their prior knowledge, and 
fosters deep understanding of content. Teacher candidates should 
demonstrate ability to collaborate with colleagues and families to 
ensure coherence and ongoing success with pupils. Teacher candidates 
will know how to observe and assess children's learning continuously in 
order to plan and implement responsive instruction. Teacher candidates 
will know how children develop into adults, physically and 
psychologically. A professional teacher's repertoire of teaching 
strategies will widen over time so that children with a range of 
learning styles, abilities, and cultural backgrounds will have 
effective access to schooling.
    A proposal for Teachers for a New Era will include some means of 
measuring the learning of pedagogy accomplished by teacher candidates 
as a result of instruction provided within the teacher education 
program.

                         2. Schools as Clinics

    An exemplary teacher education program will develop close 
functional relationships with a number of practicing schools. 
Superintendents, principals, and experienced teachers will have an 
appropriate role in advising and shaping the education of teacher 
candidates. Faculty from the university or college will be actively 
involved in arranging, supervising, and teaching teacher candidates in 
the clinical setting of the classrooms of the practicing schools. 
During periods of student teaching, teacher candidates will assess 
pupil learning that occurs under their tutelage.

                   3. Teachers on Faculty Appointment

    Outstanding experienced teachers are skilled clinicians. They can 
contribute to the education of prospective teachers in formal ways in 
the higher education setting. Through some appropriate process of 
selection, experienced excellent teachers should be recognized as 
faculty colleagues along with other teacher educators in higher 
education. Some form of qualified faculty appointment may recognize 
their status, e.g., clinical faculty, professor of practice, or adjunct 
professor.

                        4. Residency (Induction)

    The teacher education program will bring the teacher candidate to a 
point where the candidate receives an academic degree and a state 
sanctioned license to teach in a school. That has been the traditional 
endpoint for teacher education programs. An exemplary teacher education 
program, however, will consider the teacher candidate's first two years 
of full-time regular service in the teaching profession as a residency 
period requiring mentorship and supervision. During this induction 
period, faculty from the higher education institution, inclusive of 
arts and sciences faculty, will confer with the teacher on a regular 
basis, arrange for observation of the teacher's clinical practice, and 
provide guidance to improve practice. Successful completion of the 
formally structured induction program will be occasion for the teacher 
candidate to receive a final document acknowledging full completion of 
the program and recognition as a professional teacher.
    The majority of teacher education programs in the United States 
educate candidates who become teachers within a nearby region, or 
within the same state as the teacher education program is located. 
There are highly regarded programs, however, the majority of whose 
candidates seek and find initial teaching positions throughout the 
United States, and well beyond the borders of the state sheltering the 
teacher education program. Even those programs most of whose graduates 
work nearby also produce some graduates whose first position is in a 
setting remote from the locus of the program. Therefore, in designing a 
residency component, proposal writers will need to consider mechanisms 
for supervision during induction in locations far from the home of the 
teacher education faculty. This could include, for example, 
arrangements for supervision to be conducted at least in part by a 
corresponding institution near to the practicing teacher. Other 
solutions are possible. Distance learning technologies, structured 
email accounts, interactive software programs, special courses designed 
for the summer following the first year of teaching, and traveling 
faculty monitors are representative ideas that could be employed. 
Institutions are encouraged to seek designs for residency that provide 
capable regular clinical supervision, coaching, and assistance, while 
taking advantage of the special strengths and circumstances of the 
teacher education program.

          5. Preparation of Candidates for Professional Growth

    Professional growth begins in the earliest stages of a teacher 
education program with the cultivation of communities of colleagues 
sharing professional interests in teaching and in the intellectual 
exploration of subject matter domains. Teacher candidates should be 
encouraged to participate with peers from whom they can learn 
informally about professional advances, interesting ideas about subject 
matter, and how to improve their teaching. They should be taught how to 
join or construct informal support groups of colleague teachers in the 
school environments where they will be teaching. When the professional 
teacher has completed an exemplary teacher education program, the 
teacher will be well prepared to engage in regular professional 
development activities to sustain and develop further the skills of 
clinical practice. This could include such activities as embarking upon 
activities leading to certification by the National Board for 
Professional Teaching Standards, or applying for fellowship support for 
competitive programs of professional renewal, or designing a program 
for further graduate study, or participating regularly in workshops 
offered by the school district.
  ii. issues to be addressed jointly by faculties in education and in 
                           arts and sciences
    Section I describes three basic design principles: reliance upon 
credible evidence; engagement with the arts and sciences; and teaching 
as an academically taught clinical practice profession. They cut across 
most elements of teacher education. Some issues should be specifically 
considered by faculties in education working jointly with faculties in 
arts and sciences in preparing a proposal for consideration in this 
competition.
            A. Pedagogical Content Knowledge
    There is a kind of knowledge essential to teaching that arises not 
from subject matter understanding alone, nor from pedagogy alone, but 
requires competence in both for its formation. This pedagogical content 
knowledge, or subject-specific pedagogy, must be treated as an integral 
part of an exemplary teacher education program, and it requires the 
joint effort of faculties in the arts and sciences and in education. A 
deep understanding of subject matter is necessary, enabling the teacher 
to develop a rich repertoire of metaphors, sufficient to reach pupils 
whose range of experience may be quite different than the teacher's. 
Fashioning effective metaphors permits the teacher to build a bridge 
between the knowledge possessed by the teacher and the implicit 
understandings brought into the learning situation by the pupil. 
Pedagogical content knowledge is more than the ability to find 
effective metaphors. It is a breadth, depth and flexibility of 
understanding in a field that allows a person to teach imaginatively 
and productively. It recognizes the cognitive world of the potential 
learner as a fundamental part of an equation for teaching, thus linking 
the learner to the subject-matter mastery of the teacher.
            B. Literacy/Numeracy Skills
    Essential requirements for effective citizenship remain the ability 
to read well, to write clearly, effectively, and in accord with 
conventional standards of grammar and spelling, and to perform simple 
arithmetic operations quickly and correctly. Many postsecondary 
students lack some or all of these skills. Teachers, however, must not 
only demonstrate mastery of them, but also be prepared to bring about 
mastery in the pupils they teach. An exemplary program of teacher 
education will, therefore, have some means to ensure that teacher 
candidates acquire and demonstrate mastery of literacy/numeracy skills, 
and that they are prepared to teach them, irrespective of the level at 
which they will be teaching.
            C. Elementary and Middle School Education
    A broad consensus exists that teachers preparing to teach at the 
secondary level ought to possess an academic major in the discipline 
they intend to teach. There is no similar consensus, however, for the 
more complex and academically engaging question of what should be the 
appropriate academic major for a candidate preparing to teach at the 
elementary level. At present, plausible cases are made for arbitrary 
selection of any major in the arts and sciences, for a major in 
developmental psychology, for an interdisciplinary major in the arts 
and sciences, for a specialized curriculum in pedagogy, or for other 
possibilities.
    The question of the academic concentration for a candidate 
intending to become an elementary school teacher deserves early 
attention in the construction of an exemplary program of teacher 
education. It should be addressed in a rigorous way, with close 
attention to credible evidence from the research literature, and in 
intensive discussion with faculty representing disciplines of the arts 
and sciences. How can elementary teachers learn the core structure of 
multiple disciplines so they are prepared to teach a wide variety of 
content knowledge? What is the core structure of disciplines central to 
an elementary teacher's ability to react to student understanding with 
agile manipulation of content in ways that make it understandable? How 
can an elementary teacher develop subject matter understanding that 
goes beyond the ability to recall information from introductory survey 
courses? How can synthetic understanding of a discipline be helpful to 
an elementary school teacher?
    Similar concerns may also apply to the question of an appropriate 
academic major for a prospective middle-school teacher and should, 
therefore, also be directly addressed and resolved.
            D. Technology
    The basic processes of teaching and learning do not require much 
more than pupils and teachers. New technologies often appear, however, 
that can facilitate both teaching and learning, and historically 
excellent teachers have welcomed them. Knowing how to use facilitative 
technologies effectively is an essential skill in the teacher's 
repertoire. Our current era has placed enormous demands upon this 
requirement, however, because the economy is producing extraordinary 
new technologies at a very high rate. Potentially effective but 
unproven technologies exist along with excellent older ones, obsolete 
ones, and ineffective ones. An exemplary teacher education program will 
integrate instruction about technology throughout the program. It will 
be focused upon building the knowledge teachers need to evaluate which 
technologies have proven effective and how to use these technologies 
for teaching and for learning.
            E. Cultural Considerations in Teaching and Learning
    There are today in the United States more adherents of Islam than 
there are Episcopalians. More than 70 percent of the pupils in the Los 
Angeles unified school district are immigrants from Latin America, as 
are more than 50 percent of the pupils in Dodge City, Kansas. In many 
of the nation's largest cities, some districts are composed by 
majorities of more than 90 percent of pupils whose parents are 
Americans with family histories hundreds of years old on this continent 
and of African descent. In many communities Asian families form an 
imposing majority, and everywhere a current tide of immigration from 
throughout the world is affecting the makeup of the nation's 
classrooms. Given the current and projected future teaching force, the 
cultural composition of the body of teachers will continue to be very 
different from the cultural composition of pupils for the foreseeable 
future. To recognize the implicit understandings of the world brought 
into the classroom by the learner, teachers need to comprehend basic 
elements of the cultures in which the pupils live. An exemplary program 
of teacher education will devote attention to considerations of 
national culture, representative cultures, and how sensitivity to 
culture works as an ally to effective teaching. Curriculum materials 
and teaching strategies must aim at accuracy with respect to what 
accepted research findings have reported on differing cultural 
traditions and their effects upon learning.
            F. Recruitment of Under-Represented Groups into Teaching
    The national need for teachers of high quality is great. In many 
settings salaries are increasing and working conditions are good. 
Teacher candidates come from a variety of backgrounds and 
circumstances. There is an especially pressing need for teacher 
candidates who represent minority communities, for those who can teach 
science and mathematics, and for those who can develop the special 
skills to teach pupils who face unusual challenges to learning. 
Faculties in the arts and sciences as well as in education should 
encourage and support postsecondary students who express an interest in 
teaching as a profession. Talented students should be especially 
encouraged.
            G. Late Deciders in an Undergraduate Program
    Many excellent teachers arrive at a decision to adopt the 
profession late in their undergraduate careers. Furthermore, many 
teacher candidates begin study at one institution and then transfer to 
another where they plan to continue. In many cases the point of entry 
is a two-year community college that provides the teacher candidate 
with subject matter instruction in key areas, such as mathematics and 
science. Late deciders and transfer students can pose problems for 
programs that admit teacher candidates as undergraduate students. An 
exemplary undergraduate program leading to primary certification will 
anticipate that some teacher candidates will seek to enter the program 
after the point that the program considers optimal for the ideal 
beginning candidate. Late deciders are often very strong candidates who 
can develop into excellent teachers. Therefore, specific provisions 
should be developed within the program to ease the entry of candidates 
who come to the program later than the normally indicated point of 
admission. Such candidates should not be penalized by undue delay in 
prospects for graduation, but rather should be given allowance 
appropriately for coursework already taken or knowledge gained outside 
the program. Proposal writers should not conceive this option as a form 
of alternative certification, but rather of late entry by qualified 
candidates into a program of primary certification.
                          iii. accountability
            A. Project Manager
    The project manager for an award from Teachers for a New Era must 
be an officer within the office of the Chief Executive Officer or of 
the Chief Academic Officer of a college or university maintaining a 
program of teacher education. The award will not be made to a nested 
school or college, or to a dean, but only to an officer with 
administrative authority that extends throughout all academic units of 
the institution. The project manager will be accountable for 
implementing the initiative, managing its details, and bringing it to 
successful completion.
            B. Approval by the Governing Board
    After selection and submission of a proposal, upon notification by 
the funding agency of approval for an award, the Chief Executive 
Officer will be requested to take the proposal to the institution's 
governing board for its formal approval. Award of a grant under the 
conditions of Teachers for a New Era will be conditional upon approval 
of the final proposal by the governing board of the institution.
            C. Coordinating Council
    Proposals prepared for consideration under the conditions of 
Teachers for a New Era will be required to contain provision for a 
coordinating council. The purpose of the council will be to receive 
reports on the status of the teacher education redesign initiative, to 
monitor its ongoing progress, to facilitate its success, to publicize 
its achievements, and to offer advice. In order to perform these 
functions, the council will probably need to meet at least quarterly, 
and should be apprised of budgetary status and curricular developments. 
The council should be convened by the project manager, and chaired by 
the Chief Academic Officer. The proposing institution will design the 
composition and specific charge of the coordinating council. The 
following representatives, or their equivalents, may be considered 
appropriate: a school board member; a practicing teacher; a school 
principal; a superintendent; a representative from a professional 
association representing teachers; a representative from an appropriate 
community-based organization; a representative from local business or 
industry; a member of the State Board of Education; a faculty member 
from the School of Education; a faculty member from the Arts and 
Sciences; the Dean of Education, ex officio; and the Dean of Arts and 
Sciences, ex officio.
            D. Dissemination
    Institutions selected for awards under the conditions of Teachers 
for a New Era will be national exemplars of best practice in the field 
of teacher education. This imposes a responsibility for dissemination 
of lessons learned, successful innovations, and difficulties 
encountered. The funding agencies will undertake to bring the grant 
recipients together at least once annually for a participatory 
conference for as long as any grants are active. Proposal writers 
should describe efforts they plan to encourage other institutions to 
follow their lead. These could include, for example, residencies for 
teacher educators from other institutions; newsletters; plans for 
regular presentations at local, state, regional, and national 
conferences; and invitational conferences to other institutions to 
visit the grantee institution for discussions of teacher education. The 
partner support grant funds, which will become available in the third 
year of the award, will be helpful for this purpose. Proposal writers 
should also include budgeted amounts from the base grants to promote 
dissemination of successful design.
                      iv. proposal specifications
            A. Format
    Proposals may be organized in any form that the writer feels will 
most effectively present the proposed ideas, subject only to the 
following constraints. The proposal should consist of a narrative, plus 
appendices. The total length of the narrative may not exceed 7,500 
words, a measure that can be calibrated with most word processing 
programs. Each page should include a header that contains the name of 
the institution on whose behalf the proposal is submitted, in addition 
to the page number. The narrative should specify the current status of 
the teacher education program, which can be viewed as a baseline from 
which change will be measured. It should then include sections that 
address each of the lettered and numbered paragraphs described in 
section I (Design Principles) and section II (Issues to be Addressed 
Jointly) of this design prospectus, indicating how and where change is 
expected as a result of activities sponsored by the award. These may 
later be used as benchmarks for success. The first appendix should 
address each of the lettered paragraphs described in section III 
(Accountability). The second appendix should describe milestone goals 
that the awardee institution expects to meet by the end of the first 24 
months of grant-supported activity. The degree of success in meeting 
these goals will be one of the criteria used for determining whether to 
award a renewal grant for an additional two years beyond the first 
three years of grant-supported activity. Other appendices may be 
included at the discretion of the writer, for informational purposes.
            B. Budget

                          1. Foundation Funds

    Although the design initiative is expected to extend over a five-
year period, grants will be awarded first for a three-year period, with 
a contingent renewal possible for an additional two years. A detailed 
budget is required for the first three years of the proposed grant, and 
may not exceed $3 million from foundation funds for this period. A 
general outline of proposed expenditures for the two-year contingent 
renewal grant should be included as part of the proposal, in the 
context of an anticipated five-year grant period. Total expenditures 
from funds supplied by the funding agency may not exceed $5 million 
over five years. The budget can be presented in narrative form as a 
summary in a budget appendix, although the specific proposed spending 
plan for the first three years should be detailed in the standard 
budget request template supplied by Carnegie Corporation of New York or 
another funder. Guidelines, including limitations on indirect costs, 
are provided with the budget request template.

                           2. Matching Funds

    It is expected that receipts and secure pledges for $5 million in 
matching funds will have been secured by the conclusion of an 
anticipated five-year grant period. At least 30 percent of the matching 
funds must be pledged to permanently endowed accounts. No matching 
funds are required in advance, and a detailed fundraising strategy is 
not required until the grantee submits a renewal proposal about 30 
months after the start of grant-supported activity. At the time of 
submission of the renewal proposal, it is expected that substantial 
matching funds will have been received. The kinds of funds that can be 
considered as matching funds for purposes of this grant proposal are 
described in Part One, Announcement, section V (A) of this announcement 
and prospectus. Carnegie Corporation of New York will provide, upon 
request, limited assistance and advice to institutions seeking help in 
raising funds. The commitment to secure matching funds should be signed 
by the institution's chief executive officer and submitted with the 
initial three-year grant proposal. At the time of submission of the 
renewal proposal, a separate budget appendix will be required 
containing a brief narrative description of plans for the use of the 
matching funds, including the apportionment for endowment purposes.
            C. External Evaluation
    Each proposal must contain a provision, financed by grant-provided 
funds, for an evaluation of the conduct and success of the program. The 
evaluation should be conducted by an agency external to the teacher 
education program and contain provision both for formative evaluation 
and summative evaluation. The formative evaluation should begin with 
the initiation of grant-supported activity, providing for continuous 
improvement of the design initiatives as experience is gained from 
their implementation. The summative evaluation can begin before the 
cessation of grant-supported activity. Although the summative 
evaluation can conclude after expiration of the grant, the funding 
agency will expect to receive the final report of the evaluation.
            D. Timeline, Submission, and Selection
    Assisted by an independent research agency under contract to 
Carnegie Corporation of New York a panel of expert external evaluators 
will advise funding agencies of institutions to be invited to submit 
proposals for Teachers for a New Era. Once an institution has submitted 
a proposal, evaluation will begin immediately. Acting with benefit of 
advice from the panel, negotiations will be undertaken with the 
submitting institution aimed at strengthening the proposal. The 
Corporation plans to make the first two awards by May 1, 2002. The same 
cycle will be repeated for the following two years, until six awards 
have been made. Other funding agencies will be making awards on 
differing schedules in accordance with their own procedures and 
requirements.
                           general references
Boston Public Schools. (1998). ``High school restructuring.'' 
        Newsletter, March 9, 1998.
Coleman, J. S., et al. (1996). Equality of educational opportunity. 
        Washington, DC: Government Printing Office.
Darling-Hammond, L. (2000). Teacher quality and student achievement: A 
        review of state policy evidence. Education policy analysis 
        archives, 8(1), http://epaa.asu.edu/epaa/
Ferguson, R. F. (1998). Can schools narrow the black-white test score 
        gap? In C. Jencks & M. Phillips (eds.), The black-white test 
        score gap. Washington, DC: Brookings Institution.
Ferguson, R. F., & Ladd, H. F. (1996). How and why money matters: an 
        analysis of Alabama schools. In H. F. Ladd (ed.), Holding 
        schools accountable: performance-based reform in education. 
        Washington, DC: Brookings Institution.
Goldhaber, D. D., & Brewer, D. J. (1997). Evaluating the effect of 
        teacher degree level on educational performance. In W. J. 
        Fowler (ed.), Developments in school finance, 1996. Washington, 
        DC: National Center for Education Statistics.
Goldhaber, D. D., & Brewer, D. J. (1999). Teacher licensing and student 
        achievement. In M. Kanstoroom & C. E. Finn (eds.), Better 
        teachers, better schools. Washington, DC: Thomas B. Fordham 
        Foundation.
Kain, J. F. (1998). The impact of individual teachers and peers on 
        individual student achievement. Paper presented at the 20th 
        annual research conference of the Association for Public
Policy Analysis and Management. New York City, October 31.
Monk, D. H. (1994). Subject area preparation of secondary math and 
        science teachers and student achievement. Economics of 
        education review, 13(2), 125-145.
Rivkin, S. G., Hanushek, E. A., & Kain,
J. F. (1998). Teachers, schools, and academic achievement. National 
        bureau of economic research, working paper number 6691.
Sanders, W. L., & Rivers, J. C. (1996). Cumulative and residual effects 
        of teachers on future academic achievement. Knoxville, TN: 
        University of Tennessee Value-Added Research and Assessment 
        Center.
Wilson, S. M., Floden, R. E., & Ferrini-Mundy, J. (2001). Teacher 
        preparation research: Current knowledge, gaps, and 
        recommendations (U.S. Department of Education Research Report 
        Doc. R-01-3). Seattle, WA: Center for the Study of Teaching and 
        Policy.
                                 ______
                                 
    [Whereupon, at 11:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
